Case: 20-17410, 03/09/2021, ID: 12029695, DktEntry: 14, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAR 9 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 20-17410

MICHAEL DOYLE RUGGLES I,

D.C.No. l:20-cv-00247-DKWKJM
District of Hawaii,
Honolulu

Plaintiff-Appellant,
v.

DAVID Y. IGE, Individually and in his
Official Capacity as Governor of the State of ORDER
Hawaii; et al.,
Defendants-Appellees.
Before: M. SMITH, BADE, and BUMATAY, Circuit Judges.
Upon a review of the record and the responses to the court’s January 11,
2021 order, we conclude this appeal is frivolous. We therefore deny appellant’s
motion to proceed in forma pauperis (Docket Entry No. 2), see 28 U.S.C.
§ 1915(a), and dismiss this appeal as frivolous, pursuant to 28 U.S.C. § 1915(e)(2)
(court shall dismiss case at any time, if court determines it is frivolous or
malicious).
DISMISSED.

MN/MOATT

027

Ruggles v. Ige, Slip Copy (2020)

2020 WL 6731704
Only the Westlaw citation is currently available.
United States District Court, D. Hawai'i.

Michael Doyle RUGGLES, Plaintiff,
v.
Governor David IGE, Individually and in his Official Capacity
as Governor of the State of Hawai'i, et al., Defendants.
Case No. 20-CV-00247-DKW-KJM
Signed 11/16/2020
Attorneys and Law Firms
Michael Doyle Ruggles, Mountain View, HI, pro se.
Kendall J. Moser, Office of the Attorney General, Honolulu, HI, for Defendants Governor David Ige, Clare E. Connors, Nolan
Espinda, Suzanne Case, Bruce S. Anderson.
Laureen L. Martin, Sinclair Salas-Ferguson, Office of the Corporation Counsel, Hilo, HI, for Defendants Mitch Roth, Paul
Ferreira.
Candace Marie Hough, Corianne W. Lau, Paul Alston, Dentons US LLP, Honolulu, HI, for Defendants Manoa Botanicals, Maui
Wellness Group LLC - Maui Grown Therapies.
Keith K. Kato, Kevin S.W. Chee, Chee Markham Kato & Kim, Honolulu, HI, for Defendants TCG Retro Market 1, LLC - Cure
Oahu, Hawaii Ethos, LLC, Pono Life Sciences Maui LLC.

ORDER GRANTING DEFENDANTS’ MOTIONS TO DISMISS
Derrick K. Wastson, United States District Judge
*1 Plaintiff Michael Doyle Ruggles filed his original complaint on May 28, 2020. On September 21, 2020, in response to
several motions to dismiss, this Court dismissed that Complaint with partial leave to amend. After Ruggles filed a First Amended
Complaint (“FAC”) on October 5, 2020, Defendants again moved to dismiss the claims against them. As discussed below,
because Ruggles has failed to rectify the deficiencies in his original complaint, Defendants’ motions to dismiss are GRANTED,
and the case is DISMISSED.

RELEVANT BACKGROUND
Ruggles’ FAC, like his original complaint, establishes that he is a medical marijuana user who wishes to possess, grow, and
distribute marijuana to others in a fashion similar to what the medical marijuana dispensaries are licensed to do under state
law. Dkt. No. 70 at 6. Ruggles argues that Defendants’ collective participation in the medical marijuana dispensary program—
writing and enforcing state marijuana possession and distribution laws, establishing the regulatory scheme for dispensaries, and
operating the dispensaries themselves—constitutes a criminal enterprise. Id. at 11-20. As part of this enterprise, Defendants
allegedly expended income derived from racketeering activities, conducted or participated in racketeering activities, and

W6STLAW © 2021 Thomson Reuters. No claim to o£@8l U.S. Government Works.

1

Ruggtes v. tge, Slip Copy (2020)

conspired to do the same. Id. Ruggles’ claimed injury as a result of these activities is hard to discern. It appears he is alleging
Defendants commenced an unlawful asset forfeiture and prosecution action against him and harmed him generally by not
allowing him to possess, grow and distribute medical marijuana in a manner similar to state-licensed dispensaries. Id. at 34, 13,17.
Similar to his original complaint, the FAC asks the Court for a host of injunctive remedies: (1) ruling Hawai'i’s Asset Forfeiture
program unlawful; (2) ordering audits of certain county offices; (3) ordering state officials to promulgate regulations related to
asset forfeiture and marijuana possession and distribution; and; (4) if the state cannot find a way to treat him like state-licensed
dispensaries under current state medical marijuana laws, ruling Hawai'i’s medical marijuana program unlawful. Id. at 13,17,20.
Between October 13 and 16, 2020, the following parties filed motions to dismiss:
• Manoa Botanicals, LLC, Maui Wellness Group, LLC, TCG Retro Market I, LLC, Pono Life Sciences Maui, LLC and
Hawaiian Ethos, LLC (the “Dispensary Defendants”), Dkt. Nos. 73, 75;
• Ige, Connors, Espinda, Case, and Anderson (the “State Defendants”), Dkt. No. 78; and
• Roth and Ferreira (the “County Defendants” and, collectively with the State Defendants, the “Government Defendants”),
Dkt. No. 76.
Defendants’ motions collectively argue that Ruggles once again fails to state a claim upon which relief may be granted
because he fails to allege sufficient facts to support his only remaining claim based on the Racketeer Influenced and Corrupt
Organizations Act (“RICO”). The motions have now been fully briefed. This Order follows.

STANDARD OF REVIEW
I. Motion to Dismiss Under Rule 12(blf61
*2 Rule 12(b)(6) authorizes the Court to dismiss a complaint that fails “to state a claim upon which relief can be granted.”
Fed. R. Civ. P. 12(b)(6). Rule 12(b)(6) is read in conjunction with Rule 8(a), which requires “a short and plain statement of the
claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Pursuant to Ashcroft v. Iqbal, “[t]o survive a motion
to dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its
face.’ ” 556 U.S. 662, 678 (2009) (quoting BellAtl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). In addition, “the tenet that a
court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions.” Id.
Accordingly, “[tjhreadbare recitals of the elements of a cause of action, supported by mere conclusory statements, do not
suffice.” Id. (citing Twombly, 550 U.S. at 555). Rather, “[a] claim has facial plausibility when the plaintiff pleads factual content
that allows the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (citing Twombly,
550 U.S. at 556). Factual allegations that only permit the court to infer “the mere possibility of misconduct” do not show that
the pleader is entitled to relief as required by Rule 8(a)(2). Id. at 679.

D. Pro Se Status
The Court liberally construes a pro se litigant's filings. See Erickson v. Pardus, 551 U.S. 89,94 (2007) (citing Estelle v. Gamble,
429 U.S. 97, 106 (1976)). “Unless it is absolutely clear that no amendment can cure the defect... a pro se litigant is entitled
to notice of the complaint's deficiencies and an opportunity to amend prior to dismissal of the action.” Lucas v. Dep't of Corr.,
66 F.3d 245, 248 (9th Cir. 1995); see also Crowley v. Bannister, 734 F.3d 967, 977-78 (9th Cir. 2013). However, the Court
cannot act as counsel for a pro se litigant, such as by supplying the essential elements of a claim, Pliler v. Ford, 542 U.S. 225,
231 (2004); Ivey v. Bd. of Regents ofUniv. of Alaska, 673 F.2d 266, 268 (9th Cir. 1982), and may deny leave to amend where
amendment would be futile, see, e.g., Leadsinger, Inc. v. BMG Music Pub., 512 F.3d 522, 532 (9th Cir. 2008).

W6SY1&W © 2021 Thomson Reuters. No claim to ofiJ29l U.S. Government Works.

2

Ruggles v. Ige, Siip Copy (2020)

DISCUSSION
In the FAC, Ruggles claims Defendants injured his business or property by violating Section 1962 of RICO. Dkt. No. 70.
Specifically, Ruggles advances three counts: (1) the Government Defendants expended income derived from racketeering
activities in violation of Section 1962(a); (2) all Defendants conducted or participated in racketeering activities in violation of
Section 1962(c);1 and (3) the Government Defendants conspired to violate Sections 1962(a), (b), or (c). Dkt. No. 70 at 11-20.
As discussed below, Ruggles fails to state a plausible claim under any count.

I. Racketeering Activity (Counts I and ID
To make out a civil RICO claim under Section 1962(c), a plaintiff must plead “(1) conduct (2) of an enterprise (3) through
a pattern (4) of racketeering activity (known as ‘predicate acts’) (5) causing injury to plaintiffs business or property.” Living
Designs, Inc. v. E.I. Dupont de Nemours & Co., 431 F.3d 353, 361 (9th Cir. 2005) (citations and internal quotation marks
omitted); see also 18 U.S.C. § 1964(c). Ruggles fails to allege facts to support each of these elements. Most pointedly, he fails
to plead facts that would “allow[ ] the court to draw the reasonable inference” that any Defendant engaged in any racketeering
activity. See Iqbal, 556 U.S. at 678 (citation omitted).2
*3 Racketeering activity is, in essence, “any act ‘chargeable’ under several generically described state criminal laws, any act
‘indictable’ under numerous specific federal criminal provisions, including mail and wire fraud, and any ‘offense’ involving
bankruptcy or securities fraud or drug-related activities that is ‘punishable’ under federal law.” Sedima, S.P.R.L. v. Imrex Co., All
U.S. 479,481-82 (1985) (citing 18 U.S.C. § 1961(1)). In dismissing Ruggles’ original complaint, the Court further explained:
Despite Plaintiffs repeated use of the word “racketeering” in his Complaint, the conduct he alleges the Government
Defendants engaged in is the passage and enforcement of laws aimed at regulating the acquisition, possession, use, and
distribution of marijuana ... The creation and enforcement of statutes and administrative rules—even those that may later be
found unconstitutional—do not constitute predicate acts upon which a RICO claim may rest. See 18U.S.C. §§ 1961(1), 1962.
Dkt. No. 69 at 7-8. It appears Ruggles has not heeded this message because the FAC suffers from precisely the same defect.
One cannot understand the activities Ruggles alleges the Government Defendants engaged in as anything other than government
officials lawfully exercising the authority inherent in their offices. See e.g., Dkt. No. 70 at 10 (creating a medical marijuana
distribution program that treats dispensaries different from medical marijuana patients); 11-12 (enforcing the state's Asset
Forfeiture Program); 14 (prosecuting Ruggles for allegedly unlawfully distributing medical marijuana); 15 (conducting a sting
operation to uncover unlawful distribution of medical marijuana); 16 (determining who may distribute medical marijuana under
state law). Simply put, government officials exercising their lawful authority to create and execute state laws does not, and
cannot, constitute racketeering activity. See 18 U.S.C. § 1961(1). Ruggles’ claims that the Government Defendants expended
income derived from racketeering activity in violation of Section 1962(a) fail for similar reasons. See Dkt. No. 70 at 1114. The income Ruggles alleges the Government Defendants expended was derived from the execution of the state's Asset
Forfeiture Program and federal grants for law enforcement activities. Id. at 11-14. There is nothing unlawful or even untoward
in government officials lawfully exercising the authority inherent in their offices to enforce state laws and receiving grants that
assist them in doing so. And because the Court cannot reasonably infer racketeering activities occurred, it cannot reasonably
infer any Defendant unlawfully expended income derived from such activities. See 18 U.S.C. § 1962(a). Thus, all Count I and
II claims against the Government Defendants must be DISMISSED.

'i

*4 The FAC also fails to allege facts supporting a conclusion that the Dispensary Defendants engaged in any racketeering
activity. The following is the extent of the conduct Ruggles alleges the Dispensary Defendants engaged in: (1) they can transfer
marijuana to patients and caregivers in greater amounts than home-growers, (2) they sell medical marijuana to patients; and (3)
they can grow more and larger marijuana plants than medical marijuana patients. Dkt. No. 16-19. As the Dispensary Defendants

W6STLAW © 2021 Thomson Reuters. No claim to oQJMll U.S. Government Works.

3

Ruggies v. ige, Slip Copy (2020)

point out, Dkt. No. 75 at 11, these activities, just like those alleged in Ruggies’ original complaint, “amount to little more than
a recitation of [the Dispensary Defendants’] status as licensed medical marijuana dispensaries under Hawai'i law.” Dkt. No.
69 at 8. In other words, Ruggies is alleging only that the Dispensary Defendants are acting in compliance with state medical
marijuana laws. Such conduct does not, and cannot, constitute racketeering activity and, thus, all Count II claims—the only
claims against the Dispensary Defendants—must be DISMISSED.

II. Conspiracy (Count III1
In Count III, Ruggies alleges the Government Defendants conspired to violate Sections 1962(a), (b), or (c) of the RICO statute.
Dkt. No. 70 at 10, 18-20. Ruggies claims, “Defendants have intentionally conspired and agreed to directly and indirectly use
or invest income (unreported profits from administrative forfeitures) that is derived from a pattern of racketeering activity in
an interstate enterprise (threats and extortion, armed robbery of patient's medicine).” Id. at 19. This amounts to a “[t]hreadbare
recital[ ] of the elements of a cause of action, supported by mere conclusory statements.” See Iqbal, 556 U.S. at 678 (citing
Twombly, 550 U.S. at 555). That is, as the County Defendants argue, Dkt. No. 76-2 at 9, Ruggies alleges no facts to support
a conclusion Defendants so conspired.
Notably, nowhere does Ruggies allege facts to support finding an agreement between Defendants to engage in unlawful
activity—a baseline requirement in alleging conspiracy—to support his claim. See Salinas v. United States, 522 U.S. 52, 6364 (1997) (explaining general elements of conspiracy apply to Section 1962(d)); see also United States v. Fiander, 547 F.3d
1036, 1040-1043 (9th Cir. 2008). In what has become the signature of Ruggies’ filings, Count III recites only the activities
of government officials lawfully exercising the authority inherent in their offices. See, e.g., Dkt. No. 70 at 18 (“Defendant Ige
has not vetoed or complained about or requested changes” to Hawaii’s medical marijuana laws); id. at 18-19 (Government
Defendants promulgated regulations and executed Hawai'i’s medical marijuana laws); id. at 19 (County Defendants revoked
Ruggies’ medical marijuana card in conjunction with prosecution for alleged illegal medical marijuana distribution).
Because Ruggies fails to plead facts allowing this Court to reasonably infer Defendants conspired to violate Sections 1962(a),
(b), or (c) of the RICO statute, his Count III claims must be DISMISSED.

CONCLUSION
Ruggies’ “RICO claims” are not RICO claims at all. They are a way of grasping at straws that do not exist; that is, Ruggies
is searching in vain for a legal mechanism to get this Court to force his state government to change state laws with which he
disagrees.4 Rarely, if ever, is that the proper role of this Court and, certainly, it is not so here.
Defendants’ motions to dismiss, Dkt. Nos. 73, 75, 76, and 78, are GRANTED. Accordingly, all claims in Plaintiffs FAC, Dkt.
No. 70, are DISMISSED.5 Because Ruggies was provided “notice of the complaint's deficiencies and an opportunity to amend
prior to dismissal of the action,” Lucas, 66 F.3d at 248, and has failed to correct those deficiencies, this dismissal is WITH
PREJUDICE.
*5 IT IS SO ORDERED.

All Citations
Slip Copy, 2020 WL 6731704

Footnotes
It appears this is the only count Ruggies brings against the Dispensary Defendants. See Dkt. 70 at 11,18.
1

WESTIAW © 2021 Thomson Reuters. No claim to oQ3'1si U.S. Government Works.

Ruggles v. Ige, Slip Copy (2020)

Because failure to satisfy this element alone sinks Ruggles’ Section 1962(c) claim, analysis of the other elements is unnecessary.
See Living Designs, Inc., 431 F.3d at 361. The Court notes, however, that Ruggles has also failed to properly allege Defendants
acted as part of an “enterprise,”—his allegations in this regard amount to no more than legal conclusions. See, e.g., Dkt. No. 70 at
10 (“Defendants actions ... comprise an ongoing conspiracy enterprise”), 14 (“Defendants are associated with the enterprise by long

2

3

4

5

time participation”).
The State Defendants are correct, Dkt. No. 78-1 at 4-6, that all RICO claims in the FAC against the Government Defendants could
also be dismissed because claims against government officials for official conduct amounts to claims against the government itself,
Melendres v. Arpaio, 784 F.3d 1254,1260 (9th Cir. 2015) (citation omitted), and RICO claims against the government fail as a matter
of law. Pedrina v. Chun, 97 F.3d 1296, 1300 (9th Cir. 1996) (citation omitted). In fact, such claims were already dismissed by this
Court. Dkt. No 69 at 6-7; see also Ruggles v. Governor David Ige, etc., et ah, 2017 WL 427498, at *5 (D. Haw. 2017) (dismissing
similar claims on die same grounds).
Ruggles all but admits this. See Dkt. No. 80 at 11 (requesting the Court order the State Defendants to “draft administrative rules
allowing the medical [marijuana] patients [like himself] and caregivers to transfer excess [marijuana] and paraphernalia between
themselves” in a manner only legally permitted by dispensaries).
Though several defendants did not file motions to dismiss, the claims against them are nonetheless dismissed for the same reasons set
forth above. See Seismic Reservoir 2020, Inc. v. Paulsson, 785 F.3d 330, 335 (9th Cir. 2015) (citations omitted). The Court notified
Ruggles of this possibility when it granted leave to amend. Dkt. No. 69.

End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

WgSTLAW © 2021 Thomson Reuters. No claim to oQ3’2l U.S. Government Works.

5

Ruggles v. Ige, Slip Copy (2020)

2020 WL 5636898
Only the Westlaw citation is currently available.
United States District Court, D. Hawaii.

Michael Doyle RUGGLES, Plaintiff,
v.

Governor David IGE, Individually and in His Official Capacity
as Governor of the State of Hawaii, et al., Defendants.
Case No. 20-CV-00247-DKW-KJM
Signed 09/21/2020
Attorneys and Law Firms
Michael Doyle Ruggles, Mountain View, HI, pro se.
Kendall J. Moser, Office of the Attorney General, Honolulu, HI, for Defendants Governor David Ige, Clare E. Connors, Nolan
Espinda, Suzanne Case, Bruce S. Anderson.
Laureen L. Martin, Sinclair Salas-Ferguson, Office of the Corporation Counsel-Hawaii, Hilo, HI, for Defendants Mitch Roth,
Paul Ferreira.
Candace Marie Hough, Corianne W. Lau, Paul Alston, Dentons US LLP, Honolulu, HI, for Defendants Manoa Botanicals, Maui
Wellness Group LLC - Maui Grown Therapies.
Keith K. Kato, Kevin S.W. Chee, Chee Markham Kato & Kim, Honolulu, HI, for Defendants TCG Retro Market 1, LLC - Cure
Oahu, Hawaii Ethos, LLC, Pono Life Sciences Maui LLC.

ORDER GRANTING DEFENDANTS’ MOTIONS TO DISMISS WITH PARTIAL LEAVE TO AMEND
Derrick K. Watson, United States District Judge
*1 On May 28, 2020, Michael Doyle Ruggles, proceeding pro se, filed a Complaint against sixteen defendants, including
Hawaii state and county officials, eight licensed medical marijuana dispensaries, and United States Attorney General William
Barr. Dkt. No. 1. Ruggles’ primary claim appears to be that the governmental defendants’ passage and enforcement of federal
and state drug laws related to marijuana acquisition, possession, use, and distribution is unconstitutional and that defendants’
conspiratorial conduct related to the same violates RICO. Id. Thirteen Defendants have moved to dismiss the Complaint. Dkt.
Nos. 42,43, 44, 58. As discussed below, the Court GRANTS the motions to dismiss WITH PARTIAL LEAVE TO AMEND.

RELEVANT BACKGROUND
Plaintiffs 71-page Complaint is difficult to follow. He appears to admit that he is a medical marijuana user who wishes to
distribute marijuana to others in a fashion similar to what the medical marijuana dispensaries are licensed to do under state
law. Because he is not able to do so as a result of the allegedly unconstitutional statutory and regulatory scheme created by
Defendants, he asserts a 42 U.S.C. § 1983 claim against them for violating his Due Process and Equal Protection rights. Dkt.

WSSTLAW © 2021 Thomson Reuters. No claim to o$33* U.S. Government Works

1

Ruggles v. Ige, Slip Copy (2020)

No. 1 at 12-15, 59. He also alleges Defendants’ conduct violated the Racketeer Influenced and Corrupt Organizations Act
(“RICO”). Id. at 12-15.
Plaintiff seeks a host of injunctions and other relief: (1) declaring unconstitutional Hawaii's marijuana dispensary and asset
forfeiture laws; (2) ordering all licensed marijuana dispensaries in the state to close; (3) prohibiting state and county officials
from enforcing, or even training to enforce, the marijuana laws; (4) ordering forensic audits of several state agencies; and (5)
appointing Department of Justice officials to investigate state offices responsible for promulgating and enforcing marijuana
laws. Dkt. No. 1 at 68-70.
Defendants Ige, Connors, Espinda, Case, and Anderson (“State Defendants”) and Defendants Roth and Ferreira (“County
Defendants” and, collectively with State Defendants, “Government Defendants”) filed motions to dismiss on August 4, 2020.
Defendants TCG Retro Market I, LLC, Pono Life Sciences, LLC and Hawaiian Ethos, LLC also filed a motion to dismiss on
August 4,2020, while Defendants Manoa Botanicals, LLC and Maui Wellness Group, LLC filed a motion to dismiss on August
19, 2020 (collectively “Dispensary Defendants”). Defendants’ motions collectively argue that Plaintiff fails to state a claim
upon which relief may be granted either because his claims fail as a matter of law or because he fails to allege sufficient facts
to support his claims.
This Order now follows.

STANDARD OF REVIEW
I. Motion to Dismiss Under Rule 12(bl(61
Rule 12(b)(6) authorizes the Court to dismiss a complaint that fails “to state a claim upon which relief can be granted.” Fed. R.
Civ. P. 12(b)(6). Rule 12(b)(6) is read in conjunction with Rule 8(a), which requires “a short and plain statement of the claim
showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(2). Pursuant to Ashcroft v. Iqbal, “[t]o survive a motion to
dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state a claim to relief that is plausible on its
face.’ ” 556 U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)). In addition, “the tenet that a
court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions.” Id.
*2 Accordingly, “[tjhreadbare recitals of the elements of a cause of action, supported by mere conclusory statements, do
not suffice.” Id. (citing Twombly, 550 U.S. at 555). Rather, “[a] claim has facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable inference that the defendant is liable for the misconduct alleged.” Id. (citing
Twombly, 550 U.S. at 556). Factual allegations that only permit the court to infer “the mere possibility of misconduct” do not
show that the pleader is entitled to relief as required by Rule 8(a)(2). Id. at 679.

H. Pro Se Status
The Court liberally construes a pro se litigant's filings. See Erickson v. Pardus, 551 U.S. 89,94 (2007) (citing Estelle v. Gamble,
429 U.S. 97, 106 (1976)). “Unless it is absolutely clear that no amendment can cure the defect... a pro se litigant is entitled to
notice of the complaint's deficiencies and an opportunity to amend prior to dismissal of the action.” Lucas v. Dep'tof Corr., 66
F.3d 245, 248 (9th Cir. 1995); see also Crowley v. Bannister, 734 F.3d 967, 977-78 (9th Cir. 2013). However, the Court cannot
act as counsel for a pro se litigant or supply the essential elements of a claim, Pliler v. Ford, 542 U.S. 225, 231 (2004); Ivey v.
Bd. of Regents of Univ. ofAlaska, 673 F.2d 266, 268 (9th Cir. 1982), and may deny leave to amend where amendment would
be futile, see, e.g., Leadsinger, Inc. v. BMG Music Pub., 512 F.3d 522, 532 (9th Cir. 2008).

DISCUSSION

W6St LAW © 2021 Thomson Reuters. No claim to oQ34i U.S. Government Works.

2

Ruggles v. Ige, Slip Copy (2020)

Construing Plaintiff’s complaint liberally, Plaintiff appears to make three claims against all sixteen defendants:
• RICO claim: pursuant to 18 U.S .C. § 1964(c), Plaintiff claims injury to his business or property through Defendants violation
of § 1962 of RICO;
• Due Process claim: pursuant to the Fourteenth Amendment to the United States Constitution, Plaintiff claims Defendants
deprived him of a right to acquire, possess, use, and distribute medical marijuana by enforcing federal and state drug and
asset forfeiture laws; and
• Equal Protection claim: pursuant to the Fourteenth Amendment to the United States Constitution, Plaintiff claims Defendants
violated the rights of Hawai‘i medical marijuana patients, including himself, to be treated equally to licensed marijuana
dispensaries and individuals engaged in other medical treatments.
Dkt.No. 1.
Plaintiffasserts his prayer for reliefon the lattertwo claims pursuant to42 U.S.C. § 1983. Id. at3 (“bringing this civil 1983/RICO
action”). As discussed below, Plaintiffs claims either fail as a matter of law or he fails to plead sufficient factual allegations
to state a plausible claim. See Iqbal, 556 U.S. at 678.

I. RICO Claim
To make out a civil RICO claim, a plaintiff must plead “(1) conduct (2) of an enterprise (3) through a pattern (4) of racketeering
activity (known as ‘predicate acts’) (5) causing injury to plaintiffs business or property.” Living Designs, Inc. v. E.I. Dupont
de Nemours & Co., 431 F.3d 353, 361 (9th Cir. 2005) (citations and internal quotation marks omitted); see also 18 U.S.C. §
1964(c). An exclusive list of “racketeering activities” is established at 18 U.S.C. § 1961(1).

A. RICO Claims Against Government Defendants
As an initial matter, all RICO claims against the Government Defendants in their official capacities must be dismissed with
prejudice.1 A claim against a government official “in his official capacity ‘is, in all respects other than name, to be treated as a
suit against the entity.’ ” Melendres v. Arpaio, 784F.3d 1254, 1260 (9th Cir. 2015) (quoting Kentucky v. Graham, 473 U.S. 159,
166 (1985)). And government entities are “ ‘incapable of forming the malicious intent’ necessary to support a RICO action.”
Pedrina v. Chun, 97 F.3d 1296, 1300 (9th Cir. 1996) (quoting Lancaster Cnty. Hosp. v. Antelope Valley Hosp., 940 F.2d 397,
404 (9th Cir. 1991)).2 As such, all RICO claims against Government Defendants in their official capacities are dismissed with
prejudice.3
*3 Plaintiff has failed to plead facts sufficient to infer that the Government Defendants, in their individual capacities, engaged
in racketeering activities.4 Despite Plaintiffs repeated use of the word “racketeering” in his Complaint, the conduct he alleges the
Government Defendants engaged in is the passage and enforcement of laws aimed at regulating the acquisition, possession, use,
and distribution of marijuana.5 See e.g., Dkt. No. 1 at 16 (claiming racketeering by keeping marijuana classified as a Schedule
1 controlled substance); 28, 36 (by regulating distribution of marijuana); 30 (by drafting administrative rules). Plaintiff states
this clearly: “[a]ll of the injuries suffered by the Plaintiff in these numbered paragraphs were directly caused by the actions of
the GOVERNMENT DEFENDANTS creating and enforcing unconstitutional statutes and administrative rules.” Id. at 59.
The creation and enforcement of statutes and administrative rules—even those that may later be found unconstitutional—do
not constitute predicate acts upon which a RICO claim may rest. See 18 U.S.C. §§ 1961(1), 1962. And as Plaintiff alleges no
facts supporting an inference that the Government Defendants engaged in any other predicate acts, the Court does not find any
support for Plaintiffs RICO claim against them in their individual capacities. Because this defect may (theoretically) be cured by
amendment, all RICO claims against the Government Defendants in their individual capacities are dismissed without prejudice.

W£$!LAW © 2021 Thomson Reuters. No claim to oQ35: U.S. Government Works.

3

Ruggles v. Ige, Slip Copy (2020)

B. RICO Claims Against Dispensary Defendants
Similarly, Plaintiff fails to allege specific facts demonstrating that any of the Dispensary Defendants engaged in predicate acts
subjecting them to RICO liability. Plaintiffs allegations against the Dispensary Defendants amount to little more than a recitation
of their status as licensed medical marijuana dispensaries under Hawai‘i law. Dkt. No. 1 at 34 (dispensaries can grow more and
larger marijuana plants than private growers); 35 (they can acquire marijuana from each other and approved sources); 38 (they
struggled to comply with Hawai'i marijuana laws); 48 (they were issued licenses to operate).
In an apparent attempt to allege that the Dispensary Defendants did something akin to “racketeering activity,” Plaintiff states
they used “their offices and the mail (and internet) to promote and sell [marijuana].” Id. at 49-50, 59. How promoting a statelicensed business amounts to illegal or even unethical conduct, much less racketeering, is not evident. The same is true of
Plaintiffs allegation that the State, together with the “Dispensary Defendants^] unconstitutionally threatened certain retailers
[with prosecution for] selling certain [marijuana] products” without a license. Dkt. No. 1 at 58. Plaintiff offers no authority for
the proposition that attempting to halt the illegal sale of controlled substances amounts to racketeering.
Plaintiff also fails to allege facts showing the Dispensary Defendants constitute an “enterprise” under RICO, see 18 U.S.C. §
1961(a)(4), or injured “his business or property,” entitling him to relief, see 18 U.S.C. § 1964(c). Thus, all RICO claims against
the Dispensary Defendants are dismissed. Because this defect too may (theoretically) be cured by amendment, the dismissal
is without prejudice.

n. 42 U.S.C. § 1983 Claim
*4 To establish a 42 U.S.C. § 1983 claim, plaintiffs must plead “(1) the defendants acting under color of state law (2) deprived
plaintiffs of rights secured by the Constitution or federal statutes.” Williams v. California, 764 F.3d 1002, 1009 (9th Cir. 2014)
(citing Gibson v. United States, 781 F.2d 1334, 1338 (9th Cir. 1986)) (internal quotation marks omitted). Here, Plaintiff alleges
Defendants violated his rights to Due Process and Equal Protection. E.g., Dkt. No. I at 58. Plaintiff fails to state a claim upon
which relief can be granted on either theory.
Generally, state officials may not be sued in their official capacities under 42 U.S.C. § 1983 because such suits are equivalent
to suits against the State itself, and States are not “persons” subject to suit under Section 1983. Will v. Michigan Dep't of State
Police, 491 U.S. 58,71 (1989); Flint v. Dennison, 488F.3d816,824-25 (9th Cir. 2007). However, there is “one vital exception”
to this general rule: when state officials are sued for prospective injunctive relief, a 42 U.S.C. § 1983 suit against them in their
official capacities may lie. Flint, 488F.3dat 825 (citing Will, 491 U.S. at 71 n.10). As Plaintiff seeks only prospective injunctive
relief, see Dkt. No. 1 at 68-70, the Court considers his 42 U.S.C. § 1983 claims against State Defendants in both their individual
and official capacities.6

A. Due Process
Liberally construing the Complaint, it appears Plaintiff bases his Section 1983 claim on an alleged constitutional right to the
unfettered access to medical marijuana. Dkt. No. 1 at 24, 26, 68; see also Dkt. No. 61 at 4 (“[s]urely a sick person's right to
choose to use a medicine[, marijuana,] legally allowed in his State qualifies as a fundamental right”).7
As Defendants point out, however, no such right is recognized under the Constitution. See Raich v. Gonzales, 500 F.3d 850,867,
869 (9th Cir. 2007). In Raich, the Ninth Circuit was presented squarely with the question of whether the right “to use marijuana
to preserve bodily integrity, avoid intolerable pain, and preserve life” was fundamental and thus a substantive Due Process right
protected by the United States Constitution. Id. at 864. The court held it is not. Id. at 867 (“federal law does not recognize
a fundamental right to use medical marijuana”); see also United States v. Christie, 825 F.3d 1048, 1065-66 (9th Cir. 2016)
o

(denying due process challenge to marijuana's classification as a Schedule I controlled substance). Whether public sentiment

WEST LAW © 2021 Thomson Reuters. No claim to offl06i U.S. Government Works.

4

Ruggles v. Ige, Siip Copy (2020)

and state laws regarding marijuana as a medical treatment have evolved since Raich is irrelevant. As the Ninth Circuit has ruled
on this precise issue, this Court is bound by it.9
*5 As a result, Plaintiffs Section 1983 claims, premised on Defendants’ alleged violations of Plaintiffs Due Process right to
the unfettered access to medical marijuana, are dismissed with prejudice because amendment would be futile.

B. Equal Protection
“To state a claim for violation of the Equal Protection Clause, a plaintiff must show that the defendant acted with an intent or
purpose to discriminate against him based upon his membership in a protected class.” Serrano v. Francis, 345 F.3d 1071,1082
(9th Cir. 2003) (citation omitted). Where the identified class is not “protected,” any regulation treating that class differently
“need only be rationally related to legitimate legislative goals to pass constitutional muster.” Lee v. City of Los Angeles, 250
F.3d 668, 687 (9th Cir. 2001) (citing City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 440 (1985)) (internal quotation
marks omitted). Rational basis review is a highly deferential standard. See Heller v. Doe by Doe, 509 U.S. 312, 320-21 (1993).
“A statute is presumed constitutional, and ‘ [t]he burden is on the one attacking the legislative arrangement to negative every
conceivable basis which might support it.’ ” Id. at 320 (quoting Lehnhausen v. Lake Shore Auto Parts Co., 410 U.S. 356, 364
(1973)).
Plaintiff raises one class of individuals—Hawaiian medical marijuana patients—whom he alleges are treated differently from
two other groups. E.g., Dkt. No. 1 at 37-38,67. First, he alleges this class is subject to acquisition, growth, possession, purchase,
and distribution restrictions to which licensed medical marijuana dispensaries in the state are not. See id. at 67 (asking for
“patients” to be “treated the same as dispensary owners”). Second, he alleges this class cannot travel with medical marijuana
as freely as other patients can travel with their prescribed medications. Dkt. No. 1 at 37-38.
Medical marijuana users do not comprise a constitutionally protected class. Wilson v. Lynch, 835 F.3d 1083, 1098 (9th Cir.
2016). As such, rational basis review applies. See Lee, 250 F.3d at 687. This Court need not conduct such a review in the
first instance, despite its evident outcome, as other courts have already done so. For instance, a rational basis for designating
marijuana a Schedule I controlled substance and, thus, restricting its possession, use, and distribution, was expressly declared
by the Supreme Court in Gonzales v. Raich, 545 U.S. 1 (2005); see also United States v. Rogers, 549 F.2d 107, 108 (9th Cir.
1976) (rejecting argument laws regulating marijuana were irrational); United States v. Pickard, 100 F. Supp. 3d 981, 1005-06
(E.D. Cal. 2015) (collecting cases finding same).
As to Plaintiffs claims to disparate treatment under Hawaii's marijuana dispensary laws, regulation of the use and distribution
of medication has been held to be rationally related to a legitimate state interest in public health. See Carnohan v. U.S., 616
F.2d 1120,1122 (9th Cir. 1980) (“Constitutional rights of privacy and personal liberty do not give individuals the right to obtain
[medication] free of the lawful exercise of government police power”); see also United States v. Cannabis Cultivator's Club,
1999 WL 111893, * 1 (N.D. Cal. 1999) (applying Carnohan and holding patients “do not have a constitutional right to obtain
[medical] marijuana ... free of government police power”).
*6 Thus, Plaintiffs claims premised on Defendants’ alleged violations of his Equal Protection rights are dismissed with
prejudice because amendment would be futile.10

III. Preliminary Injunction Requests
Construing Plaintiffs complaint liberally, he appears to be petitioning the court for two preliminary injunctions in addition to
other relief. Dkt. No. 1 at 11 (“Plaintiff demands Expedited Injunctions due to the ongoing irreparable injury to created class”).
Specifically, Plaintiff requests: “IMMEDIATE” closure of all eight licensed medical marijuana dispensaries in Hawai‘i; and
“IMMEDIATE INJUNCTIONS” forbidding state law enforcement from receiving grants related to and engaging in enforcement
of state and federal marijuana laws. Id. at 68-69. The Court DENIES both requests.

WESTLAW © 2021 Thomson Reuters. No claim to gQ&Zi U.S. Government Works.

5

Ruggles v. ige, Slip Copy (2020)

“A preliminary injunction is an extraordinary remedy never awarded as of right.” Winter v. Nat. Res. Def. Council, Inc., 555
U.S. 7,24 (2008) (citations omitted). For a Court to grant a preliminary injunction, a plaintiff must establish: (1) likely success
on the merits; (2) likelihood of irreparable injury absent the injunction; (3) the balance of equities tip in his favor; and (4) the
injunction is in the public interest. AU. for the Wild Rockies v. Cottrell, 632 F.3d 1127, 1131 (9th Cir. 2011) (citing Winter, 555
U.S. at 20). The Court need look no further than the first factor to deny all injunctive relief. Because, as detailed above, Plaintiff
has failed to state any claim for which relief can be granted, he cannot establish a likelihood of success on the merits.11 All
preliminary injunctive relief is DENIED.
Finally, Plaintiffs request that this Court dictate how governments prioritize their law enforcement efforts offends traditional
separation of powers principles. Chadha v. Immigration and Naturalization Serv., 634 F.2d 408, 421 (9th Cir. 1980) (“[t]he
Supreme Court has placed it beyond dispute that the doctrine of separation of powers is vital for constitutional government”)
(citations omitted). Plaintiff complains that the Dispensary Defendants are not prosecuted for breaking federal marijuana laws,
e.g., Dkt. No. 1 at 33, 49, and likewise receive a pass from the state, which chooses to enforce marijuana laws only as against
individual offenders, id. at 13,57,63-64. Because these grievances are not remediable by this Court, see Nixon v. United States,
418 U.S. 683,693 (1974) (“the Executive Branch has exclusive authority and absolute discretion to decide whether to prosecute
a case”); Schlesinger v. Reservists Comm. To Stop the War, 418 U.S. 208,225 (1974) (acknowledging a longstanding reluctance
of the federal courts to entertain “generalized grievances about the conduct of government”) (citations and internal quotation
marks omitted), they may not be part of this or any amended complaint.

CONCLUSION
*7 The motions to dismiss, Dkt. Nos. 42, 43, 44, and 58, are GRANTED, such that tire following claims are DISMISSED
WITH PREJUDICE and WITHOUT LEAVE TO AMEND:
1. RICO claims against Government Defendants in their official capacities.
2. Due Process claims against all Defendants.
3. Equal Protection claims against all Defendants.
The motions to dismiss are GRANTED WITHOUT PREJUDICE and WITH LEAVE TO AMEND as to the following:
1. RICO claims against Government Defendants in their individual capacities.
2. RICO claims against Dispensary Defendants.
Plaintiff may not incorporate any part of the original Complaint, Dkt. No. 1, in any amended complaint he may file. In addition,
in the amended complaint, Plaintiff must allege all claims that he seeks to pursue in this case. To the extent any claims are not
alleged or re-alleged in an amended complaint, they may be deemed voluntarily dismissed. See Lacey v. Maricopa Cnty., 693
F.3d 896, 928 (9th Cir. 2012) (stating that claims dismissed with prejudice need not be re-alleged in an amended complaint to
preserve them for appeal, but claims that are voluntarily dismissed are considered waived if they are not re-pled).
Plaintiff may have until October 5, 2020 to file an amended complaint to the extent allowed herein. The Court cautions
Plaintiff that failure to file an amended complaint by October 5, 2020 may result in the dismissal of this case without
further notice.
IT IS SO ORDERED.

WESTLAW © 2021 Thomson Reuters. No claim to o03Sl U.S. Government Works.

8

Ruggles v. ige, Slip Copy (2020)

All Citations
Slip Copy, 2020 WL 5636898

Footnotes
This includes United States Attorney General William Barr; Hawai‘i Governor David Ige; Hawai'i Attorney General Clare Connors;
Hawai'i Department of Public Safety Director Nolan Espinda; Hawai‘i Department of Land and Natural Resources Director Suzanne
Case; Hawai‘i Department of Health Director Bruce Anderson; Hawai'i County Prosecuting Attorney Mitch Roth; and Chief of

1

Hawai'i Police Paul Ferreira.
Plaintiff cites Pelfresne v. Vill. OfRosemont, 22 F. Supp. 2d 756, 761-62 (N.D. Ill. 1998) as contradicting the Pedrina court's holding.
See Dkt. No. 59 at 12-14. Whatever the law may be in the Seventh Circuit, law in this Circuit precludes Plaintiffs RICO claims
against Government Defendants in their official capacities.
Plaintiffs RICO claims against the Hawai'i Governor, the Hawai'i Attorney General, and the Hawai'i Department of Health Director
in their official capacities were dismissed on the same grounds in Ruggles v. Governor David Ige, etc., et al, 2017 WL 427498 (D.

2

3

4
5

6

7

8

9

10

Haw. 2017).
Because failure to satisfy this element sinks Plaintiffs claim, analysis of the other elements is unnecessary. See Living Designs, Inc.,
431 F.3d at 361. In preparing any amendment, however, Plaintiff should be mindful of each of the RICO elements outlined above.
In an attempt to establish Defendants engaged in “racketeering activity,” Plaintiff claims the racketeering included obstructing
interstate commerce by “robbery and extortion and/or by threats of physical violence or fear of injury, under color of official right,
in violation of 18 U.S.C. § 1951.”Dkt. No. 1 at 37. But Plaintiff pleads no facts other than the enforcement of federal and state drug
and asset forfeiture laws in the abstract to support this legal conclusion. See id.; see also BellAtl. Corp., 550 U.S. at 570 (“the tenet
that a court must accept as true all of the allegations contained in a complaint is inapplicable to legal conclusions”).
This includes United States Attorney General William Barr. While federal officials are typically immune from suit under 42 U.S.C.
§ 1983, “[i]t is well settled that federal officials sued in their official capacity are subject to injunctive relief under § 1983 if they
‘conspire with or participate in concert with state officials who, under color of state law, act to deprive a person of protected rights.’
” Cabrera v. Martin, 973 F.2d 735, 741-42 (9th Cir. 1992) (quoting Scott v. Rosenberg, 702 F.2d 1263, 1269 (9th Cir. 1983)). Such
conspiracy, while perhaps without sufficient factual basis, is at least alleged here.
Plaintiffs contention is not crystal clear because he also alleges the contrary. Dkt. No. 60 at 13-14 (“Plaintiff is not claiming he has
a constitutional right to medical [marijuana]”). If access to medical marijuana, however, is not the constitutional or statutory right
on which Plaintiff bases his Section 1983 claim, then the alleged fundamental right is not present in the Complaint, and Plaintiff’s
Due Process claim may not proceed for that reason.
The Court notes that Raich involved a plaintiff seeking access to medical marijuana in compliance with California state law. Raich, 500
F.3d at 854-57. The issue was whether plaintiffs’ rights under the state law allowing controlled medical use of marijuana established a
fundamental right to medical marijuana and immunized plaintiffs from criminal liability under the Controlled Substances Act (either
because it was generally unconstitutional or as applied to plaintiffs). Id. Here, Plaintiff is not asserting a right to medical marijuana
in compliance with Hawai'i state law, but unfettered access to medical marijuana. See generally, Dkt. No. 1. As such, the asserted
right here is on even shakier footing than that raised in Raich.
Plaintiff tries to cleverly couch his asserted right in other fundamental rights. Dkt. No. 1 at 34, 68 (right to assemble by allowing
medicinal marijuana patients to transfer marijuana among themselves); 64 (right to be “free from persecution and incarceration over
a plant”); 64, 68 (right to be free from corruption in government offices); 65 (right to be secure in one’s home without “a military
task force coming out of the sky to count a patient's ten (10) [marijuana] plants”); 65 (right of patients to travel with their medical
marijuana). But just as the Ninth Circuit in Raich found the plaintiffs “careful statement” did not “narrowly and accurately reflect
the right” at issue, so too does the Court find here. See 500 F.3d 850, 864 (9th Cir. 2007).
Plaintiff references his 2015 arrest and prosecution for marijuana distribution-related offenses. Dkt. No. 1 at 60-62. Plaintiff appears
to reference this as an illustration of how medical marijuana patients have been “persecuted,” and not as support for a stand-alone
selective prosecution claim. Thus, the Court does not address it as such, but notes any claim related to that episode is likely timed
barred. See Pele Def. Fund v. Party, 837 P.2d 1247, 1259 (Haw. 1992) (declaring a two-year statute of limitations for 42 U.S.C.
§ 1983 claims); see also Haw. Rev. Stat. § 657-7 (2020). In addition, Plaintiffs repeated references to similarly situated persons
being prosecuted for marijuana-related offenses severely weakens any selective prosecution claim he may bring. See Dkt. No. 1 at
13, 57, 63-64.

WESTLAW © 2021 Thomson Reuters. No claim to oQ;39i U.S. Government Works.

7

Ruggfes v. ige, Slip Copy (2020)

11

The Court additionally notes, with regard to Plaintiffs request to order the closure of medical marijuana dispensaries, that Plaintiff
admits such an order would be against the public interest. Dkt. No. 1 at 68 (Dispensary Defendants “are providing a necessary service”
to patients prescribed medical marijuana who cannot grow it themselves).

End of Document

© 202! Thomson Reuters. No claim to original U.S. Government Works.

WgSTLAW Co) 2021 Thomson Reuters. No claim to c%!Qi U.S. Government Works.

IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
MICHAEL DOYLE RUGGLES

No. 20-17410
RACKETEERING UNDER COLOR
OF LAW

Plaintiff,
NOTICE OF APPEAL FROM A
JUDGMENT OR ORDER FROM THE
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
vs.
GOVERNOR DAVID IGE; et al.

REGARDING:
1:20-CV-00247-DKW-KJM
Doc 69 Order Granting Defendants’
Motions to Dismiss With Partial Leave
to Amend filed 9/21/2020, and

Defendants.
Doc. 88 Order Granting Defendants’
Motions to Dismiss filed 11/16/2020
HON. DERRICK K. WATSON

STATEMENT THAT APPEAL SHOULD GO FORWARD
MICHAEL DOYLE RUGGLES, Appellant pro se, hereby provides the following
statement why this appeal is not frivolous and should continue:
1.

DATE OF ENTRY OR JUDGMENT BEING CHALLENGED:
1

041

This appeal relates to the Federal District Court of Honolulu, 20-CV-00247DKW-KJM; Doc 69 Order Granting Defendants’ Motions to Dismiss With Partial Leave
to Amend filed 9/21/2020, and Doc. 88 Order Granting Defendants’ Motions to Dismiss
filed 11/16/2020.
2.

WHAT CLAIMS DID YOU RAISE TO THE COURT BELOW?

Various racketeering predicate actions made under color of State law by
Government individuals and agencies who are taking money from the federal
government Defendant and using it to draft administrative rules and make terroristic
threats and take actions such as armed robbery and extortion of medicine from sick and
elderly people in direct opposition to the intent of the State law HRS § 329-121 et seq.
Taken together over the period of 20 years the bad actions proves continuity to continue
the racketeering actions into the fixture.
Standing silent and “affirmative” defense are directly against the constitution, they
automatically presuppose guilt and subject the created class to hiring an attorney and
court action to prove innocence. The State of Hawaii stands silent and does not protect
patients because of federal laws, yet 15 years later they now protect the dispensaries
against the federal government and are ever -expanding control of an illegal state
monopoly. The “affirmative defense” is entrapment and the police and prosecutors know
this. For example, how is it constitutional to not allow a medical cannabis patient to tell
the jury he had a medical cannabis license if he had one plant too many and half were
going to be unusable males.
The State of Hawaii has never fulfilled the legislative intent of Act 228 establishing
Hawaii's medical cannabis program. It is unconstitutional as the protections are not for
the patients who are the supposed beneficiaries of Hawaii's medical cannabis law HRS
Standing silent, criminalizing the patients while enriching commercial for-profit
dispensary owner makes it racketeering.
Administrative Forfeitures are being used by the State of Hawaii to steal property from
residents. The Attorney General, Police and Prosecutors keep the profits without due
reporting requirements as proved by state auditors.
All claims are made with specificity and easily proved facts without necessitating undue
discovery. There is no factual dispute here and the Defendants and the Judge knows it. I
believe I would win this lawsuit by popular opinion in a jury trial of my peers.

2

042

3.

WHAT DO YOU THINK THE COURT DID WRONG?

The judge dismissed both my Complaints by agreeing with the Defendants that
government agencies or individuals can’t be held liable for RICO or § 1983 actions in
the 9th Circuit. Judge Watson claimed the government defendants were just doing thenjobs without without addressing any of the easily provable allegations of threats,
extortion and violence against sick, elderly and disabled people, the unconstitutionality
of double-standard protections of Dispensary Owners vs the patients who are the sick
ones.
The judge never acceptedany of my allegations as true as he is supposed to during
the Rule 12 (b)(6) motion to dismiss and did not specifically discuss and of the very
specific and easily proved harmful and violent allegations made against the Defendants
in his Orders Dismissing.
I believe there actually is caselaw which supports RICO and § 1983 and
injunctions against government officials taking unconstitutional liberties and upholding
violent actions against the created class and I have been researching for my Opening
Brief as thoroughly as possible:
The Supreme Court, Mr. Justice Brennan, held that: (11 local
government units were “persons” for purposes of § 1983. the Civil
Rights Act of 1871; (2) local governments could not be held liable under a
theory of respondeat superior but rather could beheld liable only when the
constitutional deprivation arises from a governmental custom: (3) the
Tenth Amendment did not impose any impediment to liability; (4) the
Eleventh Amendment did not preclude imposition of liability except with
respect to local government units which are part of the state for Eleventh
Amendment purposes; (5) local government officials sued in their official
capacity are “persons” under § 1983 in those cases in which local
government is suable in its own name, and (6) the deprivation
complained of in the instant case arose out of official policy.
Monell v. Dept of Soc. Svcs of City ofNew York; 436 U.S. 658, 98 S.Ct 2018
(1978)(emphasis added).
In cases for injunctive relief, the plaintiff must show that he is likely to
suffer a similar injury in the future. See Los Angeles v. Lyons, 461 U.S.
95,105, 103 S.Ct. 1660, 75 L.Ed.2d 675 (1983). Injunctive relief is
unavailable where the plaintiffs claim of future injury is merely
3

043

speculative. See id. Past exposure to illegal conduct does not in itself show
a present case or controversy regarding injunctive relief if unaccompanied
by any continuing, present adverse effects. See O'Shea v. Littleton, 414 U.S.
488, 495-96, 94 S.Ct. 669, 38 L.Ed.2d 674 (1974). Courts have
repeatedly held that this requirement is satisfied if the plaintiff alleges a
persistent pattern of police misconduct from which a threat of future
injury can be inferred. See LaDuke v. Nelson, 762 F.2d 1318, 1324 (9th
Cir.1985).
Here, Guerrero alleges that he was the victim of repeated instances of
misconduct at the hands of LAPD Rampart *1292 CRASH officers.
Guerrero alleges that this misconduct is part of a larger pervasive pattern of
misconduct by LAPD Rampart CRASH officers, which is “authorized,
ordered, condoned, tolerated, acquiesced in, approved of, and ratified by
defendants.” First Am.Compl., at 23. Guerrero alleges that the alleged
misconduct is continuing, that he is likely to be set up again by
Defendants, and that there is a real and immediate threat of serious injury
or death. See id. at 24. Assuming the truth of Guerrero's allegations, a
future threat can be inferred from the alleged pattern of police
misconduct. Accordingly, the Court finds that Guerrero has standing to
pursue his claim for injunctive relief.
RICO Claims
Finally, Parks argues that Guerrero lacks standing to pursue claims asserted
under the Racketeering Influenced and Corrupt Organizations Act
(“RICO”), 18 U.S.C. § 1961 to § 1968. RICO takes aim at “racketeering
activity,” which includes acts chargeable under state criminal laws and
punishable by imprisonment for more than one year, such as murder,
kidnaping, robbery, bribery, extortion, or dealing in narcotics. See 19 U.S.C.
§ 1961(a)(A). RICO makes it unlawful for “any person” to: (1) use
money derived from a pattern of racketeering activity to acquire or
maintain control of an enterprise, (2) acquire or maintain control of an
enterprise through a pattern of racketeering activity, (3) conduct an
enterprise through a pattern of racketeering activity, or (4) conspire to
do so. See id. § 1962(a)-(d).
In addition to imposing criminal penalties, RICO authorizes a private suit
by “any person injured in his business or property by reason of a
violation of § 1962.” Id. § 1964(c). Thus, if a defendant engages in a
pattern of racketeering activity in a manner forbidden by these
4

044

provisions, and the racketeering activities injure a plaintiff in his
business or property, the plaintiff has a claim under §
1964(c). See Sedima, S.P.R.L. v. Imrex Co., Inc., 473 U.S. 479,495, 105
S.Ct. 3275, 87 L.Ed.2d 346 (1985).
Guerrero relies on § 1962(b), § 1962(c), and § 1962(d). A violation of §
1962(b) requires: (1) acquisition or maintenance of (2) an interest in or
control of (3) any enterprise (3) through a pattern (4) of racketeering
activity. See Medallion TV Enters., Inc. v. SelecTV of Cal, Inc., 627
F.Supp. 1290, 1292 (C.D.Cal. 1986). A violation of § 1962(c) requires: (1)
participation (2) in the affairs of an enterprise (3) through a pattern (4)
of racketeering activity. See id. A violation of § 1962(d) requires either:
(1) an agreement, the objective of which is a substantive violation of
RICO, and (2) awareness of the essential nature and scope of the
enterprise and intent to participate in it. See Howard v. America Online,
Inc., 208 F.3d 741, 751 (9th Cir.2000). The plaintiff must allege each of
these elements to state a claim.
Guerrero v. Gates. 110 F.Supp.2d 1287, 1291-92 (C.D. Cal. 2000).
We are persuaded that the term “enterprise" as used in RICO includes
governmental agencies or offices. Webster’s Third New International
Dictionary 757 (P. Grove ed. 1966), defines “enterprise” as (1) a plan or
design for a venture or undertaking, (2) venture, undertaking, project,
especially an undertaking that is difficult, complicated, or has a strong
element of risk, (3) a unit of economic organization or activity, especially a
business organization, and (4) any systematic purposeful activity or type of
activity. Under the broadest dictionary definition, “enterprise” could refer to
any undertaking or “systematic purposeful activity.” Congress defined
“enterprise” to include “any individual, partnership, corporation,
association, or other legal entity, and any union or group of individuals
associated in fact although not a legal entity.” Under the language of the
statutory definition, “enterprise” encompasses any “legal entity.” The
statutory language does not differentiate between government or public
“legal entities” and private “legal entities.” A government agency or
office is a “legal entity.” See United States v. Frumento, 405 F.Supp. 23,
29-30 (E.D.Pa.1975), affd, 563 F.2d 1083, 1089-92 (3d Cir. 1977) (bureau
of cigarette and beverage taxes is a government agency and “legal
entity”), cert, denied, 434 U.S. 1072, 98 S.Ct. 1256, 55 L.Ed.2d 775
(1978); United States v. Barber, 476 F.Supp. 182, 184 (S.D.W.Va.1979)
(state alcohol beverage control commissioner); United States v. Vignola,
5

045

464 F.Supp. 1091, 1095-97 (E.D.Pa.) (city traffic court), affd mem., 605
F.2d 1199 (3d Cir. 1979), cert, denied, 444 U.S. 1072, 100 S.Ct. 1015, 62
L.Ed.2d 753 (1980). See generally Black's Law Dictionary 804 (5th ed.
1979) (defining legal entity as an entity with capacity to function
legally, sue or be sued, and make decisions through agents). Finally,
Congress could have used a term such as private or business or
commercial enterprise but it did not do so.
Thus, we conclude that the language of the statutory definition of
“enterprise,” in particular the term “legal entity,” includes
government agencies or offices. See United States v. Brown, 555 F.2d 407,
415 n. 15 (5th Cir. 1977) (RICO is “plain on its face” and covers
government agencies), cert, denied, 435 U.S. 904, 98 S.Ct. 1448, 55
L.Ed.2d 494 (1978). We hold that the office of county judge is an
“enterprise” under RICO. We reject the contention that in construing the
statutory definition of “enterprise,” the phrase “other legal entity” following
nouns of narrow scope relating to different forms of business ventures, must
be construed under the rule of ejusdem generis in the light of the narrow
terms which follow to limit the term “enterprise” to private business or
labor organizations (, whether engaged in lawful or unlawful activities).
United States v. Frumento, supra, 563 F.2d at 1089 (setting forth arguments
of appellants). This argument is based upon the following language from
United States v. Mandel:
None of the specific narrow nouns involved in this definition are
public entities. They are rather a listing of the common legal forms in
which business entities and labor groups fashion themselves to carry
out their private functions. The more general references to “any
(other) legal entity” and “any group of (individuals) associated in fact
although not a legal entity” must be construed to be limited to the
same type and class of entities which preceded it in the statutory
definition.
415 F.Supp. at 1021, citing United States v. Moeller, 402 F.Supp. 49, 58, 61
(D.Conn.1975). First, we disagree with the Mandel court's
characterization of the words “individual,” “partnership,”
“corporation,” and “association” as “specific narrow nouns” which
refer only to forms of business or commercial organization. These
words may have business or commercial connotations, but they are not
exclusively descriptive of different business ventures. For example,
6
046

governmental bodies may take the form of municipal corporations, see,
e. g., 33 U.S.C. s 497, or public associations, see, e. g., 42 U.S.C. s
1856(c). Moreover, the words themselves are neutral on the question of
public or private enterprise. When considered generally, that is, from a
not exclusively entrepreneurial perspective, these words refer to the
organization or structure of activity. We see little reason to restrict the
words themselves or the term “legal entity” to refer only to business or
commercial activity or private entities. See United States v. Altomare,
625 F.2d 5, 7 n.7 (4th Cir. 1980) (cases cited therein) (concluding that the
courts have refused to adopt the narrow reading of “enterprise” that would
have that word connote only “legitimate, private, commercial entities”).
Because we have resolved the question whether a government agency or
office can be a RICO “enterprise” on the basis of the language of the statute
itself, we have no occasion to turn to other rules of statutory construction or
the legislative history. Our conclusion is supported, however, by other
parts of the RICO statute and, in part, by the legislative history, see
note 14 infra.
As discussed in United States v. Sisk, 476 F.Supp. 1061, 1062-63
(M.D.Tenn.1979) (Merritt, J., sitting by designation) (emphasis in original):
The racketeering offenses named in the statute include many
crimes, most of which are not necessarily related to governmental
activity, as distinguished from private activity. But two of the
crimes listed as racketeering offenses, bribery under state law and
federal law and extortion under color of law (the Hobbs Act, 18
U.S.C. s 1951) can only be committed in the context of
governmental activity. At common law and under most statutes,
bribery is limited to a payment given in exchange for the exercise
of governmental power. Extortion under color of law is the use of
governmental power to force an involuntary payment from
another. By making bribery and extortion RICO offenses,
Congress must be said to have understood that these offenses
would be committed by governmental officials as a part of their
work. Since these offenses can only be committed in the context
of the work of a governmental agency, Congress must be taken to
have intended that a governmental agency could be one of the
types of “enterprises,” the affairs of which are conducted through
a pattern of racketeering offenses. The connection between the
named offenses or bribery and extortion and governmental work
7

047

is too close to say that government work is not one of the kinds of
activity that may constitute a RICO “enterprise.”
There is nothing in the legislative history of the statute that
suggests that Congress intended to exclude governmental
agencies from “enterprise” coverage. There are broad references
by the Congressional Sponsors that the purpose of the statute is
to keep organized crime from corrupting legitimate businesses
and “governmental institutions.” This is inconclusive, however.
(The) point is that the plain meaning of the definition of
“enterprise” given in the statute and the inclusion of bribery and
extortion as RICO offenses lead to the conclusion that a
governmental agency is a RICO enterprise, and nothing in the
legislative history indicates an intention to the contrary.
We are led to the same conclusion if we look at the overall
purpose of the statute and the harm it intends to counteract. The
legislative history repeatedly says that the statute is designed to
stop the “infiltration” of legitimate enterprises by persons who
use the enterprise for the commission of certain crimes. This
harm can occur just as easily in a police department, a licensing
bureau or other governmental agency, as in a company or union.
The harm to be counteracted is equally applicable to both public
and private institutions.
United States v. Clark. 646 F.2d 1259, 1263-67 (8th Cir. 1981)(emphasis
added).
It is unconstitutional for the State of Hawaii to “Stand Silent” for 21 years on how
medical cannabis patients legally acquire cannabis seeds and plants and how to dispose
of excess medicine or acquire excess from another cannabis patient or caregiver at a free
or very reasonable rate. Standing Silent is unconstitutional because the Attorney General
and other Law Enforcement Defendants repress the medical cannabis law and patients.
The government Defendants have benefited from keeping cannabis illegal without a
compelling reason and Hawaii Attorney General has written evermore draconian
administrative rules against the medical patients over the 20 year period of Hawaii’s
medical cannabis law without compelling reason.
After 15 years a scheme was devised to allow 8 wealthy individuals (Dispensary
Defendants) who are not even required to be medical cannabis patients to enter into a
8
048

lottery to receive licenses to prey on sick people by charging exorbitant prices (many
times over black market), while we patients who grow at home are not even allowed to
transfer plants, seeds or excess medicine to another patient. Unconstitutional
application of federal law. There is nothing frivolous about the treatment of the
created class.
4.
WHY ARE THESE ERRORS SERIOUS ENOUGH THAT THIS APPEAL
SHOULD GO FORWARD?
Cannabis has been approved as medicine in 35 states since 2000 when Hawaii
enacted its medical cannabis program. It is now decriminalized in 16 states, including
here in Hawaii, and outright legalized in several other states. There is even a
legalization bill in the legislature this year. It just doesn’t fit the “dangerous”
Schedule 1 definition any longer, yet the Defendants use the federal law to punish
medical cannabis patients. Courts are still deferring to Gonzales v Raich: 545 U.S. 1
(2005) fifteen years and many dozens of lawsuits later and for some reason refuse to do
their job of checks and balances on the Legislative and Executive Branches and consider
the great harm it is causing to the sick people who are supposed to be the beneficiaries
of the medical cannabis laws and plant. The law is supposed to be fluid and alive and
what was decided by people who are no longer even alive should not take precedence
over people who are. Culture changes and so should the law. The State ofHawaii
should adhere to the constitution; affirmative defense, administrative forfeitures and
standing silent, none are constitutional yet they have been allowed to do itfor over 20
years and there is nothingfrivolous about wanting the State to adhere to the
constitutional responsibilities of speaking up on how we do what the legislature said
we could do 20 years ago. Until they do it is racketeering.
My lawsuit is intended to defend the Federal and State constitution because after
20 years our State government won’t allow patients legal access in writing to the
medicine the State said we can have, but the State gives carte blanch to 8 wealthy
individuals to acquire and possess unlimited amounts of cannabis plants and sell
the controlled substance to sick people at many times over the street price. The
state-controlled monopoly Dispensary Defendants use the US Postal Service to
acquire hazardous, restricted and perishable mail that are considered
“nonmailable” pursuant to U.S, Postal Service Publication 52 while medical
cannabis patients risk federal prosecution for trying to use the mail to acquire their
medicine, seeds or plants.
The Federal AG pays the Hawaii State AG, Police and Prosecutors to take
patients’ cannabis by terroristic threatening, warrant-less aerial searches, unnecessary
9
049

prosecutions and unconstitutional administrative forfeitures of your property if you get
caught with cannabis in your possession. Since 2000, the State of Hawaii says patients
can use cannabis as medicine, extorts money from sick people to be allowed to use
cannabis as medicine, makes them pay to see a doctor which is not reimbursable by
health insurance companies and then actively discourages them with threats on state
websites from growing at home and uses state funds to advertise and promote purchase
of expensive medicine from the dispensary.
Before the ICA, the State argued that Chapter 329, Part IX should be
“restrictively” construed to effect the legislature’s “strong public police and
laws against illegal drug use.” However, “[e]ven the rule that penal
statutes are to be strictly construed does not permit a court to ignore
the legislative intent, nor does it require the rejection of that sense of
the words used which best harmonizes with the design of the statute or
the end in view.” State v. Murray, 63 Haw. 12, 621 P.2d 334 (1980) (citing
State v Prevo, 44 Haw. 665, 361 P.2d 1044 (1961); see also HRS § 701-104
(1993) (“[I]n order to promote justice and effect the objects of the law,
all of [the Hawaii Penal Code] provisions shall be given a genuine
construction, according to the fair import of the worlds, taken in their
usual sense, in connection with the context, and with reference to the
purpose of the provision.”).
In creating Chapter 329, Part IX by Act 2 [2] 8 of the 2000 Legislative
Session, the legislature’s “end in view” or “purpose of the provision”
was to protect medical marijuana users from prosecution:
[T]he purpose of this Act is to ensure that seriously ill people are not
penalized by the State for the use of marijuana for strictly medical
purposes when the patient’s treating physician provides a professional
opinion that the benefits of medical use of marijuana would likely
outweigh the health risks for the qualifying patient.
2000 Haw. Sess. Laws Act 228, § 1 at 596. This purpose seems to
envision protection from prosecution for medical users like Woodhall,
who have valid Medical Marijuana Registry Patient Identification
Certificates.
Chapter 329, Part IX, as enacted, does not clearly carry out its purpose,
leaving qualified patients vulnerable to prosecution...
... The confusion within Chapter 329, Part IX is apparent, such that
10
050

the meaning of HRS § 329-125’s requirement of “strict compliance” is
uncertain. An examination of the legislative history of Act 228 of the 2000
Legislative Session, which was later codified as Chapter 329, Part IX,
provides little guidance. The legislative history reveals that home
cultivation, transport, and public medical use of marijuana were
debated, but without resulting clarification of those provisions...
State ofHawaii v. Geoffrey Woodhall: 129 Haw 397, 301 P.3d 607 (2013)
(emphasis added).
The government agencies tasked with protecting medical information give the
police the names and addresses of the sick people so the police can terrorize them with
armed SWAT teams and helicopters and take their medicine at gunpoint. They also take
their vehicles if they are nice and any cash the patient might have laying around if you
are found with medical cannabis in your car and call it a crime. Extortion, Racketeering,
Elder Abuse... cumulatively taken these separate racketeering actions against primarily
old and sick people show an organized enterprise with continuation into the future
against a plant safe enough that there are no deaths attributed to it.
After defendant was charged with second-degree commercial promotion of
marijuana and unlawful use of drug parapheralia, he filed motion to
suppress evidence seized from his home as a result of execution of search
warrant, alleging that search warrant was based on police officer’s aerial
surveillance of curtilage of defendant’s private residence, and that such
surveillance constituted unconstitutional, warrantless search. The
Circuit Court, First Circuit, Colllete Y. Garibaldi, J., denied defendant’s
motion to suppress. Defendant filed interlocutory appeal. The
Intermediate Court of Appeals, 138 Hawaii 124, 377 P.3d 65, vacated and
remanded on different grounds. State filed application for writ of certiorari,
which the Supreme Court accepted.
The Supreme Court, Nakayama, J., held that:
1 [Defendant exhibited actual, subjective expectation of privacy in his
backyard, for purposes of determining whether police officer’s aerial
surveillance of backyard was unconstitutional, warrantless search in
violation of defendant’s rights under Hawaii Constitution, and
2 [A]s a matter of first impression, an individual has a reasonable
expectation of privacy from governmental aerial surveillance of his or her
curtilage and residence, when such aerial surviellance is conducted with the
purposes of detecting criminal activity therein, and such purposeful aerial
11

051

surveillance qualifies as a “search” under the Hawaii Constitution.
Affirmed.
State ofHawaii v Benjamin Quidav: 141 Hawaii 116, 405 P.3d 552(2017)
The Hawaii AG Administrative Forfeiture Program has been audited numerous
times, including 2018, where the auditor was unable to do her job because law
enforcement does not report their takings adequately and suggested the laws be
improved. The AG said there are already laws but just hadn’t gotten around to draft the
policy for reporting loot. Hawaii legislature tried to enact administrative forfeiture
reform in 2019, but the Defendant Governor Ige vetoed the reform saying “there was no
proof of abuse by law enforcement”. He obviously didn’t read his own auditors report!
It goes to show that the Governor goes against the recommendations of his own auditors
and irrationally sides with the long-time Reefer Madness conspiracy to allow Hawaii
police departments to focus and profit off federal cannabis laws instead of doing their
county and state jobs, including answering 911 calls for help, solving crimes and
returning stolen property to the rightful owners.
Tyson Timbs pleaded guilty in Indiana state court to dealing in a controlled
substance and conspiracy to commit theft. At the time of Timbs’s arrest,
the police seized a Land Rover SUV that Timbs had purchased for $42,000
with money he received from an insurance policy when his father died. The
State sought civil forfeiture of Timbs’s vehicle, charging that the SUV had
been used to transport heroin. Observing that Timbs had recently purchased
the vehicle for more than four times the maximum $10,000 monetary fine
assessable against him for his drug conviction, the trial court denied the
State’s request. The vehicle’s forfeiture, the court determined, would be
grossly disproportionate to the gravity of Timbs’s offense, and therefore
unconstitutional under the Eighth Amendment’s Excessive Fines Clause.
The Court of Appeals of Indiana affirmed, but the Indiana Supreme Court
reversed, holding that the Excessive Fines Clause constrains only federal
action and is inapplicable to state impositions.
Held: The Eight Amendment’s Excessive Fines Clause is an incorporated
protection applicable to the States under the Fourteenth Amendment’s Due
Process Clause. Pp. 686-691.
(a) the Fourteenth Amendment’s Due Process Clause Incorporates and
renders applicable to the States Bill of Rights protections “fundamental to
our scheme of ordered liberty,” or “deeply rooted in this Nation’s history
12

052

and tradition.” McDonald v Chicago, 561 U.S. 742, 767, 130 S.Ct. 3020,
177 L.Ed.2d 894 (alterations omitted). If a Bill of Rights protection is
incorporated, there is no daylight between the federal and state conduct it
prohibits or requires. Pp. 686-687.
(b) the prohibition embodied in the Excessive Fines Clause carries forward
protections found in sources from Magna Carta to the English Bill of Rights
to state constitutions from the colonial era to the present day. Protection
against excessive fines has been a constant shield through AngloAmerican history for good reason: Such fines undermine other
liberties. They can be used, e.g., to retaliate against or chill the speech
of political enemies. They can also be employed, not in service of penal
purposes, but as a source of revenue. The historical and logical case for
concluding that the Fourteenth Amendment incorporates the Excessive
Fines Clause is indeed overwhelming. Pp. 687-690.
Timhs v Indiana: 139 S.Ct. 682 (2019) (emphasis added).
5.

ADDITIONAL INFORMATION:

According to Black’s Law, the definition of “frivolous” is: Lacking in high
purpose; trifling, trivial, and silly. Lacking a legal basis or legal merit; manifestly
insufficient as a matter or law. The definition of a “frivolous claim” is a claim that has
no legal basis or merit, especially one brought for an unreasonable purpose such as
harassment. “Frivolous appeal” is an appeal having no legal basis, usually filed for
delay to induce a judgment creditor to settle or to avoid payment of a judgment, and
“Frivolous suit” is a lawsuit having no legal basis, often filed to harass or extort money
from the defendant.
This lawsuit was not filed to harass anyone, the crimes alleged in the complaints
certainly aren't trifling, trivial or silly. You will notice I didn’t ask for a dime in the
lawsuit, much less treble damages like RICO allows. I am asking this Honorable Court
for injunctions and regulatory oversight to stop the criminal treatment of sick people
who want to grow their own medicine at home instead of being forced under threat of
arrest and prosecutions to purchase medicine from an illegal state monopoly of highpriced Dispensaries.
In further support of the lack offrivolousness of this case, I would win this case
hands down in a jury trial of my peers as any person of reasonable intelligence can
see that cannabis is not a dangerous drug like the federal government is trying to
13

053

make us believe, it is a useful plant thatfederal and state and county law enforcement
agencies are trying their best to keep illegal because that is how they profit off of it to
the detriment of the patients and state in general
DATED: Mountain View, Hawaii, February 2, 2021.
Is!Michael Doyle Ruggles
Appellant Pro se

14

054

‘ 4 S’

sa ■

u* o
10
S

s
3=

S
£
re

8.3
•s«

0

l|

|§o«
§ a. § a
3» sy

x

o
3
o

.

a

jft’o >
CL

?

♦

■o SPT3 3

aa='g
*«&
i2
tt ^23
•S 2. < s

OS®!

3§ c

a

§ o ‘ e
3 S
P 3 ffl ?

I?
w3 5
<
ft)

I

f

»sag
& 5|
3 ® 3

am

-wflL «i

«< a

M S’ »

2ft
n
o©

wi

2 ® § ffl

(3

3L tj

48

5a

If
Is
S
S
re

|ll
% S

■t

n
§<

IS­ X
o
IS 8 o3

i*|-l

$ sS

to

r—

Tffl
Q} U»

C2

c:

3 a
o
2T w

C2

* “ 8

r~

2

oi

<

®

fO

I® c

<3*

* S >

fig-

as

<rr»
—4

2 *♦ ©

I© a
-3 »

'r

TT\
:.

&S
**■*

**■

gs
re o

a.

°£i a

25

g5 fsi
a x- io

O *n
”£c

M O B t*

**

3
*
#* Q

I*8

£■ a

S3 t|

3 3 va a
g»i ~ <
■a 3 «» (J>

« S'

if

Is s?l

X
* O gr« O
iSffSS

sr
;S3?

s I!| | 7

§ s=
»3

II

•fI s3

il|i
"5 n cn

M» -*v

» a

1

%3\3

5

-«

8

n

a

m*

%

—»

3 ST
^ o

d

3

» 3 n
_
■<0.0
zr
ere

§ | a
ft)
__ 2
n> aj
S a. 3
a
re I
a o

cr

-s
Si 2.
3O
rc 3

w

3

»
0>
5?
o

if
s
SB

f 5 I
s 8 i
“ r

i
i

3

I il?

! |I f
l 1i I
i3 II 3i I§

3

*♦

2
s.
s*
3

~

Sffg:
r~

§

>

III I? Ill
i

§

pi

r?
a

o
—I
re
o

m
H
m

o

>•OO

o

z 2
O

J-l

a
ro

H

a g tj
jso

m

6

X

TT

III

c

OQ

n

o

3

o
“U

o
o

-<

re

>

^
<

>

m

Q
O
Z
m

H
5

m

(/>

O
m
2

o
m

KA
X

O

<; c
o
m r*
—{

s

i

Q

055

i

:P s
E.

m

c4!

m

TESTIMONY OF
THE DEPARTMENT OF THE ATTORNEY GENERAL
TWENTY-SEVENTH LEGISLATURE, 2013
Electronically Filed
THIRD CIRCUIT
S.B. NO. 642, H.D. 1, RELATING TO HEALTH.
3PC151000391
BEFORE THE:
28-OCT-2019
HOUSE COMMITTEES ON CONSUMER PROTECTION AND COMMERCJg^Q^N
JUDICIARY
ON THE FOLLOWING MEASURE:

DATE:

Monday, March 25, 2013

LOCATION:

State Capitol, Room 325

TIME: 2:20 p.m.

TESTIFIER(S): David M. Louie, Attorney General, or
Blair Goto, Deputy Attorney General, or
Lance M. Goto, Deputy Attorney General, or
Earl R. Hoke, Jr., Deputy Attorney General, or
Richard W. Stacey, Deputy Attorney General
Chairs McKelvey and Rhoads and Members of the Committees:
The Department of the Attorney General appreciates the intent of Part I of this bill in
trying to reduce the number of youth who use tobacco products. However, we are concerned that
Part I would hinder enforcement of the tax stamp laws with respect to cigarettes. In addition, we
strongly oppose Part II because it would make enforcement of the medical marijuana program
problematic.
The purpose of Part I of this bill is to add a new section to chapter 328J, Hawaii Revised
Statutes, that would require that cigarettes or tobacco products be sold, permitted to be sold,
offered for sale, or displayed for sale only in a direct, face-to-face exchange between the retailer
and the consumer.
The purpose of the newly added Part II of this bill, which is similar to House Bill No.
667, H.D. 2, is to expand the medical marijuana program, allowing easier distribution of
marijuana between qualifying patients and primary caregivers, allowing qualifying patients from
other jurisdictions easily to obtain and use marijuana in Hawaii, altering the definition of
“adequate supply” from one ounce to five ounces of usable marijuana, adding the definition of
“reimbursement” to include compensation to primary caregivers, increasing the number of
qualifying patients per primary caregiver from one to three, creating a limit of no more than
twenty-eight marijuana plants located at a single property, limiting the information to appear on

496073 2

057

f

1

Testimony of the Department of the Attorney General
Twenty-Seventh Legislature, 2013
Page 2 of 3
the registry card to keep the location of where marijuana is grown confidential, and clarifying
that the prescribing physician need not be the primary care physician. In addition, this bill
references, but does not effectuate, a transfer of the administration of the program from the
Department of Public Safety (PSD) to the Department of Health (DOH), which transfer is
proposed in House Bill No. 668, H.D. 2, S.D. 1.
As to Part I of this bill, the Department of the Attorney General remains concerned that
the wording could be interpreted in a manner that would hinder enforcement of the tobacco
stamp tax laws. Section 2, on page 2, lines 19-22, requires that a retailer not “sell, permit to be
sold, offer for sale, or display for sale any cigarettes or tobacco products except only in a direct,
face-to-face exchange between the retailer and the consumer.” It is unclear how a retailer is to
offer for sale or display for sale cigarettes or tobacco products only in a face-to-face exchange.
The phrase could be interpreted to require that cigarettes and tobacco products must be stored out
of sight in an area accessible only to employees of the business and brought out and shown to
\

potential customers only upon request. To eliminate the ambiguity, we recommend the deletion
of “offer for sale, or display for sale” on lines 19-20 and the insertion of “or” on line 19 to read:
“... sell[J or permit to be sold[J any cigarettes or tobacco products except only in a direct, faceto-face exchange between the retailer and the consumer.” Historically, those who wished to
evade the payment of cigarette taxes often stored the noncompliant product in back areas or
under counters that were not readily visible to those tasked with investigating contraband
cigarette sales. By requiring that cigarettes and tobacco products be offered for sale or displayed
for sale only in a face-to-face exchange, Part I will, unintentionally, facilitate the sale of untaxed,
contraband cigarettes. Making the recommended amendment would address the enforcement
concerns that the Department of the Attorney General has with Part I.
As to what is now Part II, this bill expands the medical marijuana program in ways that
will make it extremely difficult for program administrators and law enforcement to ensure that
the law is followed. We strongly oppose Part II of this measure for the following reasons:
1.

This bill, by making distribution between multiple primary caregivers and
qualifying patients much easier, and by increasing the number of patients per
caregiver from one to three, and making it harder to determine where medical
marijuana is being grown, will make it much more difficult to ensure compliance

496073 2

058

Testimony of the Department of the Attorney General
Twenty-Seventh Legislature, 2013
Page 3 of3
with the medical marijuana program, and much more difficult for law
enforcement agencies to determine when a crime is being committed.
2.

Marijuana is still a schedule I controlled substance under federal law. It is in
violation of federal law to grow, distribute, or use marijuana. Although this bill
could legalize conduct that is currently prohibited under state law, federal law
cannot be ignored. Federal law enforcement agencies make arrests and conduct
raids on medical marijuana operations in other jurisdictions.

The Department has additional concerns about other provisions of this bill.
First, in section 7, page 9, line 7-10, this bill provides:
The form may request the address of the location where the marijuana is grown,
but that information shall be confidential and shall not appear on the registry card
issued by the department of health.
(Emphasis added). As the term “confidential” is not defined, it is not clear who would have
access to that information, and who would not.
Second, in section 7, page 9, at lines 10-14, this bill provides that the physician issuing
the written certification shall only attest that the patient has a debilitating medical condition, but
shall not identify the condition. The attestation requirement appears to prevent the registering
authority from identifying the debilitating medical condition and confirming that the patient
qualifies under the law for medical marijuana.
If this bill were passed, it would be extremely difficult to regulate and control the medical
marijuana program, which was carefully tailored by legislation to reduce the chances of abuse.
Accordingly, due to the enforcement issues with Part II, we respectfully ask the
Committees to delete Part II of this bill. In addition, if the bill is to advance, we respectfully ask
the Committees to pass this bill with the recommended amendment to Part I.

496073 2

059

TED SAKAI
DIRECTOR

NEIL ABERCROMBIE
GOVERNOR

Martha Torney
Deputy Director
Administration
Max Otani
Deputy Director
Corrections
STATE OF HAWAII

Keith Kamita
Deputy Director
Law Enforcement

DEPARTMENT OF PUBLIC SAFETY
919 Ala Moana Blvd. 4th Floor
Honolulu, Hawaii 96813
No.

TESTIMONY ON SENATE BILL (SB) 642, HOUSE DRAFT (HD) 1
A BILL FOR AN ACT RELATING TO HEALTH
By
Ted Sakai, Director
Department of Public Safety
House Committee on Consumer Protection and Commerce
Representative Angus L.K. McKelvey, Chair
Representative Derek S.K. Kawakami, Vice Chair
House Committee on Judiciary
Representative Karl Rhoads, Chair
Representative Sharon E. Har, Vice Chair
Monday, March 25, 2013, 2:20 p.m.
State Capitol, Room 325
Chairs McKelvey and Rhoads, Vice Chairs Kawakami and Har, and Members of
the Committees:
The Department of Public Safety (PSD) does not support SB 642, HD1,
which would require cigarettes and tobacco products to be sold, offered for sale,
or displayed only in a direct, face-to-face exchange between the retailer and the
consumer. SB642, HD1 amends aspects of the medical use of marijuana
program by:
•

Increasing the authorized number of a patient’s marijuana plants from 4
immature and 3 mature and up to 3 ounces of usable marijuana to seven
mature plants and five ounces of usable marijuana a significant increase.

•

Changing the patient to caregiver ratio from one patient per caregiver to
three patients per caregiver;

•

Allowing for a caregiver to charge a patient for costs associated with
assisting that qualifying patient to obtain marijuana for medical use;

060

March 25, 2013
SB642, HD1
Page 2
•

Authorizing the transfer of marijuana between other patients and
caregivers;

•

Immunizing patients from searches, seizures and prosecution while
\ transporting marijuana intended for medical use;

•

Authorizing patients from other states to use medical marijuana while in
Hawaii;

•

Clarifying that a certifying physician need not be a patient’s primary care
physician;

•

Prohibiting the state from indicating on the registry card the location where
the qualified marijuana plants are grown.

PSD envision that passage of this bill will create difficulties for law enforcement.
Imagine the following scenario:
A house in which three medical marijuana patients reside (and this is not
uncommon) currently could have 21 plants and 15 ounces of useable
marijuana. The law now allows patients to be caregivers to one other patient
Under this bill each patient could be a caregiver for 3 other patients. This
would potentially allow each patient/caregiver to grow up to 28 plants and
possess up to 20 ounces of useable marijuana. If each of the three patients
were also caregivers to three other patients, then the one house could legally
grow up to 84 plants and possess up to 60 ounces of marijuana. Such a
situation would draw the attention of law enforcement officials. However, job
of law enforcement would be made difficult by the provision that prohibits the
state from indicating on the registration card the location where the qualified
marijuana is grown.
Because the authorized location of marijuana plants would not be on the permit,
there would be a tremendous strain on the law enforcement officers and the
DOH, if the DOH to conduct verifications twenty-four hours per day, seven days
per week. One potential result is that a patient’s marijuana plants may be seized
unnecessarily. The advantage of having the patient or caregiver’s authorized
grow location is that when a law enforcement officer is called to a residence and

061

I

■'

March 25, 2013
SB642, HD1
Page 3
finds marijuana plants, the patient or caregiver can just present his or her
medical use of marijuana permit and the officer will at a glance be able to verify
that the plants are authorized and leave. If this information is not on the permit,
the law enforcement officer will have to contact DOH for every permit.
The need for such verifications constitutes a large part of the program’s
administration. In FY 2012, PSD conducted 950 medical marijuana verification
checks for Federal, State, and County law enforcement agencies. We received
numerous verification calls resulting in an individual being released without arrest
or seizure of their plants due to the ability of law enforcement officer to contact
our Narcotics Enforcement Division 24 hours a day, 7 days a week to verify a
patient or caregiver's medical use of marijuana certificate status. Each check
may take up to 15 minutes.
There are other aspects of this bill that cause serious concern for us. For
example, the section that would allow persons visiting from other states to use
medical marijuana is also problematic, as we do not have the means to
determine that a registry identification card is valid. If it is the sentiment of this
Legislature to permit qualified visitors to use medical marijuana while in Hawaii,
then we suggest that the various states consider reciprocal agreements first.
For these reasons, PSD cannot support SB642, HD1 as written. We do
support other legislation that would transfer responsibility for this program to the
department of Health. We believe that this transfer should take place first in an
orderly manner, before other aspects of the law are amended.
Thank you for the opportunity to testify on this matter.

062

March 25, 2013
SB642, HD1
Page 2
•

Authorizing the transfer of marijuana between other patients and
caregivers;

•

Immunizing patients from searches, seizures and prosecution while
transporting marijuana intended for medical use;

•

Authorizing patients from other states to use medical marijuana while in
Hawaii;

•

Clarifying that a certifying physician need not be a patient’s primary care
physician;

•

Prohibiting the state from indicating on the registry card the location where
the qualified marijuana plants are grown.

PSD envision that passage of this bill will create difficulties for law enforcement.
Imagine the following scenario:
A house in which three medical marijuana patients reside (and this is not
uncommon) currently could have 21 plants and 15 ounces of useable
marijuana. The law now allows patients to be caregivers to one other patient
Under this bill each patient could be a caregiver for 3 other patients. This
would potentially allow each patient/caregiver to grow up to 28 plants and
possess up to 20 ounces of useable marijuana. If each of the three patients
were also caregivers to three other patients, then the one house could legally
grow up to 84 plants and possess up to 60 ounces of marijuana. Such a
situation would draw the attention of law enforcement officials. However, job
of law enforcement would be made difficult by the provision that prohibits the
state from indicating on the registration card the location where the qualified
marijuana is grown.
Because the authorized location of marijuana plants would not be on the permit,
there would be a tremendous strain on the law enforcement officers and the
DOH, if the DOH to conduct verifications twenty-four hours per day, seven days
per week. One potential result is that a patient’s marijuana plants may be seized
unnecessarily. The advantage of having the patient or caregiver’s authorized
grow location is that when a law enforcement officer is called to a residence and

063

March 25, 2013
SB642, HD1
Page 3
finds marijuana plants, the patient or caregiver can just present his or her
medical use of marijuana permit and the officer will at a glance be able to verify
that the plants are authorized and leave. If this information is not on the permit,
the law enforcement officer will have to contact DOH for every permit.
The need for such verifications constitutes a large part of the program’s
administration. In FY 2012, PSD conducted 950 medical marijuana verification
checks for Federal, State, and County law enforcement agencies. We received
numerous verification calls resulting in an individual being released without arrest
or seizure of their plants due to the ability of law enforcement officer to contact
our Narcotics Enforcement Division 24 hours a day, 7 days a week to verify a
patient or caregiver's medical use of marijuana certificate status. Each check
may take up to 15 minutes.
There are other aspects of this bill that cause serious concern for us. For
example, the section that would allow persons visiting from other states to use
medical marijuana is also problematic, as we do not have the means to
determine that a registry identification card is valid. If it is the sentiment of this
Legislature to permit qualified visitors to use medical marijuana while in Hawaii,
then we suggest that the various states consider reciprocal agreements first.
For these reasons, PSD cannot support SB642, HD1 as written. We do
support other legislation that would transfer responsibility for this program to the
department of Health. We believe that this transfer should take place first in an
orderly manner, before other aspects of the law are amended.
Thank you for the opportunity to testify on this matter.

064

AMERICAN CIVIL LIBERTIES UNION
of HAWAI'I

Committee:
Hearing Date/Time:
Place:
Re:

Committee on Consumer Protection & Commerce
Committee on Judiciary
Monday, March 25, 2013, 2:20 p.m.
Conference Room 325
Testimony of the ACLU ofHawaii in Support ofS.B. 642, H.D. 1, Part II,
Sec. 3. Relatins to Health

Dear Chairs McKelvey and Rhoads and Members of the Committees:
The American Civil Liberties Union of Hawaii (“ACLU of Hawaii”) writes in support of S.B.
642, H.D. 1, Part II, Sec. 3, which provides a number of important and necessary improvements
to the medical marijuana program.
S.B. 642 is a sensible measure that will provide long overdue relief to sick patients.
Contemporary scientific evidence confirms the countless stories of the therapeutic effects of
medical marijuana, which has provided unique relief for serious conditions, including cancer and
AIDS, when no other medicine is as effective or free of side effects such as nausea or loss of
appetite. Nearly one million patients nationwide now use medical marijuana as recommended by
doctors and in accordance with state laws. Unfortunately, Hawaii’s medical cannabis program is
flawed; S.B. 642 will go far towards alleviating the problems faced by current patients.
S.B. 642 may spare patients who are already seriously ill from having to deal with a black
market to get a medication that helps them. S.B. 642 attempts to address patient concerns about
adequate supply by improving access to medication. It also takes substantive steps to protect the
privacy of medical marijuana patients by mandating that the name and specifics of a medical
condition should not be submitted to the state so long as the application includes a physician’s
attestation that a debilitating medical condition exists. Further, it protects the rights of the
primary caregiver because the address of the location where the marijuana is grown will no
longer appear on the registry card. As a member of the Medical Cannabis Working Group,1 the
ACLU of Hawaii is aware of the many difficulties and dangers faced by patients in the current
medical marijuana program. S.B. 642 takes a step in the right direction by providing patients
with a safer and more secure program that better meets their health and safety needs.

1 The Medical Cannabis Working Group’s full report is available at
http://www.acluhawaii.org/downloads/1002MCWG.pdf.
American Civil Liberties Union of Hawai'i
P.O. Box 3410
Honolulu, Hawai'i 96801
T: 808-522-5900
F: 808-522-5909
E: office@acluhawaii.org
www.acluhawaii.org

065

Chairs McKelvey and Rhoads and Committee Members
March 25,2013
Page 2 of 2
Thank you for this opportunity to testify.
Sincerely,
Laurie A. Temple
Staff Attorney and Legislative Program Director
The American Civil Liberties Union (“ACLU”) is our nation’s guardian of liberty - working
daily in courts, legislatures and communities to defend and preserve the individual rights and
liberties that the Constitution and laws of the United States guarantee everyone in this country.

American Civil Liberties Union of Hawaii
P.O. Box 3410
Honolulu, Hawaii 96801

T: 808-522-5900
F: 808-522-5909
E: office@acluhawaii.org
www.acluhawaii.org

066

r

Drug Policy
Group
A sister organization of the Drug Policy Forum of Hawaii

PO Box 240323, Honolulu, HI 96824 ~ {808) 988-4386
pamelalichty@gmail.com

TO:

Senate Committees on Consumer Protection and Commerce & Judiciary

FROM:

Pamela Lichty, MPH
President

DATE:

March 25, 2013, 2:20 p.m., room 325

RE:

Relating to Health - S.B. 642, HD 1, Part 2 - IN STRONG SUPPORT

Aloha Chair McKelvey and Chair Rhoads and members of the Committees. My name is
Pam Lichty and I’m testifying for the Drug Policy Action Group. I also served as CoChair of the Medical Cannabis Working Group, which made recommendations to this
body in 2010.
Today we wish to offer the strongest possible support for Part 2 of S.B. 642, HD 1. As
you know, the state’s medical marijuana program is now thirteen years old. Since our
program was enacted, eighteen other states plus the District of Columbia have authorized
medical use of cannabis. As these newer programs are implemented, many improvements
have been incorporated.
We will briefly outline the reasons for our support, and would like to respectfully
offer some suggestions for amending the measure.
First, we must say that changes to the Medical Cannabis Program are way overdue. This
was one of the main conclusions of the Working Group and the bill before us
incorporates many of their top recommendations. (The full text of that report is available
at www.dpfhi.org.) Many of the suggested improvements come directly from the
experience of some of the more than 12,000 patients who are registered with the program
in addition to physicians and other stakeholders who were surveyed.
We are pleased to see that several amendments deal with the issue of appropriate supply
and transfers of useable cannabis between patients or patients and caregivers. This area
of the law has been very unclear and has been subject to varying and arbitrary
interpretation by both the county police departments and the Narcotics Enforcement
Division (NED) of the Department of Public Safety, which currently runs the program.

067

In Section 4 under “Transfers” the new language would permit one patient to share
cannabis with another as long as there is no financial exchange. This addresses a common
problem when one patient who is growing their supply has a crop failure or has more than
the allowable limit and wishes to offer some to a fellow patient. It also addresses the
situation when a patient is scheduled for immediate chemotherapy and has no time to
grow their own or otherwise obtain it.
In Section 5 the definition of “adequate supply” is addressed. Patients have been telling
us for years that the amount of useable cannabis they use is highly variable. It depends on
such factors as the nature of their injury or symptom and the amount required to provide
relief.
For those who ingest cannabis in edibles, in a tincture or vaporize it (all modes of
ingestion safer than smoking), more material is required. The appropriate amounts are
subject to debate, but seven plants (with the unworkable mature/immature distinction
eliminated) and five ounces of useable cannabis on hand is more consistent with what
other states permit.
To put these amounts in context, the Committees are likely unaware that the Federal
Government supplies several patients with marijuana each month under their
Compassionate IND Program dating from the 1980s. There were originally some 22
patients on the program, but only four remain alive. Every month these patients
receive 300-360 pre rolled “joints” in a round tin (which is the equivalent of 8-9
ounces) from the Federal Government. For more information on this, see,
http://medicalmarijuana.procon.org/view.answers.php?questionID=000257
We like the language permitting compensation to caregivers. This is also overdue since it
is unrealistic to expect that caregivers should go to the considerable cost, effort, and
potential legal exposure to help patients simply out of the goodness of their hearts. The
definition of “reimbursement” seems to be well thought out.
The issue of overreaching by program administrators is addressed. Unfortunately this is
necessary because NED, in its thirteen years administering the program has modified the
application form, added requirements, and otherwise placed new burdens on patients and
physicians arbitrarily without amending the Administrative Rules.
We are pleased to see the new confidentiality provisions e.g. omitting the address where
the cannabis is grown from the “blue card” which has lead to problems when a patient’s
card is lost or stolen.
Another good provision in that the patient’s physician is not required to note the patient’s
qualifying condition on their submission form to NED. As long as the physician deems
the patient qualified, there is no reason that NED, a law enforcement agency, should be
provided with this knowledge. Some of the qualifying conditions such as HIV remain
stigmatized and there is no need for this information to be disclosed to the department.

2

068

The provision that a copy of the written certification be sent to the primary physician
makes sense in terms of a holistic treatment, but I can think of scenarios where this could
be problematic - for example if the patient’s primary provider was in the military system
or adamantly opposed to the use of cannabis - either of these could negatively affect the
patient’s care.
Section 7, Subsection (c) raises the number of patients one caregiver can care for to
three, from the current 1:1 ratio. This change is long overdue. Finding competent
caregivers is difficult and many patients reside together or near each other. Many patients
are too ill to grow their own supply, live in an apartment where it is impractical, or do not
have the needed expertise.
This draft omits a section on transportation which appeared in the earlier versions.
This provision addresses a common problem that arises when, for example, a patient
needs to travel to a doctor’s appointment and must carry his supply of medicine with him.
Police and judges in different counties have no uniform approach to dealing with this
situation.
We agree with law enforcement that the section as originally drafted was unworkable
since it offered “immunity” to traveling patients regardless of circumstances. However
this is an important issue (in fact there is a case before the Hawaii Supreme Court right
now dealing with the ambiguity in the statute.)
We would respectfully like to suggest language which was developed in consultation
with several attorneys familiar with the medical marijuana program. To be clear,
this is designed to deal with concerns around intra-island travel, not inter-state. We
believe it will resolve the vague wording of the statute which results in inconsistent
enforcement.
Suggested Amendment
[§329-122] Subsection (c) to read:
(c) The authorization for the medical use of marijuana in this section shall not apply to:
(1) The medical use of marijuana that endangers the health or well-being of
another person;
(2) The medical use of marijuana other than transportation or possession:
(A) In a school bus, public bus, or any moving vehicle;
(B) In the workplace of one’s employment;
(C) On any school grounds;
(D) At any public park, public beach, public recreation center, recreation
or youth center;
or
(E) Other place open to the public; and
(3) The use of marijuana by a qualifying patient, parent, or primary caregiver for
purposes other than medical use permitted by this chapter.

Department of Health References
Throughout this bill all references to the Department of Public Safety are replaced by the
Department of Health. These amendments imply that this is where the program is
3

069

currently placed, although the Committees know that it is currently in the Department of
Public Safety. S.B 642, HD 1 which is in your committees after passing the Senate would
in fact transfer the program.
Even if this bill passes however, there will be transition time required. So we suggest the
language here replacing the Department of Public Safety with the Department of Health
be deleted. Another possibility could be to change the language to read something like
“the administering department” - anticipating the transfer.
We thank the Committees for considering our suggestions and urge you to pass Part 2 of
this critically important bill on with a strong recommendation for approval. Mahalo for
hearing this measure and for the opportunity to testify.

4

070

COMMUNITY ALLIANCE ON PRISONS
76 North King Street, Honolulu, HI 96817
Phones/E-Mail: (808) 533-3454, (808) 927-1214 / kat.caphi@gmail.com

tJJpcV* intec#*
COMMITTEE ON CONSUMER PROTECTION & COMMERCE
Rep. Angus McKelvey, Chair
Rep. Derek Kawakami, Vice Chair
COMMITTEE ON JUDICIARY
Rep. Karl Rhoads, Chair
Rep. Sharon Har, Vice Chair
Monday, March 25,2013
2:20 p.m.
Room 325
SUPPORT FOR SB 642 HD1 - PART II
Aloha Chairs McKelvey & Rhoads, Vice Chairs Kawakami & Har and Members of the Committees!
My name is Kat Brady and I am the Coordinator of Community Alliance on Prisons, a community
initiative promoting smart justice policies for more than a decade. This testimony is respectfully offered
on behalf of the 5,800 Hawai'i individuals living behind bars, always mindful that approximately 1,500
individuals are serving their sentences abroad, thousands of miles away from their loved ones, their
homes and, for the disproportionate number of incarcerated Native Hawaiians, far from their ancestral
lands.
SB 642 HD1 Part II amends the Medical Use of Marijuana Law.
Community Alliance on Prisons supports Part II of this measure.
The law has been part of the Hawai'i Revised Statutes for 13 years without any improvements even
though other states and medical advancements have shown how Hawai'i's program can be improved
upon.
Law abiding citizens who have been authorized by physicians to use medical cannabis want to comply
with the law but find it very difficult under the present archaic system, so we are criminalizing sick
people.
This measure allows patients and caregivers to help other patients by allowing them to give some of
their medicine to qualifying caregivers and patients. This is especially helpful to patients who cannot
grow their own, who have had a crop failure, or need seeds or clones to start with.
We know of many patients, such as those undergoing chemotherapy, have debilitating pain, or suffer
from immediate symptoms, who need this medicine immediately, and this bill corrects that portion of
the current law.

071

/

Many patients are too sick or unable to grow their own medicine. Caregivers are difficult to find and
allowing them to care for additional patients improves patient access to needed medicine. Many patients
need caregivers because live in a location where it is illegal/forbidden (such as in federal housing or in
apartment complexes in urban areas) or live in a location where it would be unsafe to grow their
medicine.
Part II of this measure also protects patient privacy, as enshrined in Hawai'i's Constitution, by removing
the address where the marijuana is grown from the registry card and ensures that the "qualifying
condition" of the patient will not be disclosed to the Department running the program.
Community Alliance on Prisons urges the committees to support Pat II of this measure to improve
Hawai'i's medical cannabis program.
Mahalo for this opportunity to testify.

Community Alliance on Prisons ~ 3.25.13 CPC-JUD SB 642 HD1 Testimony

072

Page 2

■SA

cn

-m#

, ;»•

of hawafi ‘

Dedicated to safe, responsible, humane and effective drug policies since 1993
March 25,2013
To: Rep. Angus McKelvey, Chair
Rep. Derek Kawakami, Vice Chair and
Members of the Committee on Consumer Protection & Commerce
Rep. Karl Rhoads, Chair
Rep. Sharon Har, Vice Chair
Members of the Committee on Judiciary
RE: SB 642 HDI
Hearing: Monday, March 25, 2013, 2:20 p.m., Room 325
Position: Strong Support SB 642 HDI - Part II
The Drug Policy Forum of Hawai‘i testifies in strong support of Part II of SB 642 HDI Relating to
Medical Marijuana. Part II of the proposed bill addresses changes that the Medical Cannabis Working
Group identified as top priorities:
#2 was to "Increase the allowable number of plants and the amount of usable cannabis to
ensure that patients have an adequate supply of their medicine.
assured
#3 was to allow caregivers to care for at least five patients to ensure that patients are
of an adequate supply and a competent caregiver.
TRANSPORTATION
The medical marijuana section allows transportation, however, this measure is needed to clarify
that intrastate transportation is allowed. Four medical marijuana patients were arrested on the Big
Island while transporting their marijuana. Of those cases, one patient was convicted and two
cases were dismissed. In her ruling dismissing the case, Judge Barbara Takase ruled that “HRS
§329 is void for vagueness.” All of the cases were appealed. One case is being heard in March by
the Hawaii State Supreme Court. However, none of the decisions clarified the issue of
transporting marijuana by a patient.
We suggest deleting the” transportation section” of HDI, and instead, amending
[§329-122] Subsection (c) to read:
“(c) The authorization for the medical use of marijuana in this section shall not apply to:
(1) The medical use of marijuana that endangers the health or well-being of another person;
P.O. Box 241042 Honolulu, HI 96824-1042 Phone: 808388-4386 Email: info@dpfiii.org
Website: www.dpflhi.ore

073

(2) The medical use of marijuana other than transportation or possession:
(A) In a school bus, public bus, or any moving vehicle;
(B) In the workplace of one’s employment;
(C) On any school grounds;
(D) At any public park, public beach, public recreation center, recreation or youth center;
or
(E) Other place open to the public; and
(3) The use of marijuana by a qualifying patient, parent, or primary caregiver for purposes
other than medical use permitted by this chapter.”
Caregivers are difficult to find and allowing them to care for additional patients improves patient
access to needed medicine. Many patients need caregivers because they are too sick to grown
their own plants or live in a location where it is dangerous or impractical to grow their own
plants. Many do not have the needed expertise.
Caregivers are also allowed to be reimbursed for the costs they incur. This provides them
protection from prosecution for selling or trafficking marijuana.
This measure allows patients and caregivers to help other patients by allowing them to give some
of their medicine to qualifying caregivers and patients. This is especially helpful to patients who
cannot wait to grow their own; or who have had a crop failure. Many cancer patients undergoing
chemo therapy need medicine immediately and have nowhere to turn except to a current patient,
who can also provide information on how to use vaporizers, etc.
In a survey, many patients have said that the current limit on how much cannabis they can
possess is not sufficient for their needs. Patients have said that they use more medicine when
using vaporizers. If they cannot possess sufficient supply, then they are forced to smoke their
medicine rather than use their preferred method which may be safer than smoking. Those who
prepare edibles also need a larger supply of cannabis.
Part II of this measure protects patient privacy by eliminating the address of where the marijuana is grown
from the registry card. If a wallet is stolen, for instance, the location of the marijuana is available to the thief.
Patients are law abiding citizens who are seriously ill, or who have chronic conditions and who want to comply
with the law. The Medical Marijuana program is a compassionate care program
established to relieve suffering. Patients are simply asking for changes to the program so that it
will meet their needs. These changes are needed immediately because although a legal
dispensary or compassion center model is being considered, it may be some time before they are
in operation. In the meantime, patients need improvements in the program.
We respectfully ask the committees to pass this measure. Thank you for the opportunity to
provide testimony today.

P.O. Box 241042 Honolulu, HI 96824*1042 Phone: 808-988-4386 Email: info@dpflii.org

Website: www.dpflhi.org

074

TESTIMONY ON SENATE BILL 642 HD1
A BILL FOR AN ACT RELATING TO
HEALTH
By
Keith Kamita
House Committee on Consumer Protection & Commerce
Representative Angus L.K. McKelvey, Chair
Representative Derek S.K. Kawakami, Vice Chair
House Committee on Judiciary
Representative Karl Rhoads, Chair
Representative Sharon E. Har, Vice Chair
Wednesday, February 13, 2013, 2:30 p.m.
State Capitol, Room 325
Chairs McKelvey and Rhoads, Vice Chairs Kawakami and Har, and Members of
the Committees:
I am testifying as a private citizen and as a concerned parent feels that
Senate Bill 642 HD1 as written would increase the amount of marijuana diverted
to the streets and increase availability to our kids. As a law enforcement officer
with over 27 years of narcotics experience I have to oppose the proposed
language in part 2 of Senate Bill 642 HD1. This section proposes to amend
aspects of Hawaii’s medical use of marijuana program by:
•

Increasing the authorized number of a patient’s marijuana plants from 4
immature and 3 mature and up to 3 ounces of usable marijuana to 7
mature plants and 5 ounces of usable marijuana a significant increase.

•

Changing the patient to caregiver ratio from one patient per caregiver to
three patients per caregiver;

•

Allowing for a caregiver to charge a patient for costs associated with
assisting that qualifying patient to obtain marijuana for medical use;

•

Authorizing the transfer of marijuana between other patients and
caregivers;

•

Authorizing patients from other states to use medical marijuana while in
Hawaii;

075

SENATE BILL 642 HD1
March 25, 2013
Page 2
•

Clarifying that a certifying physician need not be a patient’s primary care
physician;

•

Prohibiting the state from indicating on the registry card the location where
the qualified marijuana plants are grown.

•

Limit the amount of marijuana grown on an TMK to not exceed 28 plants
regardless of amount of patients or caregivers residing on the property.

Passage of Senate Bill 642 HD1 as written will create difficulties for law
enforcement and neighbors of patients and caregivers that may abuse the
provisions of the program. Imagine the following scenario:
A house in which three medical marijuana patients reside (and this is not
uncommon) currently could have 21 plants and 15 ounces of useable
marijuana. The law now allows patients to be caregivers to one other
patient. Under this bill each patient could be a caregiver for 3 other
patients. This would potentially allow each patient/caregiver to grow up to
28 plants and possess up to 20 ounces of useable marijuana. If each of
the three patients were also caregivers to three other patients, then the
one house could legally grow up to 84 plants and possess up to 60
ounces of marijuana. Such a situation would draw the attention of law
enforcement officials. However, job of law enforcement would be made
difficult by the provision that prohibits the state from indicating on the
registration card the location where the qualified marijuana is grown.
Because the authorized location of marijuana plants would not be on the permit
there would be a tremendous strain on the law enforcement officers and the DOH
if the DOH to conduct verifications twenty-four hours per day, seven days per
week. One potential result is that patient’s marijuana plants may be seized
unnecessarily. The advantage of having the patient or caregiver’s authorized
grow location is that when a law enforcement officer is called to a residence and
finds marijuana plants the patient or caregiver can just present his or her medical
use of marijuana permit and the officer will at a glance be able to verify that the

076

SENATE BILL 642 HD1
March 25, 2013
Page 3
plants are authorized and leave. If this information is not on the permit the law
enforcement officer will have to contact DOH for every permit.
The need for such verifications constitutes a large part of the program’s
administration. In FY 2012, Public Safety’s Narcotics Enforcement Division
(NED) conducted 950 medical marijuana verification checks for Federal, State
and County law enforcement agencies. NED received numerous verification
calls resulting in an individual being released without arrest or seizure of their
plants due to the ability of law enforcement officer to contact our Narcotics
Enforcement Division 24 hours a day, 7 days a week to verify a patient or
caregiver's medical use of marijuana certificate status. Each check may take up
to 15 minutes.
Senate Bill 642 HD1 also allows for visitors from other States that have
medical marijuana permits to utilize marijuana in Hawaii. The problem with this is
that there is no way for law enforcement or DOH to verify the validity of the outof-state visitors medical use of marijuana ID cards.
Thank you for the opportunity to testify on this matter.

077

morikawa2 - Shaun
From:
Sent:

To:
Subject:

david ostler [dostler007@gmail.comj
Tuesday, February 05, 2013 7:28 AM
HLTtestimony
HB 667

To: Representative Della Au Belatti, Chair
Representative Dee Morikawa, Vice-Chair
From: David & Ellen Ostler
RE: HB 667 - Relating to Medical Marijuana
Hearing: Friday, February 8, 2013, 8:30 am, Room 329
Position: Strong Support
The program was put in place 13 years ago to provide compassionate care to Hawaii’s sick and
debilitated, not to cause them more grief and stress.
*

The law has been in place for 13 years without any improvements even though other states and
medical advancements have shown how Hawaii’s program can be improved upon.

*

Patients are law-abiding citizens who are seriously ill, or who have chronic conditions and who
want to comply with the law but find it difficult with the current system.

•

This measure is needed immediately because although a legal dispensary is being considered by
the legislature, it may be some time before they are in operation. In the meantime, patients need
improvements in the program.

•

This measure allows patients and caregivers to help other patients by allowing them to give some
of their medicine to qualifying caregivers and patients. This is especially helpful to patients who
cannot wait to grow their own, who have had a crop failure, or need seeds or clones to start off
with. Also, many patients, such as those undergoing chemotherapy, have debilitating pain, or
suffer from immediate symptoms, need medicine immediately, and this bill corrects that portion of
the current law.

• , Patients who choose not to smoke their medicine say that the current limit on how much cannabis
they can possess is not sufficient for their needs. Patients require more cannabis when using
vaporizers, edibles or tinctures. If they cannot possess sufficient supply, then they are forced to
smoke their medicine rather than use their preferred, less harmful method.
l

078

Hawaii should do a better job of protect patients’ privacy.

*

This measure protects patient privacy by removing the address where the marijuana is grown from
the registry card. Then, if a wallet is stolen or lost, for instance, the location of the marijuana is not
revealed.

•

Under this proposal the “qualifying condition” of the patient will not be disclosed to the Department
running the program.

Hawaii needs to encourage caregivers to help care for the sick who use medical cannabis, not
discourage them.

•

Caregivers are difficult to find and allowing them to care for additional patients improves patient
access to needed medicine.

•

Many patients need caregivers because they are:
o Too sick to grow their own plants.
o Live in a location where it is illegal/forbidden (such as in federal housing or in.apartment
complexes in urban areas).
o Live in a location where it is dangerous to grow their medicine,
o Do not have the knowledge, time or space to grow their own medicine.

•

This bill allows caregivers to be reimbursed for the costs they incur (e.g,, grow lights, soil, water
and electricity costs, time spent growing, travel costs, etc,).

*

This provides incentives for caregivers to give good care to their patients. And protects them from
prosecution by law enforcement officials for “selling drugs”,

Hawaii should permit medical cannabis patients from other medical cannabis jurisdictions to be
afforded the same rights as state residents while they are visiting.

*

In a state with a large tourist industry visitors should be allowed temporary protections from state
and county laws.
2

079

•

Visiting patients who cannot carry their medicine with them should not have to do without it when
they are in Hawaii on business or on vacation,

•

A smalt fee could be assessed for this privilege and access granted to dispensaries if/when they
are in place. This would be another source of revenue for the state.

3'

080

morikawa2 - Shaun

Subject:

mailinglist@capitol.hawaii.gov
Wednesday, February 06, 2013 8:16 AM
HLTtestimony
doctorforgolf@yahoo.com
Submitted testimony for HB667 on Feb 8, 2013 08:30AM

Follow Up Flag:
Flag Status:

Follow up
Flagged

From:
Sent:
To:
Cc:

HB667
Submitted on: 2/6/2013
Testimony for HLT on Feb 8, 2013 08:30AM in Conference Room 329
Submitted By
Dr. Gregory Hungerford

Testifier Position
Support

Organization
Individual

Present at Hearing
No

Comments: To: Representative Della Au Belatti, Chair Representative Dee Morikawa, Vice-Chair
From: (Your Name) RE: HB 667 - Relating to Medical Marijuana Hearing: Friday, February 8, 2013,
8:30 am, Room 329 Position: Strong Support The program was put in place 13 years ago to provide
compassionate care to Hawaii’s sick and debilitated, not to cause them more grief and stress. The
law has been in place for 13 years without any improvements even though other states and medical
advancements have shown how Hawaii's program can be improved upon. Patients are law-abiding
citizens who are seriously ill, or who have chronic conditions and who want to comply with the law but
find it difficult with the current system. This measure is needed immediately because although a legal
dispensary is being considered by the legislature, it may be some time before they are in operation. In
the meantime, patients need improvements in the program. This measure allows patients and
caregivers to help other patients by allowing them to give some of their medicine to qualifying
caregivers and patients. This is especially helpful to patients who cannot wait to grow their own, who
have had a crop failure, or need seeds or clones to start off with. Also, many patients, such as those
undergoing chemotherapy, have debilitating pain, or suffer from immediate symptoms, need medicine
immediately, and this bill corrects that portion of the current law. Patients who choose not to smoke
their medicine say that the current limit on how much cannabis they can possess is not sufficient for
their needs. Patients require more cannabis when using vaporizers, edibles or tinctures. If they
cannot possess sufficient supply, then they are forced to smoke their medicine rather than use their
preferred, less harmful method. Hawaii should do a better job of protect patients' privacy. 1) This
measure protects patient privacy by removing the address where the marijuana is grown from the
registry card. Then, if a wallet is stolen or lost, for instance, the location of the marijuana is not
revealed. 2) Under this proposal the “qualifying condition" of the patient will not be disclosed to the
Department running the program. Hawaii needs to encourage caregivers to help care for the sick
who use medical cannabis, not discourage them. Caregivers are difficult to find and allowing them to
care for additional patients improves patient access to needed medicine. 1) Many patients need
caregivers because they are: a. Too sick to grow their own plants, b. Live in a location where it is
illegal/forbidden (such as in federal housing or in apartment complexes in urban areas), c. Live in a
location where it is dangerous to grow their medicine, d. Do not have the knowledge, time or space to
grow their own medicine. 2) This bill allows caregivers to be reimbursed for the costs they incur (e.g.,
grow lights, soil, water and electricity costs, time spent growing, travel costs, etc.). 3) This provides
incentives for caregivers to give good care to their patients. And protects them from prosecution by
i

081

law enforcement officials for “selling drugs”, Hawaii should permit medical cannabis patients from
other medical cannabis jurisdictions to be afforded the same rights as state residents while they are
visiting. 1) in a state with a large tourist indus try visitors should be allowed temporary protections from
state and county laws. 2) Visiting patients who cannot carry their medicine with them should not have
to do without it when they are in Hawaii on business or on vacation. 3) A small fee could be as sessed
for this privilege and access granted to dispensaries if/when they are in place. This would be another
source of revenue for the state.
Please note that testimony submitted: less than 24 hours prior to the hearing . improperly identified, or
directed to the incorrect office, may not be posted online or distributed to the committee prior to the:
convening of the public hearing.
Do not reply to this email. This inbox is hot monitored. For assistance please email
webmaster@capitol.hawaii.gov

2

082

morikawa2 - Shaun
Nicholas Mesce [nmesce@gmail.com]
Wednesday, February 06, 2013 3:17 PM
HLTtestimony
strong support of HB 667 Medical Marijuana

From:
Sent:
To:

Subject:

To: Representative Della Au Belatti, Chair
Representative Dee Morikawa, Vice-Chair
From: NICHOLAS MESCE
RE: HB 667 - Relating to Medical Marijuana
Hearing: Friday, February 8, 2013, 8:30 am, Room 329
Position: Strong Support
Aloha representatives,
Thanks for the opportunity to testify in strong support of HB 667 which improves the effectiveness
of our states medical marijuana program.
HB 667 fixes the following problems with the current program:
• Removes identifying information like our addresses f rom patient/caregiver registration cards.
If our wallets get stolen with the MM card inside, it‘s very likely that thieves will come to
our home to rob us of our medicine.
• Our medical privacy is maintained by Physicians not having to disclose the specific medical
condition of their qualifying patients to the controlling state Department but just that the
patient qualifies for use of medical marijuana
•

• Increases the time limit for patients reporting changes of information from 5 to 10 days (I
could not even find accurate information on how to do this on the NED‘s website when I
needed it, and then had to worry that I could be in legal trouble while I waited for
processing )
•

• Increases the amount that qualifying patients and caregivers are allowed to 10 marijuana
plants (up from 7) and 5 ounces of usable marijuana (up from 3) - this is especially needed
for those of us who do not smoke our medicine, but use edible forms or vaporizers. These
are healthier forms of ingestion but require more raw plant material. Also, g rowing

plants is hard work and requires time, space, and physical activity!
Crop failure is a reality due to pests, disease, etc.
•

. Allows registered patients and caregivers to provide usable marijuana or any
part of the marijuana plant to any ot her qualifying patient or caregiver as long as no money
is exchanged and that the total amount of marijuana possessed by the recipient does not
exceed the “adequate supply” permitted by law. - This enables us to help each other by
083

sharing seeds and clones to start plants just like any other farmer, gardener, etc., as well as
enabling sick patients in need to get medicine as soon as possible.
•

• Allows registered Medical Marijuana patients from other states to enjoy the same rights as
Hawaii residents so they can continue legally using their medicine here in Hawaii. This
makes sense in our tourism economy, and can even add revenue to state coffers by
requiring a small fee from out-of-state patients to access Hawaii dispensaries if/when they
are in place. No one should have to travel without their medicine.
•

• Protects and encourages caregivers. Caregivers are needed for patients who are not
physically capable of growing plants or do not have appropriate areas to grow plants (i.e.
federal housing, urban, susceptible to thieves). Caregivers are difficult to find and allowing
them to care for additional patients improves patient access to needed medicine.
HB667 increases the number of patients per caregiver from 1:1 to 5:1. It also allows
reimbursement for costs not including sale of marijuana, but including growing supplies,
time and transport, and protects caregivers from being targeted by law enforcement in their
legal activities.

These updates to Hawaii4 s medical marijuana program are sorely needed. I urge y ou to improve the
lives of many Hawaii residents by passing HB 667.
Sincerely,
Nicholas Mesce
nmesce@gmail.com
haleiwa, HI 96712

084

To: Representative Della Au Belatti, Chair
Representative Dee Morikawa, Vice-Chair
From: Rev. Dennis Shields
RE: HB 667 - Relating to Medical Marijuana
Hearing: Friday, February 8, 2013, 8:30 am, Room 329
Position: Strong Support
As one of the longest blue card registers medicinal cannabis users I urge the
committee to approve these changes to Hawaii’s medicinal Cannabis law
I have often experienced it to take 110 to 120 days to have a plant mature
7 plants is not enough to assure a yearlong adequate supply of female flower
tops which are the medicinally useful parts of the plant much of the rest of the
leaves simply do not provide the quality of cannibinoids for a patients’ needs
Patients need to be able to transport their medicine interisland without being
subjected to and search just as pharmaceutical pain medications do not
subject patients to legal harassment so does the med pot user warrant the
safety and security that any other consumer of medication enjoys
Judges on this island have ignored the language of the present law and
subjected patients to penalties
Given that in the past my name as well as the entire data base of patients was
given to the media by the NED the grow information on the blue card needs to
be removed as not to endanger patients from unwanted intrusions
Patients newly registered need immediate access to this medication and not
120 days after they can first grow it
Since there are no dispensaries established in Hawaii the quickest way to
provide is for current patients who successfully grow to be able to meet the
needs of new cancer and other patients who cannot wait for the plant to grow
to maturity
Also the skill level and secure area to grow this plant given its vulnerability to
mold and pest is daunting to someone who has never grown before allowing
existent patients to care give up to 5 additional patients and care for and

085

safeguard these plants would fill a much neglected aspect of Hawaii’s med pot
laws
Mahalo for considering this bill
Aloha
Rev. Dennis Shields

j

086

RICHARDS. MILLER
PROFESSOR OF LAW, EMERITUS
THEWM. S. RICHARDSON SCHOOL OF LAW
Tel: (80S) 254-1796
E-Mail: rmiller@ava.vale.edu

To: Rep. Delia Au Belatti, Chair; Rep. Dee Morikawa, Vice Chair, and Members of
the Committee on Health, and
To: Rep. Henry Aquino, Chair; Rep. Kaniela Ing, Vice Chair; and Members of the
Committee on Public Safety
From: Richard S. Miller
Re: HB 667 Relating to Medical Marijuana
For Hearing, Friday, Feb. 8,2013, room 329,8:30AM
The State’s medical cannabis program was created as a compassionate
public health program to enable persons suffering from debilitating conditions,
as certified by their physicians, to use medical cannabis to treat their symptoms.
The purpose of this bill is to correct a series of errors and problems that
prevented the original medical marijuana bill from fully serving the Legislative
purposes that led to its passage, to wit:
The current system made it difficult for patients, particularlylaw-abiding
elderly patients who have had little or no experience with medical marijuana, to
comply with the law and to receive the medical marijuana they required.
Patients and their caregivers will be allowed to give some of their
marijuana to to qualifying patients and their caregivers. Many patients,
particularly the elderly, are notable to secure their needed medication. This will
be particularly helpful to those who need medication and cannot wait to grow
their own or who have difficulty raising the medication.
The amount of cannabis allowed under current law may prove insufficient
for some patients with serious debilitating conditions. This bill increases the
amounts of marijuana that qualifying patients and their caregivers may possess.
The current amounts have proven insufficient to provide relief to some qualified
patients.
This bill preserves the protected rights of privacy of patients needing
marijuana and also prevents the location of marijuana being grown from being
disclosed to those who steal the patient’s registry card.
Allowing caregivers to care for up to five qualifying patients will cure a
significant deficiency under current law, where patients living near each other
may not be able to find caregivers for each of them.

1

087

Reciprocity is provided to patients from other states who qualify for
marijuana use and have a valid registry card from their own state.
Other minor and well-justified changes are made.
Passing this bill will clearly remove unfortunate problems that undermined
the original beneficent purposes of the the Medical Marijuana bill.
Thank you for considering my testimony. The views expressed here are
my strongly felt and well-supported personal views and are not necessarily the
views of the University of Hawaii or its Law School.
Aloha,
v ......

a
088

morikawa2 - Shaun
From:
Sent:
To:
Subject:

aaron zeeman [aaronzeeman@yahoo.com]
Wednesday, February 06, 2013 5:06 PM
HLTtestimony
vote yes to bill 667

Please vote yes to this bill. Patients have had to attempt to abide by the current limits for too long now. For patients
unable to grow an adequate supply, allowing for transfer between patients will finally give relief to hundreds if not
thousands of sick, injured or dying people.
The current MMJ statute had been inadequate since it's inception. It is time to remove the obstacles that
have hindered patients for years. Vote yes to this sensible revision bill.
I have been a MMJ patient for over 7 years and I urge you to do the right thing.
Mahalo and Aloha, Aaron

089

morikawa2 - Shaun
From:
Sent:
To:
Subject:

Kahu (Pastor) Don Eads [pastoreads@yahoo.com]
Thursday, February 07, 2013 8:23 AM
HLTtestimony
HB 667 - Relating to Medical Cannabis: STRONG SUPPORT

To: Representative Della Au Belatti, Chair
Representative Dee Morikawa, Vice-Chair
From: Kahu Don Eads
RE: HB 667 - Relating to Medical Marijuana
Hearing: Friday, February 8, 2013, 8:30 am, Room 329
Position: Strong Support
I am part of a large growing local STATEWIDE community that STRONGLY supports what this bill
proposes:

These changes are conservative and based upon our experience with the law from its inception.
The program was put in place 13 years ago to provide compassionate care to Hawaii's sick and
debilitated, not to cause them more grief and stress.
These changes would improve Hawaii's medical cannabis program.

•

The law has been in place for 13 years without any improvements even though other states and
medical advancements have shown how Hawaii’s program can be improved upon.

•

Patients are law-abiding ciiizens who are seriously ill, or who have chronic conditions and who
want to comply with the law but find it difficult with the current system.

•

This measure is needed immediately because although a legal dispensary is being considered by
the legislature, it may be some time before they are in operation. In the meantime, patients need
improvements in the program.

This measure allows patients and caregivers to help other patients by allowing them to give some
of their medicine to qualifying caregivers and patients. This is especially helpful to patients who
cannot wait to grow their own, who have had a crop failure, or need seeds or clones to start off
with. Also, many patients, such as those undergoing chemotherapy, have debilitating pain, or
i

090

suffer from immediate symptoms, need medicine immediately, and this bill corrects that portion of
the current law.

•

Patients who choose not to smoke their medicine say that the current limit on how much cannabis
they can possess is not sufficient for their needs. Patients require more cannabis when using
vaporizers, edibles or tinctures. If they cannot possess sufficient supply, then they are forced to
smoke their medicine rather than use their preferred, less harmful method.

Hawaii should do a better job of protect patients’ privacy.
•

This measure protects patient privacy by removing the address where the marijuana is grown from
the registry card. Then, if a wallet is stolen or lost, for instance, the location of the marijuana is not
revealed.

•

Under this proposal the “qualifying condition” of the patient will not be disclosed to the Department
running the program.

Hawaii needs to encourage caregivers to help care for the sick who use medical cannabis, not
discourage them.

♦

Caregivers are difficult to find and allowing them to care for additional patients improves patient
access to needed medicine.

*

Many patients need caregivers because they are:
o Too sick to grow their own plants.
6 Live in a location where it is illegal/forbidden (such as in federal housing or in apartment
complexes in urban areas).
o Live in a location where it is dangerous to grow their medicine,
o Do not have the knowledge, time or space to grow their own medicine.

*

This bill allows caregivers to be reimbursed for the costs they incur (e,gM grow lights, soil, water
and electricity costs, time spent growing, travel costs, etc.).
2

091

»

This provides incentives for caregivers to give good care to their patients. And protects them from
prosecution by law enforcement officials for “selling drugs".

Hawaii should permit medical cannabis patients from other medical cannabis jurisdictions to be
afforded the same rights as state residents while they are visiting.

*

In a state with a large tourist industry visitors should be allowed temporary protections from state
and county laws.

•

Visiting patients who cannot carry their medicine with them should not have to do without it when
they are in Hawaii on business or on vacation.

»

A small fee could be assessed for this privilege and access granted to dispensaries if/when they
are in place. This would be another source of revenue for the state.

One last point: when someone in your own ohana benefits from the use of cannabis medically one's
viewpoint evolves rapidly.
Mahalo for your consideration,
Don Eads

3

092

10/27/19, 3:20 PM

HSCR1215

STAND. COM. REP. NO.

1215

Honolulu, Hawaii
, 2013
RE:

S.B. No. 642
H.D. 1

Honorable Joseph M. Souki
Speaker, House of Representatives
Twenty-Seventh State Legislature
Regular Session of 2013
State of Hawaii
Sir:
Your Committee on Health, to which was referred S.B. No. 642
entitled:
"A BILL FOR AN ACT RELATING TO HEALTH,"
begs leave to report as follows:
The purpose of this measure as received by .your Committee is to
reduce the number of children and teens in Hawaii who smoke by requiring
cigarettes and tobacco products to be stored for sale behind a counter in
an area accessible only to the personnel of the business.
Your Committee held a public hearing and received testimony on this
measure as it was received by your Committee.
The Department of Health," Coalition for a Tobacco-Free Hawaii,
Community Alliance on Prisons, American Cancer Society Cancer Action
Network, and numerous individuals supported this measure. The Department
of the Attorney General, ABC Stores, SWAM, and numerous individuals
opposed this measure. Kauai Cigar Company, Hawaii Cigar Association, and
several individuals commented on this measure.
For purposes of facilitating public input on this measure, your
Committee gave notice of and held a public hearing on a proposed draft of
this measure. The proposed draft circulated by your Committee:

https://www.capitol.hawaii.gov/session2013/CommReports/SB642_HD1_HSCR1215_.htm

093

Page 1 of 3

10/27/19, 3:20 PM

HSCR1215

(1)

Amends the provisions of S.B. No. 642 to require that
cigarettes and tobacco products be sold, offered for sale, or
displayed only in a direct, face-to-face exchange between the
retailer and the consumer; and

(2)

Inserts the contents of H.B. No. 667, H.D. 2, which amends the
Medical Use of Marijuana Law, and was passed out of this
Committee, your Committee on Judiciary, and this Chamber, and
(a)

Permits the transfer of no more than the adequate supply
amount of marijuana among registered patients and
caregivers;

(b)

Defines permitted conduct of a qualifying patient licensed
or registered in another jurisdiction and temporarily
present in this State;

• (c)

Amends the allowable adequate supply amount to include up
to seven plants in any state of maturity and up to five
ounces of useable marijuana;

(d)

Amends requirements for a registered primary caregiver;
and

(e)

Transfers certain functions regarding the issuance of
certification, registration, and maintenance of registry
information from the Department of Public Safety to the
Department of Health and specifies certain registration
requirements.

Your Committee received testimony on the proposed draft. The
Department of Public Safety, City and County of Honolulu Department of
the Prosecuting Attorney, Honolulu Police Department, Maui Police
Department, Hawaii Police Department, and several individuals opposed
this measure. The Coalition for a Tobacco-Free Hawaii, American Cancer
Society Cancer Action Network, American Civil Liberties Union of Hawaii,
Drug Policy Action Group, and an individual commented on this measure.
Upon consideration of this measure in the form in which it was
received and in the form of the proposed draft, your Committee has
adopted the proposed draft and has further amended it by:

(1)

Including a provision that specifies that there shall be no
more than 28 marijuana plants located at a single property as
defined by a single Tax Map Key;

https://www.capitol.hawaii.gov/session2013/CommReports/SB642_HD1_HSCR1215_.htm

094

Page 2 of 3

10/27/19, 3:20 PM

HSCR1215

(2)

Changing its effective date to July 1, 2050, to facilitate
further discussion; and

(3)

Making technical, nonsubstantive amendments for clarity,
consistency, and style.

As affirmed by the record of votes of the members of your Committee
on Health that is attached to this report, your Committee is in accord
with the intent and purpose of S.B. No. 642, as amended herein, and
recommends that it pass Second Reading in the form attached hereto as
S.B. No. 642, H.D. 1, and be referred to the Committees on Consumer
Protection & Commerce and Judiciary.
Respectfully submitted on behalf of
the members of the Committee on
Health,

DELLA AU BELATTI, Chair

https://www.capitol.hawaii.gov/session2013/CommReports/SB642_HD1_HSCR1215_.htm

095

Page 3 of 3

10/27/19, 7:19 PM

CCR174

CONFERENCE COMMITTEE REP. NO. 174
Honolulu, Hawaii
, 2013
RE:

S.B. No. 642
H.D. 2
C.D. 1

Honorable Donna Mercado Kim
President of the Senate
Twenty-Seventh State Legislature
Regular Session of 2013
State of Hawaii
Honorable Joseph M. Souki
Speaker, House of Representatives
Twenty-Seventh State Legislature
Regular Session of 2013
State of Hawaii
Madam and Sir:
Your Committee on Conference on the disagreeing vote of the Senate
to the amendments proposed by the House of Representatives in S.B.
No. 642, H.D. 2, entitled:
"A BILL FOR AN ACT RELATING TO HEALTH,"
having met, and after full and free discussion, has agreed to recommend
and does recommend to the respective Houses the final passage of this
bill in an amended form.
The purpose of this measure is to amend the medical use of marijuana
law to address the concerns of Hawaii's seriously ill patients.
Your Conference on Committee has amended this measure by:
(1) Deleting part I to remove all provisions related to the placement of tobacco products;

file:///Users/sarasteiner-jackson/Documents/Mike/Exh%20R%20Con...0Report%20174%20re%20SB642%20HD2%20CD1%204-26-2013.webarchive

096

Page 1 of 4

10/27/19, 7:19 PM

CCR174

(2) Deleting section 4, relating to transfers of marijuana and limitation of marijuana plants grown;

(3) Deleting the amendment to section 329-121, Hawaii Revised Statutes (HRS), that would have added a
new definition of "reimbursement;"

(4) Amending the definition of "adequate supply" in section 329-121, HRS, to change the number of
ounces of usable marijuana allowed to each qualifying patient to four ounces;

(5) Amending the definition of "medical use" in section 329-121, Hawaii Revised Statutes, to delete the
specification that the term "distribution" is limited to the transfer of marijuana and paraphernalia among
qualifying patients and primary caregivers;

(6) Amending section 329-122(a)(3), HRS, to allow the medical use of marijuana if the amount of
marijuana possessed by the qualifying patient does not exceed an "adequate supply";

(7) Amending section 329-123(a), HRS, to make mandatory, rather than discretionary, rule making by the
Department of Health to mandate all written certifications to comply with a designated form completed by or
on behalf of a qualifying patient;

(8) Amending section 329-123(a), HRS, to amend requirements for the designated form required by
Department of Health rules, including the requirement that the qualifying patient shall list the address of the
location where the marijuana is grown and that the address shall be listed on the registry card issued by the
Department of Health;

(9) Amending section 329-123(a), HRS, to require the certifying physician to be the qualifying patient's
primary care physician;

(10) Amending section 329-123(a), HRS, to honor all current active medical marijuana permits through
their expiration dates;

(11) Amending section 329-123(b), HRS, to require the Department of Health to charge an annual fee of
file:///Users/sarasteiner-jackson/Documents/Mike/Exh%20R%20Con...OReport%20174%20re%20SB642%20HD2%20CD1%204-26-2013.webarchive

097

Page 2 of 4

10/27/19, 7:19 PM

CCR174

$35 for patient registration certification;

(12) Amending section 329-123(c), HRS, to limit primary caregivers to caring for only one qualifying
patient;

(13) Amending section 329423(d), HRS, to allow law enforcement agencies to immediately verify a
qualifying patient’s registration status twenty-four hours a day, seven days a week;

(14) Deleting part III of this measure, which would have transferred the medical use of marijuana program
from the Department of Public Safety to the Department of Health;

(15) Changing the effective date to January 2, 2015; and

(16) Making technical, nonsubstantive amendments for the purposes of clarity and consistency.
As affirmed by the record of votes of the managers of your Committee
on Conference that is attached to this report, your Committee on
Conference is in accord with the intent and purpose of S.B. No. 642,
H.D. 2, as amended herein, and recommends that it pass Final Reading in
the form attached hereto as S.B. No. 642, H.D. 2, C.D. 1.
Respectfully submitted on behalf of
the managers:
ON THE PART OF THE SENATE

ON THE PART OF THE HOUSE

DELLA AU BELATTI, Co-Chair

JOSH GREEN, Chair

ANGUS L.K. MCKELVEY, Co-Chair

ROSALYN H. BAKER, Co-Chair

CHRIS LEE, Co-Chair

DAVID Y. IGE, Co-Chair

file:///Users/sarasteiner-jackson/Documents/Mike/Exh%20R%20Con...0Report%20174%20re%20SB642%20HD2%20CD1%204-26-2013.webarchive

098

Page 3 of 4

10/27/19, 7:19 PM

CCR174

CLAYTON HEE, Co-Chair

SYLVIA LUKE, Co-Chair

file:///Users/sarasteiner-jackson/Documents/Mike/Exh%20R%20Con...0Report%20174%20re%20SB642%20HD2%20CD1%204-26-2013.webarchive

099

Page 4 of 4

EXECUTIVE CHAMBERS
HONOLULU

NEIL ABERCROMBIE
GOVERNOR

June 25, 2013

GOV. MSG. NO. Yl&\

The Honorable Joseph M. Souki,
Speaker and Members of the
House of Representatives
Twenty-Seventh State Legislature
State Capitol, Room 431
Honolulu, Hawaii 96813

The Honorable Donna Mercado Kim
President
and Members of the Senate
Twenty-Seventh State Legislature
State Capitol, Room 409
Honolulu, Hawaii 96813

Dear President Kim, Speaker Souki, and Members of the Legislature:
This is to inform you that on June 25, 2013, the following bill was signed into law:
SB642 HD2 CD1

RELATING TO HEALTH
ACT 178 (13)

NEIL AKRCROMBIE
Governor, State of Hawaii

100

Approved by the Governor
■HIM 2 5 2013
on _

ACT 178

THE SENATE
TWENTY-SEVENTH LEGISLATURE, 2013
STATE OF HAWAII

SB. NO.

642
H.D. 2
C.D. 1

A BILL FOR AN ACT
RELATING TO HEALTH.

BE IT ENACTED BY THE LEGISLATURE OF THE STATE OF HAWAII:
SECTION 1.

1

The legislature finds that the State's medical

2

marijuana program was enacted into law in 2000 as a public

3

health program conceived out of compassion for the health and

4

welfare of the seriously ill.

5

experience of the program indicates that improvements to the law

6

will help to fulfill its original intent by clarifying

7

provisions and removing serious obstacles to patient access and

8

physician participation.

9

After twelve years, the

The purpose of this Act is to amend the medical use of

10

marijuana law to address the concerns of Hawaii's seriously ill

11

patients.

12

SECTION 2.

13

amended as follows:
1.

14
15

16

Section 329-121, Hawaii Revised Statutes, is

By amending the definition of "adequate supply" to

read:
H M

Adequate supply" means an amount of marijuana jointly

17

possessed between the qualifying patient and the primary

18

caregiver that is not more than is reasonably necessary to
2013-2554 SB642 CD1 SMA.doc

101

Page 2

1

assure the uninterrupted availability of marijuana for the

2

purpose of alleviating the symptoms or effects of a qualifying

3

patient’s debilitating medical condition; provided that an

4

"adequate supply" shall not exceed [three mature] seven

5

marijuana plants [, four immature marijuana planto,- and one

6

ounce], whether immature or mature, and four ounces of usable

7

marijuana [per each mature plant.] at any given time."
By amending the definition of "medical use" to read:

8

2.

9

""Medical use" means the acquisition, possession,

10

cultivation, use, distribution, or transportation of marijuana

11

or paraphernalia relating to the administration of marijuana to

12

alleviate the symptoms or effects of a qualifying patient’s

13

debilitating medical condition.

14

use", the term distribution is limited to the transfer of

15

marijuana and paraphernalia [from the primary caregiver to-the

16

qualifying patient]."

17
18
19

For the purposes of "medical

3.

By amending the definition of "primary caregiver" to

n ii

Primary caregiver" means a person[t] eighteen years of

read:

20

age or older, other than the qualifying patient and the

21,

qualifying patient's physician,

22

[who io eighteen yearo of—age or

who has agreed to undertake responsibility for managing
2013-2554 SB642 CD1 SMA.doc

102

■ t

Page 3

S.B. NO.

642
H.D. 2
C.D. 1

1

the well-being of the qualifying patient with respect to the

2

medical use of marijuana.

3

lacking legal capacity, the primary caregiver shall be a parent,

4

guardian, or person having legal custody. "

5
6
7

In the case of a minor or an adult

4.

By amending the definition of "usable marijuana" to

n ii

Usable marijuana" means the dried leaves and flowers of

read:

8

the plant Cannabis family Moraceae, and any mixture [4] or [3-3

9

preparation thereof, that are appropriate for the medical use of

10

marijuana.

11

stalks, and roots of the plant."

12
13
14

5.

"Usable marijuana" does not include the seeds

By amending the definition of "written certification"

to read:
""Written certification" means the qualifying patient's

15

medical records or a statement signed by a qualifying patient's

16

physician, stating that in the physician's professional opinion,

17

the qualifying patient has a debilitating medical condition and

18

the potential benefits of the medical use of marijuana would

19

likely outweigh the health risks for the qualifying patient.

20

The department of [public safety] health may require, through

21

its rulemaking authority, that all written certifications comply

2013-2554 SB642 CD1 SMA.doc

103

I

(

Page 4

S.B. NO.

1

with a designated form.

2

only one year from the time of signing."
SECTION 3.

3
4

642
H.D. 2
C.D. 1

"Written certifications" are valid for

Section 329-122, Hawaii Revised Statutes, is

amended by amending subsection (a) to read as follows:
"(a)

5

Notwithstanding any law to the contrary, the medical

6

use of marijuana by a qualifying patient shall be permitted only

7

if:

8

(1)

physician as having a debilitating medical condition;

9
10

The qualifying patient has been diagnosed by a

(2)

The qualifying patient's physician has certified in

11

writing that, in the physician’s professional opinion,

12

the potential benefits of the medical use of marijuana

13

would likely outweigh the health risks for the

14

particular qualifying patient; and

15
16
17
18
19

(3)

The amount of marijuana possessed by the qualifying
patient does not exceed an adequate supply."

SECTION 4.

Section 329-123, Hawaii Revised statutes, is

amended to read as follows;
"§329-123

Registration requirements.

(a)

Physicians who

20

issue written certifications shall [register the names,

21

addresses, patient identification numbers?-] provide, in each

22

written certification, the name, address, patient identification
2013-2554 SB642 CD1 SMA.doc

104

;

I

-

642

Page 5

H.D. 2
C.D. 1

1

number, and other identifying information of the [patients

2

iooucd written ccrtifAeationo with-the department of public

3

oafety] qualifying patient.

4

require, in rules adopted pursuant to chapter 91, that all

5

written certifications comply with a designated form completed

6

by or on behalf of a qualifying patient.

7

information from the applicant, primary caregiver, and primary-

8

care physician as specifically required or permitted by this

9

chapter.

The department of health shall

The form shall require

The form shall require the address of the location

10

where the marijuana is grown and shall appear on the registry

11

card issued by the department of health.

12

physician shall be required to be the qualifying patient’s

13

primary care physician.

14

permits shall be honored through their expiration date.

15

(b)

The certifying

All current active medical marijuana

Qualifying patients shall register with the department

16

of [public oafoty.] health.

17

until the expiration of the certificate issued by the department

18

of health and signed by the physician.

19

shall provide sufficient identifying information to establish

20

the personal identities of the qualifying patient and the

21

primary caregiver.

22

information within [five] ten working days.

The registration shall be effective

Every qualifying patient

Qualifying patients shall report changes in

2013-2554 SB642 CD1 SM&.-doc

105

Every qualifying

Page6

S.B. NO.

642
H.D.2
C.D. 1

1

patient shall have only one primary caregiver at any given time.

2

The department of health shall [then] issue to the qualifying

3

patient a registration certificate, and [may] shall charge [a

4

reasonable foo not to exceed] $35 h-] per year.

5

(c)

Primary caregivers shall register with the department

6

of [public safety.] health.

7

responsible for the care of only one qualifying patient at any

8

given time.

9

(d)

Every primary caregiver shall be

Upon [an] inquiry by a law enforcement agency, which

10

inquiry may be made twenty-four hours a day, seven days a week,

11

the department of [public- safety] health shall immediately

12

verify whether the [particular qualifying patient-] subject of

13

the inquiry has registered with the department of health and may

14

provide reasonable access to the registry information for

15

official law enforcement purposes."

16

SECTION 5.

This Act does not affect rights and duties that

17

matured, penalties that were incurred, and proceedings that were

18

begun before its effective date.

19
20
21

SECTION 6.
and stricken.
SECTION 7.

Statutory material to be repealed is bracketed
New statutory material is underscored.
This Act shall take effect on January 2, 2015.

106

S.B. NO.

APPROVED this

25

day of

JUN

GOVERNOR OF THE STATE OF HAWAII

107

,2013

642
H.D. 2
C.D. 1

12/29/2020

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

REPORT TITLE:
Medical Use of Marijuana
DESCRIPTION:
Allows for the acquisition, possession, and use of marijuana for
medical purposes. (SB862 HD1)

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

108

1/19

https://www.capitoI.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

862
S.B. NO.

THE SENATE
TWENTIETH LEGISLATURE, 1999
STATE OF HAWAII

A

BILL

S.D. 2
H.D. 1

FOR AN ACT

RELATING TO MEDICAL USE OF MARIJUANA.
BE IT ENACTED BY THE LEGISLATURE OF THE STATE OF HAWAII:
1

SECTION 1.

The legislature finds that modern medical

2 research has discovered a beneficial use for marijuana in
3 treating or alleviating the pain or other symptoms associated
4 with certain debilitating illnesses.

There is sufficient medical

5 and anecdotal evidence to support the proposition that these
6 diseases and conditions may respond favorably to a medically
7 controlled use of marijuana.
8

The legislature is aware of the legal problems associated

9 with the legal acquisition of marijuana for medical use.
10 However, the legislature believes that medical scientific
11 evidence on the medicinal benefits of marijuana should be
https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

109

2/19

I

I

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

12 recognized.

Although federal law expressly prohibits the use of

13 marijuana, the legislature recognizes that a number of states are
14 taking the initiative in legalizing the use of marijuana for
15 medical purposes.

Voter initiatives permitting the medical use

16 of marijuana have passed in California, Arizona, Oregon,
17 Washington, Alaska, Maine, Nevada, and the District of Columbia.
18

The legislature intends to join in this initiative for the

19 health and welfare of its citizens.

However, the legislature

20 does not intend to legalize marijuana for other than medical

Page 2
S.B. NO.

1 purposes.

862
S.D. 2
H.D. 1

The passage of this Act and the policy underlying it

2 does not in any way diminish the legislature's strong public
3 policy and laws against illegal drug use.
4

Therefore, the purpose of this Act is to ensure that

5 seriously ill people are not penalized by the State for the use
6 of marijuana for strictly medical purposes when the patient's
7 treating physician provides a professional opinion that the
8 benefits of medical use of marijuana would likely outweigh the
9 health risks for the qualifying patient.
10

SECTION 2.

Chapter 329, Hawaii Revised Statutes, is amended

https://www.capitol. hawaii.gov/session2000/acts/ Act228_SB862_HD1_.htm

110

3/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

11 by adding a new part to be appropriately designated and to read
12 as follows:
"PART

13

.

Definitions.

MEDICAL USE OF MARIJUANA

14

§329-A

As used in this part:

15

"Adequate supply" means an amount of marijuana jointly

16 possessed between the qualifying patient and the primary
17 caregiver that is not more than is reasonably necessary to assure
18 the uninterrupted availability of marijuana for the purpose of
19 alleviating the symptoms or effects of a qualifying patient's
20 debilitating medical condition; provided that an "adequate
21 supply" shall not exceed three mature marijuana plants, four
22 immature marijuana plants, and one ounce of usable marijuana per
23 each mature plant.

Page 3
S.B. NO.

1

"Debilitating medical condition" means:

2

(1)

862
S.D. 2
H.D. 1

Cancer, glaucoma, positive status for human

3

immunodeficiency virus, acquired immune deficiency

4

syndrome, or the treatment of these conditions;

5
6

(2)

A chronic or debilitating disease or medical condition
or its treatment that produces one or more of the

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

111

4/19

https ://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

7

following:

8

(A)

Cachexia or wasting syndrome;

9

(B)

Severe pain;

10

(C)

Severe nausea;

11

(D)

Seizures, including those characteristic of
epilepsy; or

12
(E)

13

Severe and persistent muscle spasms, including

14

those characteristic of multiple sclerosis or

15

Crohn's disease;
or

16
17

(3)

Any other medical condition approved by the department

18

of health pursuant to administrative rules in response

19

to a request from a physician or potentially qualifying

20

patient.

21

"Marijuana” shall have the same meaning as "marijuana" and

22 "marijuana concentrate" as provided in sections 329-1 and 71223 1240.

Page 4
S.B. NO.

1

862
S.D. 2
H.D. 1

"Medical use" means the acquisition, possession,

2 cultivation, use, distribution, or transportation of marijuana or
https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

112

5/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

3 paraphernalia relating to the administration of marijuana to
4 alleviate the symptoms or effects of a qualifying patient's
5 debilitating medical condition.

For the purposes of "medical

6 use", the term distribution is limited to the transfer of
7 marijuana and paraphernalia from the primary caregiver to the
8 qualifying patient.
9

"Physician" means a person who is licensed under

10 chapters 453 and 460., and is licensed with authority to prescribe
11 drugs and is registered under section 329-32.

"Physician" does

12 not include physician’s assistant as described in section 45313 5.3.
14

"Primary caregiver" means a person, other than the

15 qualifying patient and the qualifying patient's physician, who is
16 eighteen-years-of-age or older who has agreed to undertake
17 responsibility for managing the well-being of the qualifying
18 patient with respect to the medical use of marijuana.

In the

19 case of a minor or an adult lacking legal capacity, the primary
20 caregiver shall be a parent, guardian, or person having legal
21 custody.
22

"Qualifying patient" means a person who has been diagnosed

23 by a physician as having a debilitating medical condition.

862

Page 5
S.B. NO.
https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

113

S.D. 2
6/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

H.D. 1

1

"Usable marijuana" means the dried leaves and flowers of the

2 plant Cannabis family Moraceae, and any mixture of preparation
3 thereof, that are appropriate for the medical use of marijuana.
4 "Usable marijuana" does not include the seeds, stalks, and roots
5 of the plant.
6

"Written certification" means the qualifying patient's

7 medical records or a statement signed by a qualifying patient's
8 physician, stating that in the physician's professional opinion,
9 the qualifying patient has a debilitating medical condition and
10 the potential benefits of the medical use of marijuana would
11 likely outweigh the health risks for the qualifying patient.

The

12 department of public safety may require, through its rulemaking
13 authority, that all written certifications comply with a
14 designated form.

"Written certifications" are valid for only one

15 year from the time of signing.
16

§329-B

Medical use of marijuana; conditions of use.(a)

17 Notwithstanding any law to the contrary, the medical use of
18 marijuana by a qualifying patient shall be permitted only if:
19

(1)

physician as having a debilitating medical condition;

20
21

The qualifying patient has been diagnosed by a

(2)

The qualifying patient's physician has certified in

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

114

7/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

22

writing that, in the physician's professional opinion,

23

the potential benefits of the medical use of marijuana

Page 6
S.B. NO.

862
S.D. 2
H.D. 1

1

would likely outweigh the health risks for the

2

particular qualifying patient; and

3

(3)

4
5

The amount of marijuana does not exceed an adequate
supply.

(b)

Subsection (a) shall not apply to a qualifying patient

6 under the age of eighteen years, unless:
7

(1)

The qualifying patient’s physician has explained the

8

potential risks and benefits of the medical use of

9

marijuana to the qualifying patient and to a parent,

10

guardian, or person having legal custody of the

11

qualifying patient; and

12

(2)

A parent, guardian, or person having legal custody

13

consents in writing to:

14

(A)

marijuana;

15
16
17

Allow the qualifying patient's the medical use of

(B)

Serve as the qualifying patient's primary
caregiver; and

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

115

8/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

(C)

18

Control the acquisition of the marijuana, the

19

dosage, and the frequency of the medical use of

20

marijuana by the qualifying patient.

21

(c)

The authorization for the medical use of marijuana in

22 this section shall not apply to:

Page 7
S.B. NO.

1 \

(1)

The medical use of marijuana that endangers the health
or well-being of another person;

2
3

862
S.D. 2
H.D. 1

(2)

The medical use of marijuana:
(A)

4

In a school bus, public bus, or any moving
vehicle;

5
6

(B)

In the workplace of one's employment;

7

(C)

On any school grounds;

8

(D)

At any public park, public beach, public
recreation center, recreation or youth center; or

9
10

(E)

11

and

12
13

(3)

Other place open to the public;

The use of marijuana by a qualifying patient, parent,
or primary caregiver for purposes other than medical

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

116

9/19

I

I

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

use permitted by this chapter.

14
15

§329-C

Registration requirements.(a) Physicians who issue

16 written certification shall register the names, addresses,
17 patient identification numbers, and other identifying information
18 of the patients issued written certifications with the department
19 of public safety.
20

(b)

Qualifying patients shall register with the department

21 of public safety.

Such registration shall be effective until the

22 expiration of the certificate issued by the physician.

Every

23 qualifying patient shall provide sufficient identifying

Page 8
S.B. NO.

862
S.D. 2
H.D. 1

1 information to establish personal identity of the qualifying
2 patient and the primary caregiver.

Qualifying patients shall

3 report changes in information within five working days.

Every

4 qualifying patient shall have only one primary caregiver at any
5 given time.

The department shall then issue to the qualifying

6 patient a registration certificate, and may charge a reasonable
7 fee not to exceed $25.
8

(c)

Primary caregivers shall register with the department

9 of public safety.

Every primary caregiver shall be responsible

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

117

10/19

I

I

https ://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

10 for the care of only one qualifying patient at any given time.
11

(d)

Upon an inquiry by a law enforcement agency, the

12 department of public safety shall verify whether the particular
13 qualifying patient has registered with the department and may
14 provide reasonable access to the registry information for
15 official law enforcement purposes.
16

§329-D

Insurance not applicable.

This part shall not be

17 construed to require insurance coverage for the medical use of
18 marijuana.
19

§329-E

Protections afforded to a qualifying patient or

20 primary caregiver, (a)

A qualifying patient or the primary

21 caregiver may assert the medical use of marijuana as an
22 affirmative

defense to any prosecution involving marijuana under

23 this chapter or chapter 712; provided that the qualifying patient

Page 9
S.B. NO.

862
S.D. 2
H.D. 1

1 or the primary caregiver strictly complied with the requirements
2 of this part.
3

(b)

Any qualifying patient or primary caregiver not

4 complying with the permitted scope of the medical use of
5 marijuana shall not be afforded the protections against searches

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

118

11/19

I

i

https ://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

6 and seizures pertaining to the misapplication of the medical use
7 of marijuana.
8

(c)

No person shall be subject to arrest or prosecution for

9 simply being in the presence or vicinity of the medical use of
10 marijuana as permitted under this part.
11

§329-F

Protections afforded to a treating physician.

No

12 physician shall be subject to arrest or prosecution, penalized in
13 any manner, or denied any right or privilege for providing
14 written certification for the medical use of marijuana for a
15 qualifying patient; provided that:
16

(1)

The physician has diagnosed the patient as having a

17

debilitating medical condition, as defined in section

18

329-A;

19

(2)

The physician has explained the potential risks and

20

benefits of the medical use of marijuana, as required

21

under section 329-B;

22
23

(3)

The written certification is based upon the physician's
professional opinion after having completed a full

Page 10
S.B. NO.

1

862
S.D. 2
H.D. 1

assessment of the patient's medical history and current

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

119

12/19

r

<

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

2

medical condition made in the course of a bona fide

3

physician-patient relationship; and

4

(4)

requirements of section 329-C.

5
6

The physician has complied with the registration

§329-G

Protection of marijuana and other seized property.

7 Marijuana, paraphernalia, or other property seized from a
8 qualifying patient or primary caregiver in connection with a
9 claimed medical use of marijuana under this part shall be
10 returned immediately upon the determination by a court that the
11 qualifying patient or primary caregiver is entitled to the
12 protections of this part, as evidenced by a decision not to
13 prosecute, dismissal of charges, or an acquittal; provided that
14 law enforcement agencies seizing live plants as evidence shall
15 not be responsible for the care and maintenance of such plants.
16

§329-H

Fraudulent misrepresentation; penalty.(a)

17 Notwithstanding any law to the contrary, fraudulent
18 misrepresentation to a law enforcement official of any fact or
19 circumstance relating to the medical use of marijuana to avoid
20 arrest or prosecution under this part or chapter 712 shall be a
21 petty misdemeanor and subject to a fine of $500.
22

(b)

Notwithstanding any law to the contrary, fraudulent

23 misrepresentation to a law enforcement official of any fact or

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

120

13/19

I

,

(

I

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

Page 11
S.B. NO.

862
S.D. 2
H.D. 1

1 circumstance relating to the issuance of a written certificate by
2 a physician not covered under section 329-F for the medical use
3 of marijuana shall be a misdemeanor.

This penalty shall be in

4 addition to any other penalties that may apply for the non5 medical use of marijuana.

Nothing in this section is intended to

6 preclude the conviction of any person under section 710-1060 or
7 for any other offense under part V of chapter 710.
8

SECTION 3.

Section 453-8, Hawaii Revised Statutes, is

9 amended by amending subsection (a) to read as follows:
10

"(a)

In addition to any other actions authorized by law,

11 any license to practice medicine and surgery may be revoked,
12 limited, or suspended by the board at any time in a proceeding
13 before the board, or may be denied, for any cause authorized by
14 law, including but not limited to the following:
15

(1)

criminal abortion;

16
17

(2)

20

Employing any person to solicit patients for one's
self;

18
19

Procuring, or aiding or abetting in procuring, a

(3)

Engaging in false, fraudulent, or deceptive
advertising, including[,] but not limited to:

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

121

14/19

/

{

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

21

(A)

Making excessive claims of expertise in one or
more medical specialty fields;

22

Page 12
S.B. NO.

1

(B)

862
S.D. 2
H.D. 1

Assuring a permanent cure for an incurable
disease; or

2
3

(C)

Making any untruthful and improbable statement in

4

advertising one's medical or surgical practice or

5

business;

6

(4)

Being habituated to the excessive use of drugs or

7

alcohol; or being addicted to, dependent on, or a

8

habitual user of a narcotic, barbiturate, amphetamine,

9

hallucinogen, or other drug having similar effects;

10

(5)

Practicing medicine while the ability to practice is

11

impaired by alcohol, drugs, physical disability, or

12

mental instability;

13

(6)

Procuring a license through fraud, misrepresentation,

14

or deceit,, or knowingly permitting an unlicensed person

15

to perform activities requiring a license;

16

(7)

Professional misconduct, hazardous negligence causing

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

122

15/19

https ://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

17

bodily injury to another, or manifest incapacity in the

18

practice of medicine or surgery;

19

(8)

Incompetence or multiple instances of negligence,

20

including[,] but not limited to[,] the consistent use

21

of medical service which is inappropriate or

22

unnecessary;

Page IB
S.B. NO.

1

(9)

862
S.D. 2
H.D. 1

Conduct or practice contrary to recognized standards of

2

ethics of the medical profession as adopted by the

3

Hawaii Medical Association or the American Medical

4

Association;

5

(10)

limited or temporary license is issued;

6
7

Violation of the conditions or limitations upon which a

(11)

Revocation, suspension, or other disciplinary action by

8

another state or federal agency of a license,

9

certificate, or medical privilege for reasons as
provided in this section;

10
11
12

(12)

Conviction, whether by nolo contendere or otherwise, of
a penal offense substantially related to the

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

123

16/19

<

tl

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

13

qualifications, functions, or duties of a physician,

14

notwithstanding any statutory provision to the

15

contrary;

16

(13)

Violation of chapter 329, the uniform controlled

17

substances act, or any rule adopted thereunder[;]

18

except as provided in section 329-B;

19

(14)

Failure to report to the board, in writing, any

20

disciplinary decision issued against the licensee or

21

the applicant in another jurisdiction within thirty

22

days after the disciplinary decision is issued; or

862
S.D. 2
H.D. 1

Page 14
S.B. NO.

1

(15)

Submitting to or filing with the board any notice,

2

statement, or other document required under this

3

chapter, which is false or untrue or contains any

4

material misstatement or omission of fact."

5

SECTION 4.

Section 712-1240.1, Hawaii Revised Statutes, is

6 amended to read as follows:
7

"§712-1240.1 Defense to promoting.

.(1). It is a defense to

8 prosecution for any offense defined in this part that the person
https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

124

17/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

9 who possessed or distributed the dangerous, harmful, or
10 detrimental drug did so under authority of law as a practitioner,
11 as an ultimate user of the drug pursuant to a lawful
12 prescription, or as a person otherwise authorized by law.
13

(2^

It is an affirmative defense to prosecution for any

14 marijuana-related offense defined in this part that the person
15 who possessed or distributed the marijuana was authorized to
16 possess or distribute the marijuana for medical purposes pursuant
17 to part
18

of chapter 329."

SECTION 5.

This Act shall not affect rights and duties that

19 matured, penalties that were incurred, and proceedings that were
20 begun, before its effective date.
21

SECTION 6.

If any provision of this Act, or the application

22 thereof to any person or circumstance is held invalid, the
23 invalidity does not affect other provisions or applications of

Page 15
S.B. NO.

862
S.D. 2
H.D. 1

1 the Act which can be given effect without the invalid provision
2 or application, and to this end the provisions of this Act are
3 severable.
4

SECTION 7.

In codifying the new sections added by section

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

125

18/19

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

12/29/2020

5 2, and referred to in sections 3 and 4 of this Act, the revisor
6 of statutes shall substitute the appropriate section numbers for
7 the letters used in designating the new sections of this Act.
8

SECTION 8.

Statutory material to be repealed is bracketed.

9 New statutory material is underscored.
10

SECTION 9.

This Act shall take effect upon its approval.

https://www.capitol.hawaii.gov/session2000/acts/Act228_SB862_HD1_.htm

126

19/19

I

i

m

Department of Justice/Drug Enforcement Administration

(

/•■

Drug Fact Sheet

Marijuana/Cannabis
WHAT IS MARIJUANA?

What is its effect on the mind?

Marijuana is a mind-altering (psychoactive)
drug, produced by the Cannabis sativa plant.
Marijuana has over 480 constituents. THC (delta9-tetrahydrocannabinol) is believed to be the main
ingredient that produces the psychoactive effect.

When marijuana is smoked, the active ingredient
THC passes from the lungs and into the
bloodstream, which carries the chemical to the
organs throughout the body, including the brain.
In the brain, THC connects to specific sites
called cannabinoid receptors on nerve cells and
influences the activity of those cells.
Many of these receptors are found in the parts
of the brain that influence:
• Pleasure, memory, thought, concentration, sensory and
time perception, and coordinated movement

WHAT IS ITS ORIGIN?
Marijuana is grown in the United States, Canada,
Mexico, South America, Caribbean, and Asia.
It can be cultivated in both outdoor and indoor
settings.

What are common street names?
Common street names include:
• Aunt Mary, BC Bud, Blunts, Boom, Chronic, Dope,
Gangster, Ganja, Grass, Hash, Herb, Hydro, Indo, Joint,
Kif, Mary Jane, Mota, Pot, Reefer, Sinsemilla, Skunk,
Smoke, Weed, and Yerba

What does it look like?
Marijuana is a dry, shredded green/brown mix
of flowers, stems, seeds, and leaves from the
Cannabis sativa plant. The mixture typically is
green, brown, or gray in color and may resemble
tobacco.

How is it abused?
Marijuana is usually smoked as a cigarette (called
a joint) or in a pipe or bong. It is also smoked in
blunts, which are cigars that have been emptied
of tobacco and refilled with marijuana, sometimes
in combination with another drug. Marijuana is
also mixed with foods or brewed as a tea.

The short-term effects of marijuana include:
• Problems with memory and learning, distorted
perception, difficulty in thinking and problem-solving,
and loss of coordination
The effect of marijuana on perception and
coordination are responsible for serious
impairments in learning, associative processes,
and psychomotor behavior (driving abilities).
Long term, regular use can lead to physical
dependence and withdrawal following
discontinuation, as well as psychological addiction
or dependence.
Clinical studies show that the physiological,
psychological, and behavioral effects of
marijuana vary among individuals and present
a list of common responses to cannabinoids, as
described in the scientific literature:
• Dizziness, nausea, tachycardia, facial flushing, dry
mouth, and tremor initially
• Merriment, happiness, and even exhilaration at high
doses

127

i

• I

Marijuana Leaves

What is its effect on the body?

• Disinhibition, relaxation, increased sociability, and
talkativeness
• Enhanced sensory perception, giving rise to increased
appreciation of music, art, and touch
• Heightened imagination leading to a subjective sense of
•
•
•

•

Short-term physical effects from marijuana use
may include:
• Sedation, bloodshot eyes, increased heart rate,
coughing from lung irritation, increased appetite, and
increased blood pressure (although prolonged use may
cause a decrease in blood pressure).

increased creativity
Time distortions
illusions, delusions, and hallucinations are rare except
at high doses
Impaired judgment, reduced coordination, and ataxia,
which can impede driving ability or lead to an increase in
risk-taking behavior
Emotional lability, incongruity of affect, dysphoria,
disorganized thinking, inability to converse logically,
agitation, paranoia, confusion, restlessness, anxiety,
drowsiness, and panic attacks may occur, especially in
inexperienced users or in those who have taken a large

Marijuana smokers experience serious health
problems such as bronchitis, emphysema, and
bronchial asthma. Extended use may cause
suppression of the immune system. Withdrawal
from chronic use of high doses of marijuana
causes physical signs including headache,
shakiness, sweating, and stomach pains and
nausea.
Withdrawal symptoms also include behavioral
signs such as:
• Restlessness, irritability, sleep difficulties, and

dose
• Increased appetite and short-term memory impairment

decreased appetite

are common

128

r 1

What are its overdose effects?
No deaths from overdose of marijuana have been
reported.

Which drugs cause similar effects?
Hashish and hashish oil are drugs made from
the cannabis plant that are like marijuana, only
stronger.
Hashish (hash) consists of the THC-rich
resinous material of the cannabis plant, which
is collected, dried, and then compressed into a
variety of forms, such as bails, cakes, or cookie
like sheets. Pieces are then broken off, placed in
pipes or mixed with tobacco and placed in pipes
or cigarettes, and smoked.
The main sources of hashish are the Middle
East, North Africa, Pakistan, and Afghanistan.
Hashish oil (hash oil, liquid hash, cannabis
oil) is produced by extracting the cannabinoids
from the plant material with a solvent. The color
and odor of the extract will vary, depending on
the solvent used. A drop or two of this liquid on
a cigarette is equal to a single marijuana joint.
Like marijuana, hashish and hashish oil are both
Schedule I,drugs.

What is its legal status in the United States?
Marijuana is a Schedule I substance under the
Controlled Substances Act, meaning that it has
a high potential for abuse, no currently accepted
medical use in treatment in the United States, and
a lack of accepted safety for use under medical
supervision.
Although some states within the United
States have allowed the use of marijuana for

www.getsmartaboutdrugs.com

medicinal purpose, it is the U.S. Food and Drug
Administration that has the federal authority to
approve drugs for medicinal use in the U.S. To
date, the FDA has not approved a marketing
application for any marijuana product for any
clinical indication. Consistent therewith, the FDA
and DEA have concluded that marijuana has no
federally approved medical use for treatment
in the U.S. and thus it remains as a Schedule I
controlled substance under federal law.
Marino! is a synthetic version of THC in
a capsule (also referred to as dronabinol,
the generic or International Nonproprietary
Name given to THC), prescribed for the
control of nausea and vomiting caused by
chemotherapeutic agents used in the treatment
of cancer and to stimulate appetite in acquired
immune deficiency syndrome (AIDS) patients.
Marinol is a Schedule 111 drug under the
Controlled Substances Act.
Syndros is an oral dronabinol (THC) solution
that is used for the treatment of anorexia
associated with weight loss in patients who have
failed to respond adequately to conventional
antiemetic treatments. Syndros is a Schedule II
drug under the Controlled Substances Act.
Epidoloex is an oral solution of cannabidiol
(CBd) that has no more that 0.1% THC, used to
treat two epilepsy conditions, Dravet syndrome
and Lennox-Gestaut syndrome. Epidoloex
is a Schedule V drug under the Controlled
Substances Act.

129

April 2020

Testimony of John W. Elias
U.S. House Committee on the Judiciary
June 24, 2020
Chairman Nadler, Ranking Member Jordan, and Members of the Committee, thank you
for the opportunity to testify today.
I am a career employee at the Department of Justice. Based on what I have seen, and
what my colleagues saw and described to me, I was concerned enough to report certain antitrust
investigations launched under Attorney General Barr to the Department of Justice Inspector
General. I asked him to investigate whether these matters constituted an abuse of authority, a
gross waste of funds, and gross mismanagement. I am appearing here today under subpoena to
describe these matters to the Committee. Although I am a current DOJ attorney, my testimony is
personal and does not represent the views of the Department.
Introduction
I joined the Department in 2006, and over the past 14 years I have served under six
Attorneys General and three Presidents. I held leadership positions both in the Trump
Administration, where I acted as Chief of Staff in the Antitrust Division from January 2017 to
October 2018, and in the Obama Administration, where I served as a Deputy Associate Attorney
General and Chief of Staff in the Office of the Associate Attorney General. Currently, as an
Antitrust Division prosecutor, my casework includes prosecuting price-fixing conspiracies in the
pharmaceutical industry.
Today, I will describe two forms of investigations undertaken over the objections of the
career staff. First, at the direction of Attorney General Barr, the Antitrust Division launched ten
full-scale reviews of merger activity taking place in the marijuana, or cannabis, industry. These
mergers involve companies with low market shares in a fragmented industry; they do not meet
established criteria for antitrust investigations. Second, I will detail an investigation - initiated
the day after tweets by President Trump - of an arrangement between the State of California and
four automakers on fuel emissions.
I have undertaken whistleblower activity, and am here today, because I recognize the
imperative for law enforcers to operate even-handedly and in good faith. During my career at
DOJ, I have been taught to do the right thing, for the right reasons, in the right way.

1

130

Cannabis Merger Investigations
Since March 2019, the Antitrust Division has conducted ten investigations of mergers in
the cannabis industry. While these were nominally antitrust investigations, and used antitrust
investigative authorities, they were not bona fide antitrust investigations. Nonetheless, they
accounted for 29 percent of the Antitrust Division’s full-review merger investigations in Fiscal
Year 2019.
Regardless of whether these companies are complying with the Controlled Substances
Act, the investigations I will describe are not investigations of potential violations of federal drug
law. An appropriations rider restricts the Justice Department from prosecuting medical
marijuana usage in states that have legalized it.
The Standard Merger Review Process
The mission of the Justice Department’s Antitrust Division is to protect competitive
marketplaces across our entire economy. The Division reviews for potential harm to competition
every large-dollar merger taking place in the United States. The Division enforces the Clayton
Act, which bars mergers that may substantially lessen competition or tend to create a monopoly.
After companies report their proposed mergers,1 staff undertakes an individualized
examination to identify those most likely to violate the antitrust laws. Staff assesses whether to
perform no investigation, a brief investigation, or a full investigation. The Antitrust Division’s
Manual identifies as the first factor for staff to consider in determining whether to open an
investigation “whether there is reason to believe that an antitrust violation may have been
committed.” Our Horizontal Merger Guidelines treat market shares as a key indicator of whether
to give routine clearance or to perform the full and most searching examination of the merger by
issuing what is called a “Second Request” subpoena. It usually takes high market shares typically double-digit market shares - to trigger the extended review process. “Unconcentrated
markets” require the least review.
Across the entire American economy, the Antitrust Division performs the full Second
Request investigation on around 1 -2% of the thousands of mergers filed each year - ordinarily,
only the most concerning deals. The Division conducted 19 Second Request investigations in
Fiscal Year 2018 and 31 in Fiscal Year 2019 from over 2000 transactions filed in each of those
years.

1 Under the Hart-Scott-Rodino Antitrust Improvements Act (HSR), mergers are reported to both the
Antitrust Division and the Federal Trade Commission, which shares the Division’s mandate to enforce the
antitrust laws and which engages in similar merger reviews. The criteria for when a merger must be
reported under HSR are described on the FTC website.
2

131

These figures illustrate the number of Second Request reviews as a share of total pre­
merger notifications:
Fi*cal Veai 2055 BjRS’eciiMi

Second Request investigations are infrequent because they require companies to respond
to burdensome administrative subpoenas - often 15 pages or longer - and produce hundreds of
thousands or millions of documents. Pursuant to the Antitrust Division’s Manual, “Since a
second request may have substantial consequences for the parties to the transaction, staff should
carefully assess both the need for and the scope of the request; if a second request is necessary,
staff should tailor it to the transaction and its possible anticompetitive consequences.” Merging
companies have essentially no recourse to challenge a Second Request subpoena, and they
cannot complete their proposed mergers until they have complied. Second Request
investigations also consume DOJ staff resources.
The First Cannabis Investigation: The Merger of MedMen and PharmaCann
Last year, the Antitrust Division reviewed the proposed combination of MedMen and
PharmaCann, two companies that supply cannabis. When career staff examined the transaction,
they determined that the cannabis industry appeared to be fragmented with many market
participants in the states that had legalized the product. As a result, they viewed the transaction
as unlikely to raise any significant competitive concerns.
However, on March 5, 2019, Attorney General Barr called the Antitrust Division
leadership to his office ,for a meeting entitled “Marijuana Industry Merger Review.” As a
Microsoft Outlook delegate of one of the attendees, I was copied on the calendar appointment
but did not attend the meeting. The Antitrust Division political leadership asked staff to prepare
a short briefing memo for Attorney General Barr before the meeting. In that memo, staff
emphasized in underlined text that in its preliminary view, the transaction was unlikely to raise
any significant competitive concerns that would justify issuance of Second Requests.
Rejecting the analysis of career staff, Attorney General Barr ordered the Antitrust
Division to issue Second Request subpoenas. The rationale for doing so centered not on an
antitrust analysis, but because he did not like the nature of their underlying business.

3

132

After the meeting, Division political leadership turned to the career staff to implement
Attorney General Barr’s directive. In assembling the paperwork to issue the Second Request,
which is normally styled as the career staffs “recommendation,” career staff declined to
recommend either opening an investigation or issuing the Second Request subpoenas. Instead,
the staff reiterated its view that the transaction was “unlikely to raise any significant competitive
concerns” and that the industry appeared to be fragmented, with many participants. The staff
went on to say that, nonetheless, “[t]he Division has decided to open an investigation and issue
Second Requests,” for the purported reason that it had “not closely evaluated this industry
before.” This rationale - standing alone, without reference to a competition problem - is not
described in the Merger Guidelines as a basis for investigating a transaction.
The Division’s Front Office negotiated subpoena compliance with the companies,
obtaining 1.3 million documents from the files of 40 employees. The investigation confirmed
that the markets at issue were “unconcentrated” and closed in September 2019 without any
enforcement action. The merger collapsed nonetheless, with MedMen citing unexpected delays
in obtaining regulatory approval. During the course of the Division’s investigation, MedMen’s
stock price declined by about one-third.
Nine More Cannabis Investigations and 29% of All Second Requests
The Division went on to conduct similar antitrust investigations of nine other mergers in
the cannabis industry.2 Staff continued to document at the outset of the investigations that the
transaction appeared unlikely to raise significant competitive concerns but that the Division
(meaning the political leadership) nonetheless had decided to proceed, purportedly because it had
not closely evaluated this industry before. This remained the rationale through the tenth
investigation.
However, in order to draw less attention to the investigations, the career staff was not
permitted to take customary fact-finding steps. For example, staff was instructed not to conduct
interviews of customers or competitors - a necessary step in any bona fide antitrust investigation
both to assess marketplace conditions and to identify potential witnesses in any enforcement
action.3
In many of these investigations, staff calculated market shares far smaller than the
double-digit shares that ordinarily trigger a full antitrust review. Instead, it calculated, for
example, a combined post-merger market share of 0.35 percent.

2 In total, nine of the Division’s ten cannabis investigations were conducted via Hart-Scott-Rodino
Second Request authority. The tenth used only Civil Investigative Demand authority.
3 Recognizing the need for information from third-parties, the Division Manual instructs that “when
preliminary investigation authority is obtained, staff should outline its provisional theory of
anticompetitive harm and should begin contacting customers, trade associations, competitors, and other
relevant parties to determine whether there are likely competitive concerns in any relevant markets.”
4

133

In two instances, staff determined at the outset that the merging companies operated in
different geographies and did not compete at all. In one of these, the parties reevaluated their
transaction after the Second Requests subpoenas had issued and determined that their deal’s
value fell below the HSR threshold. In other words, they were able to close their deal withbut
complying with the Second Request subpoena. In closing the investigation, staff noted that they
evaluated whether to proceed with the investigation anyway, using the more customary civil
investigative demand (CID) subpoena power, “but recommendfed] against that action because of
the likelihood that the parties would successfully challenge the CIDs on the basis that there is no
current or future geographic overlap, and thus no threat to actual or potential competition.”
In several instances, staff sought to make the investigation less burdensome on the parties
by narrowing the subpoenas. Political leadership refused such requests, resulting in the
document productions described below.4
DOJ Investigation Control Number

Documents Produced (Approximate)

60-453998-0003

1,300,000

60-453998-0004

900,000

60-453998-0009

959,000

60-453998-0010

759,000

60-453998-0011

1,100,000

60-453998-0012

947,000

Few of these documents were viewed by Division staff. In one case, Division records
show that the investigation closing process began before the documents had been uploaded and
made available for viewing by Division staff.
Across all sectors of the American economy, the cannabis industry accounted for a full
29 percent of the Division’s Second Request investigations in Fiscal Year 2019:
T* jr 2013 CarnabU jndjssry SeiorxJ Requivls,

J-

' i','.

' S.Cannafe-

4 This table displays six of the ten investigations. The remaining four investigations either did not yield
documents due to HSR withdrawal or I do not have the data.
5

134

At one point, cannabis investigations accounted for five of the eight active merger
investigations in the office that is responsible for the transportation, energy, and agriculture
sectors of the American economy. The investigations were so numerous that staff from other
offices were pulled in to assist, including from the telecommunications, technology, and media
offices.
The head of the Antitrust Division, Assistant Attorney General Delrahim, responded to
internal concerns about these investigations at an all-staff meeting on September 17, 2019.
There, he acknowledged that the investigations were motivated by the fact that the cannabis
industry is unpopular “on the fifth floor,” a reference to Attorney General Barr’s offices in the
DOJ headquarters building. Personal dislike of the industry is not a proper basis upon which to
ground an antitrust investigation.
Automobile Emissions Standards Investigation
In July 2019, California, together with four major automakers, announced an arrangement
on air quality emissions standards that would be stricter than the rules the EPA was preparing to
adopt. Under well-established antitrust precedent, states have wide latitude to regulate. In
addition, under a doctrine called Noerr-Pennington, which is grounded in the First Amendment,
companies are free to collectively lobby the government for regulation.
On August 20, 2019, the New York Times reported that President Trump was “enraged”
by the deal and wanted to retaliate. The next day, August 21, the President tweeted about it. As
reprinted below, he said, “Henry Ford would be very disappointed ... because [Ford] execs don’t
want to fight California regulators.”

Bcwtafcl Trump# #realDonaldlmmp * Aug 2t 2019
« —Henry ford would be very disappointed if he saw bis modern-day
descendants wanting to .build.a much more expensive can .that h far less safe
I
and doesn't work as welt because execs don't want to fight California
;
regulators. Car companies should know*..,
I

Q U4K

O 16K

O S3K

UJ

i

Donald h Trump# #real0onaldlrump - Aug H, 2019
,„that when this Administration's alternative is m longer available California
will squeeze them to a point of business ruin, Only reason California h now
talking to them Is because the Feds are giving a far better alternative, which
is much better for consumers!
Q 6J1C

o «

O

6

135

t

Y.-S

The day after the tweets, Antitrust Division political leadership instructed staff to initiate
an investigation that day. Accordingly, the investigation opening memorandum is dated August
22, and the August 22 opening date is reflected in internal tracking records.
The investigation’s initiating paperwork, like the cannabis opening memorandums, does
not include a staff “recommendation” but instead states that “[t]he Antitrust Division would like
to open an investigation.” It was generated by the Division’s policy staff, which does not
conduct enforcement investigations of this type.5 Later, in an all-staff email of September 11,
AAG Delrahim explained that he had had the policy staff convert an earlier analytical piece into
an investigation opening memorandum “due to our current resource constraints.”
Ordinarily, decisions of import - here, an investigation of a $630 billion automobile
market - take time and care to evaluate, especially when the action would face defenses. Here,
in its opening memorandum, staff acknowledged that it had not fully examined the public record.
For example, it made some assessment of the strength of a potential “state action” defense
(immunity conferred by the active involvement of California) but left for a future step to research
more about California law to determine whether state law authorized the agreement. Although
consulting with state officials is a permissible pre-investigation step, and the Division could have
contacted California to obtain information, it had not done so.
Once opened, the matter was transferred from the policy staff to an enforcement section.
Upon receiving the matter, the enforcement staff expressed concerns about the legal and factual
basis for the investigation. The enforcement staff asked for time to perform their own analysis
and requested a delay in going overt with the investigation. The investigation proceeded
anyway, with AAG Delrahim personally writing the automakers to inform them that the Division
had decided to examine the arrangement with California.
When news of the investigation became public and spread within the Antitrust Division,
many of my colleagues, who are familiar with the “state action” defense as well as the NoerrPennington doctrine, questioned why the Division was investigating conduct that appeared to be
prompted by a state regulator. In response to criticism of the investigation, on September 11,
AAG Delrahim circulated an all-Division email in which he stated that he “strongly believe[s]
that the Division has a basis to investigate and that the standards for opening a preliminary
investigation were more than satisfied based on the available facts.” AAG Delrahim
simultaneously announced an all-staff town hall meeting for September 17. There, he stated that
staff was not rushed into initiating the investigation. That representation conflicted with the
recollection of a staff member who had assisted with the opening memorandum.

5 In addition, the investigation concerned a commodity (automobile manufacturing) that would normally
be handled by the Federal Trade Commission rather than the Antitrust Division. The FTC is an
independent agency, and its Commissioners cannot be removed by the President over mere political
differences. Here, because the FTC did not clear the matter to DOJ until August 27, the Division did not
conduct investigative steps before that date.
7

136

In October, the four automakers indicated that each company had independently entered
into an agreement with California; there was no group agreement. The Division issued a
subpoena to each automaker and on November 8 obtained a sworn affirmation of the earlier oral
statements. The potential antitrust violation under investigation was premised on a group
(competitor-to-competitor) agreement. With that undercut, the Division no longer needed to
reach questions of state action immunity. At that point, a colleague with a key role in the
investigation expressed optimism to me that the investigation would close by Thanksgiving.
Instead, the political leadership instructed staff to examine an announcement by
California that it would purchase state vehicles only from automakers that comply with the
stricter fuel efficiency standards. When operating as a market participant, states have wide
latitude to determine their own purchases. Moreover, California’s annual purchase of fewer than
2,700 vehicles in a state of nearly 40 million people did not confer it with the market power that
could lead to antitrust liability. Accordingly, in February of this year, the Division notified the
automakers that its investigation was closed.

* * *

Members of the Committee, thank you again, and I will be happy to answer your
questions.

8

137

Oct 6, 2020, 04:03prn EOT | 23.328 views

More People Were Arrested For
Cannabis Last Year Than For All Violent
Crimes Put Together, According To FBI
Data
Emily Earlenbaugh Contributor 0
vices

/ cover cannabis'intersection with science, culture, and wellness.

Last year police in the U.S. arrested 545,602 people for cannabis related crimes,

cerrv

Cannabis has been gaining lots of public support over the last decade. The federally illegal
plant has been made legal for some type of medical or recreational use in the majority of
U.S. states. Currently 33 states allow for at least some type of medical cannabis use and 11
allow for adult recreational use. The stigma around the drug has also lessened, with two
thirds of Americans now supporting national legalization. Cannabis was even deemed
essential in many states during the Covid-19 pandemic.
Still, despite the public support and medical use of the drug, cannabis remains federally
illegal and arresting people who use still seems to be a big priority for crime enforcement.
According to the recently released Uniform Crime Report from the FBI, more people were
arrested for cannabis in 2019 than for all violent crimes put together.
The data from the FBI’s report revealed that police arrested 545,602 people for cannabis
related crimes in 2019. That arrest rate is 9% higher than the 495,871 people arrested for
violent crimes the same year. And those being arrested for cannabis aren’t just those
making money from selling, growing or manufacturing the drug - they are mostly just
people who use cannabis. The vast majority of these arrests (92%) were for simple

138

possession of the drug. 500,395 of those arrested for cannabis were simply found in :
possession of cannabis. Even if we take out all the arrests for being involved in
unregulated cannabis commerce and just focus on arrests for cannabis possession, the
numbers still outpace arrests for violent crimes.

Cameron County sheriff's officer puts handcuffs on a suspected Illegal Immigrant caught with ... [+]

cor bis via getty

images

This highlights the inequitable situation between states, where cannabis consumers in
one state may face serious jail time for an act that has no penalties at all in the state next
door. It also makes some question whether law enforcement resources could be better
allocated to fighting more serious crimes • instead of focusing on busting people for using
a common recreational and medicinal plant.
MORE FOR YOU

With 40,000 Americans Incarcerated For Marijuana Offenses, The Cannabis Industry
Needs To Step Up, Activists Said This Week
Cannabis Legalization Is Key To Economic Recovery, Much Like Ending Alcohol
Prohibition Helped Us Out Of The Great Depression
The Most Valuable Esports Companies 2020
“Police across America make a marijuana-related arrest every 58 seconds,” explains Erik
Altieri, the Executive Director for cannabis advocacy group NORML. “At a time when the
overwhelming majority of Americans want cannabis to be legal and regulated, it is an
outrage that many police departments across the country continue to waste tax dollars
and limited law enforcement resources on arresting otherwise law-abiding citizens for
simple marijuana possession.”
Still, arrests for cannabis actually went down by 18% overall last year, when compared to
2018. This could be partly due to legal changes in Texas, which resulted in far fewer
cannabis arrests there than in 2018. House Bill 1325 legalized hemp production in the
state last year, which shifted the definition of cannabis to exclude hemp. Hemp and
cannabis are actually the same type of plant, but it is l^ally considered to be hemp when

it contains less than 0.3% THC (the main psychoactive compound in the plant). When it
exceeds that THC limit, it is considered to be cannabis. This change apparently made it
more difficult for police to make arrests without testing the seized plant material to
determine if it was hemp or cannabis. This drastically cut down on Texas’ number of
arrests for cannabis in 2019, with over 50,000 fewer arrests.

Despite legalization efforts, arrests for cannabis reached an all time peak a decade ago,
with close to 800,000 cannabis possession arrests. And while those numbers have
decreased over the last decade, they had been increasing again over the last three years.
The data from the FBI also gave clues to where this year’s cannabis arrests were more
likely to take place. They found that cannabis arrests were least likely to happen in
western states - which have mostly all legalized the drug. But those in the northeast may
want to take particular caution around following cannabis laws. 53% of all drug arrests
took place in the northeast part of the country last year.

..v

1

w

via&

\
b

\
\

*JEki

HO IftOMi

via*
-Jk

*

NEW YORK, NY - JULY 09: A police officer on the steps of New York City Hall monitors a protest in ... [+]

140

cetty iuaces

In addition to those dwelling in the northeast, those in the black community may also be
at particular risk of being arrested for cannabis crimes. A recent report from the ACLU
looked at data from 2018, and found that black people were 3.6 times more likely to be
arrested for cannabis possession than white people. This is despite the fact that both
groups use cannabis at similar rates. Even in western states with recreational cannabis
laws, black people were 1.5-1.8% more likely to be arrested for having cannabis. In states
with the worst racial disparity in arrests, like Montana and Kentucky, black people were
94-9.6% more likely to be arrested. In some counties, disparities were so high, black
people were 50 times more likely to be arrested.
"o’.'-.w

Emily Earlenbaugh
I am a writer and educator focused on bringing scientifically backed education on cannabis and
wellness to the public. I’ve spent the last decade working in and covering... Read More
Reprints & Permissions

141

I

I

FI

I GOVERNMENT
ACCOUNTABILITY
INSTITUTE

>

PS
Mls'Cyi
Xt^u

#*L'!!Ur'
i

r

•X

Kft
i

?v

- \

4J

>\>
t

F"%r~ * •*■;* f

II I B,l If
Sm £*

C

-

fc

4-

V

i

\
s

/
r'\

e-Pv^

r**/^

/

FEBRUARY 2021

Table of Contents

Executive Summary

2

The California Story

5

The Florida Story

15

The New York Story

23

The Illinois Story

27

The Missouri Story

34

The Maryland Story

39

The Washington State Story

44

Endnotes

51

i

143

Executive Summary
Cannabis legalization in the United States has come a long way. In 1996, California became the first state
to legalize marijuana for medicinal use only. This past November, five more states legalized marijuana,
and 47 of the 50 states now allow its recreational or medical use. While governments this Spring were
imposing lockdowns and closures of most businesses, churches and schools to combat the COVID-19
epidemic, marijuana dispensaries joined pharmacies and liquor stores as "essential businesses" that
must remain open in California.
While he was the first governor to issue a statewide shelter-in-place order, Governor Gavin Newsom of
California kept marijuana available. Other states would soon follow: Thirty states in total that issued
statewide stay-at-home orders would allow dispensaries of some kind, including recreational, to remain
open.1
While some claim that cannabis dispensaries were truly as important as pharmacies, which also
remained open during statewide lockdowns, other factors may have contributed to this decision.
Whatever its medicinal and recreational benefits, cannabis has evolved into a nearly $21 billion industry
that lobbies, pressures, and rewards politicians who look out for it.2
In August 2019, the FBI announced it was investigating public corruption in the cannabis industry
through pay-to-play bribery schemes. This announcement came at a time when the debate in the United
States over the pros and cons of legalizing pot had mostly concluded. Officials in many states have
routinely ignored federal laws prohibiting the use of marijuana, effectively giving regulatory authority
over marijuana to individual states.
There are now far more states where marijuana is fully legal than where it is illegal. Twelve states have
decided through referendum, and two states through legislative action, to legalize recreational use of
marijuana. Just three states - Nebraska, Kansas, and Idaho - still prohibit any use of marijuana, while
the remaining forty-seven states have opted for legalization in some form.
With this new authority, state officials must now create specific regulations. Where states have
approved legal marijuana, politicians must make licensing rules for detailing which businesses may
distribute such products, and who may purchase them. As with any new market, laws and regulations
inevitably will pick the winners and losers in this emerging industry, whose value may be as high as $35
billion by 2025.3
As with any economic activity regulated by the government, affected businesses seek an advantage by
hiring insiders who have access to those close to the regulatory process. They also make campaign
contributions to well-positioned politicians.
And while most cannabis-related regulatory and legislative action is happening at the state level, some
national level political figures have leveraged their positions to make money from cannabis legalization.
For example, in 2017, Paul Pelosi Jr., the son of House Speaker Nancy Pelosi, was named Chairman of
the Board of Directors of Freedom Leaf, Inc., a consulting firm advising the budding marijuana industry.4
The following year, the company entered the CBD distribution business, while Pelosi purchased more
than $100,000 in company stock.5

2

144

Former Republican Speaker of the House John Boehner, who staunchly opposed legalizing marijuana in
Congress, is now bullish on the industry. "This is one of the most exciting opportunities you'll ever be
part of," he says in a video announcing his new National Institute for Cannabis Investors. "Frankly, we
can help you make a potential fortune."6 Boehner stands to earn an estimated $20 million if his group
succeeds in persuading the federal government to legitimize marijuana.7
Still, for now, the states are where most of the action on marijuana distribution is found, and where the
greatest threat of political corruption exists. The Government Accountability Institute (GAI), whose
mission is to expose cronyism, reviewed the process related to legalizing marijuana in seven states. For
each state we reviewed, GAI focused on identifying the relationships between policy decisions that
benefited advocates of marijuana legalization and the transfer of money and other benefits from
marijuana-related businesses and lobbyists to elected officials.
While each state possessed a unique set of circumstances related to legalizing marijuana, our research
found striking similarities in how cronyism in these states occurred. For example, in several states,
elected officials and government employees made decisions that ultimately benefited them financially.
Also, in several instances, campaign contributions were timed around important shifts in policy.
GAI analyzed original documents that included lobbying records, campaign donations, FBI subpoenas,
FBI indictments, meeting minutes and videos, and various administrative rulings issued by state officials.
GAI also reviewed press accounts of the legalization process. Our research found the following:

•

New York Governor Andrew Cuomo, who once scorned marijuana as a "gateway" drug, changed
his position and supported the full legalization of marijuana after appointing advisors, including
his chief of staff, who had a financial interest in legalizing marijuana, and after receiving
significant campaign contributions from marijuana-related businesses.

•

In California, the FBI is investigating Lev Parnas and Igor Fruman over allegations they were
conspiring to funnel foreign contributions into political campaigns to influence decisions related
to marijuana licensure.

•

In Florida, Ballard Partners, a Florida-based lobbying firm once called "the most powerful
lobbyist in Trump's Washington" is tied to two separate FBI inquiries connected to Florida's
cannabis industry. The firm was subpoenaed by prosecutors from the Southern District of New
York who are investigating the illegal foreign money donor scheme.8

•

Shortly after her 2018 election as Florida's Agriculture Commissioner, Nikki Fried reported a $1
million increase in her net wealth, thanks in part to a gift from the CEO of a marijuana company
that was awarded a license under a new Florida law who she was romantically involved with.

•

In Illinois, recently elected Governor J.B. Pritzker pushed quickly for legalizing recreational
marijuana use, which benefited his cousin, Joby Pritzker. Joby Pritzker was credited by
advocates of the legislation with helping write the bill. He also had a financial interest in PAX
Labs, Inc., which sells cannabis vaporizers. In May 2018, before recreational use was legal, PAX

3

145

Labs sold cannabis vaporizers in approximately fifty locations across Illinois through third-party
vendors. As of 2020, based on the company's website, that number is now over 120.
•

Several Illinois elected officials who supported a change in the law that would yield an
additional $100-$400 million in marijuana sales received approximately $1 million in campaign
contributions from Stephen and Mary Jo Schuler. The Schulers were investors in PharmaCann,
one of Illinois largest marijuana businesses. The change to the law was a windfall for
PharmaCann and other businesses, by allowing access to medical marijuana for people who had
previously been prescribed opioids.

•

In Maryland, Governor Larry Hogan demanded a state delegate resign over financial ties to a
cannabis business that was seeking a license. Our research shows that Governor Hogan had his
own connections to cannabis companies seeking licenses in Maryland.

•

In Missouri, the FBI arrived in Jefferson City just after a medical marijuana law was passed.
Agents remained visible throughout the licensing and implementation of the new law under
Governor Mike Parson. The FBI was watching a legislator-turned-lobbyist named Steven Tilley.
Tilley, who was so well known as the master of legally converting unspent campaign funds to
personal benefit that the practice is called the "Tilley Shuffle," was a confidant of Governor
Parson, who created and implemented the marijuana licensing process.

•

In the state of Washington, a judge awarded a resident $192,000 in restitution after finding the
state's licensing board repeatedly violated open meeting laws related to the implementation of
cannabis legislation.

•

Over the last five years, the FBI was engaged in criminal investigations related to legalizing
marijuana in at least four of the seven states we reviewed. These states include California,
Missouri, Florida, and New York.

4

146

3/30/2021

Cut Regulation to Reduce Marijuana Corruption | Cato Institute

GOD
INSTITUTE

DECEMBER 28, 2020 7:01PM

Cut Regulation to Reduce Marijuana
Corruption
< SHARE

By Chris Edwards

Mona Zhang has a good piece on marijuana and political corruption at
Politico. She writes:
In the past decade, 15 states have legalized a regulated marijuana
market for adults over 21, and another 17 have legalized medical
marijuana. But in their rush to limit the numbers of licensed vendors
and give local municipalities control of where to locate dispensaries,
they created something else: A market for local corruption.
Zhang describes how the mayor of Fall River, Massachusetts, allegedly
tried to extort $600,000 from cannabis companies in exchange for
granting them sales licenses. She discusses numerous other cases in a
"rash of cannabis-related corruption across the nation, from
Massachusetts to California to Arkansas and beyond."
The problem is not marijuana, but rather that politicians are overregulating
and micromanaging the market. Zhang notes:

https://www.cato.org/blog/cut-regulation-reduce-marijuana-corruption

147

1/6

3/30/2021

Cut Regulation to Reduce Marijuana Corruption | Cato Institute

Almost all the states that legalized pot either require the approval of
local officials — as in Massachusetts — or impose a statewide limit on
the number of licenses, chosen by a politically appointed oversight
board, or both. These practices effectively put million-dollar decisions
in the hands of relatively small-time political figures — the mayors and
councilors of small towns and cities, along with the friends and
supporters of politicians who appoint them to boards ... They have
also created a culture in which would-be cannabis entrepreneurs feel
obliged to make large campaign contributions or hire politically
connected lobbyists.
It is sickening that people in "public service" are not satisfied with their fat
salaries and pensions and seek illegal ways to further line their pockets.
But that is what excess regulation often leads to, particularly when
governments put artificial limits on valuable items and then dole out
access in a discretionary manner. Chicago has been plagued by
corruption partly because the government requires businesses to obtain
masses of permits, licenses, and other approvals, and then gives individual
city council members discretionary power over whether to grant them.
A similar problem exists with the Low-Income Housing Tax Credit (LIHTC),
as discussed here. The federal government assigns each state a fixed
amount of valuable tax credits, which the states dole out to local
governments who distribute them to their favored developers. That setup
has led to LIHTC corruption scandals in Dallas, Los Angeles, and other
cities.
For the marijuana market, Zhang finishes her piece touching on the
solution to the corruption problem:

https://www.cato.org/blog/cut-regulation-reduce-marijuana-comjption

148

2/6

Cut Regulation to Reduce Marijuana Corruption | Cato Institute

3/30/2021

States that have largely avoided corruption controversies either do
not have license caps — like Colorado or Oklahoma — or dole out
a limited number of licenses through a lottery rather than scoring the
applicants by merit — like Arizona. Many entrepreneurs, particularly
those who lost out on license applications, believe the government
shouldn't be in the business of picking winners and losers and should
just let the free market do its job.

RELATED TAGS
COViD-19 and Labor Regulation, Regulation, State and Local Regulations, COVID-19

Email Signup
Sign up to have blog posts delivered straight to your inbox!

r

Subscribe

TOPICS
• Banking and Finance
• Constitutional Law
• Criminal justice
• Defense and Foreign Policy
• Education
• Free Speech and Civil Liberties
• Global Freedom
• Government and Politics
https://www.cato.org/blog/cut-regulation-reduce-marijuana-corruption

149

3/6

Cut Regulation to Reduce Marijuana Corruption [ Cato Institute

3/30/2021

• Health Care
• Immigration
• Monetary Policy
• Poverty and Social Welfare
• Regulation
• Tax and Budget Policy
• Technology and Privacy
• Trade Policy

ARCHIVES

March 2021
February 2021
January 2021
December 2020
November 2020
October 2020
September 2020
Show More

Stay Connected to Cato
Sign up for the newsletter to receive periodic updates on Cato research,
events, and publications.
Your Email Address

Subscribe
View All Newsletters

https://www.cato.org/b1og/cut-regulation-reduce-marijuana-cormption

150

4/6

3/30/2021

Cut Regulation to Reduce Marijuana Corruption | Cato Institute

ABOUT

PUBLICATIONS

Annual Reports

Books

Leadership

Cafo Journal

Jobs

Regulation

Student Programs

Cato Policy Report

Media Information

Cato Supreme Court Review

Store

Cato's Letter

Contact

Human Freedom Index
Economic Freedom of the World

PODCASTS

Cafo Handbook for Policymakers

EXPERTS
Policy Scholars
Adjunct Scholars

BLOG

Fellows
DONATE
EVENTS

Sponsorship Benefits

Upcoming

Ways to Give

Past

Planned Giving

Event FAQs
Sphere Summit

INSTITUTE
in ®
1000 Massachusetts Ave, NW,
Washington, DC 20001-5403
(202) 842-0200
CONTACT US

https://www.cato.org/blog/cut-regulation-reduce-marijuana-corruption

5/6

3/30/2021

Cut Regulation to Reduce Marijuana Corruption | Cato Institute

ALSO FROM CATO INSTITUTE:
LIBERTARIANISM.ORG
HUMANPROGRESS.ORG
DOWNSIZINGGOVERNMENT.ORG

https://www.cato.org/blog/cut-regulation-reduce-marijuana-corruption

152

6/6

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

3/10/2021

[House Report 116-604]
[From the U.S. Government Publishing Office]
{

116th Congress >

Rept. 116-604

HOUSE OF REPRESENTATIVES
2d Session

{

>

Part 1

MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

REPORT
of the
COMMITTEE ON THE JUDICIARY
HOUSE OF REPRESENTATIVES
ON
H.R. 3884
together with
MINORITY VIEWS

November 27, 2020.--Referred to the House Calendar and
ordered to be printed

MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

{ Rept. 116-604

116th Congress }
HOUSE OF REPRESENTATIVES
2d Session

{

}

Part 1

MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

153

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

1/389

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

3/10/2021

REPORT

of the

COMMITTEE ON THE JUDICIARY
HOUSE OF REPRESENTATIVES
ON
H.R. 3884
together with
MINORITY VIEWS

November 27, 2020.--Referred to the House Calendar and
ordered to be printed

42-437

U.S. GOVERNMENT PUBLISHING OFFICE
WASHINGTON : 2020

116th Congress

>

{

Rept. 116-604

{

Part 1

HOUSE OF REPRESENTATIVES
2d Session

>
: = SSSSSS:

MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

November 27, 2020.--Ordered to be printed

Mr. Nadler, from the Committee on the Judiciary, submitted the
following

154

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

2/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

REPORT

together with
MINORITY VIEWS
[To accompany H.R. 3884]
The Committee on the Judiciary, to whom was referred the
bill (H.R. 3884) to decriminalize and deschedule cannabis, to
provide for reinvestment in certain persons adversely impacted
by the War on Drugs, to provide for expungement of certain
cannabis offenses, and for other purposes, having considered
the same, reports favorably thereon with an amendment and
recommends that the bill as amended do pass.
CONTENTS
Purpose and Summary.....................................................................
Background and Need for the Legislation..................................
Hearings.........................................................................................
Committee Consideration..............................................................
Committee Votes.............................................................................
Committee Oversight Findings.....................................................
New Budget Authority and Tax Expenditures and Congressional
Budget Office Cost Estimate....................................................
Duplication of Federal Programs................................................
Performance Goals and Objectives..............................................
Advisory on Earmarks....................................................................
Section-by-Section Analysis.......................................................
Changes in Existing Law Made by the Bill, as Reported.........
Committee Correspondence............................................................
Minority Views..............................................................................

Page
11
12
20
20
20
22
22
22
22
22
22
27
337
346

The amendment is as follows:
Strike all after the enacting clause and insert the
following:
SECTION 1. SHORT TITLE.
This Act may be cited as the "Marijuana Opportunity Reinvestment and
Expungement Act of 2019 I I or the "MORE Act of 2019".
SEC. 2. FINDINGS.
The Congress finds as follows:
(1) The communities that have been most harmed by cannabis
prohibition are benefiting the least from the legal marijuana
marketplace.
(2) A legacy of racial and ethnic injustices, compounded by
the disproportionate collateral consequences of 80 years of
cannabis prohibition enforcement, now limits participation in
the industry.
(3) 33 States, the District of Columbia, Puerto Rico, and
Guam have adopted laws allowing legal access to cannabis, and
11 States, the District of Columbia, and the Commonwealth of
the Northern Mariana Islands have adopted laws legalizing
cannabis for adult recreational use.

155

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

3/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

(4) A total of 47 States have reformed their laws pertaining
to cannabis despite the Schedule I status of marijuana and its
Federal criminalization.
(5) Legal cannabis sales totaled $9.5 billion in 2017 and are
projected to reach $23 billion by 2022.
(6) According to the American Civil Liberties Union (ACLU),
enforcing cannabis prohibition laws costs taxpayers
approximately $3.6 billion a year.
(7) The continued enforcement of cannabis prohibition laws
results in over 600,000 arrests annually, disproportionately
impacting people of color who are almost 4 times more likely to
be arrested for cannabis possession than their White
counterparts, despite equal rates of use across populations.
(8) People of color have been historically targeted by
discriminatory sentencing practices resulting in Black men
receiving drug sentences that are 13.1 percent longer than
sentences imposed for White men and Latinos being nearly 6.5
times more likely to receive a Federal sentence for cannabis
possession than non-Hispanic Whites.
(9) In 2013, simple cannabis possession was the fourth most
common cause of deportation for any offense and the most common
cause of deportation for drug law violations.
(10) Fewer than one-fifth of cannabis business owners
identify as minorities and only approximately 4 percent are
black.
(11) Applicants for cannabis licenses are limited by numerous
laws, regulations, and exorbitant permit applications,
licensing fees, and costs in these States, which can require
more than $700,000.
(12) Historically disproportionate arrest and conviction
rates make it particularly difficult for people of color to
enter the legal cannabis marketplace, as most States bar these
individuals from participating.
(13) Federal law severely limits access to loans and capital
for cannabis businesses, disproportionately impacting minority
small business owners.
(14) Some States and municipalities have taken proactive
steps to mitigate inequalities in the legal cannabis
marketplace and ensure equal participation in the industry.
SEC. 3. DECRIMINALIZATION OF CANNABIS.
(a) Cannabis Removed From Schedule of Controlled Substances.-(1) Removal in statute.--Subsection (c) of schedule I of
section 202(c) of the Controlled Substances Act (21 U.S.C. 812)
is amended-(A) by striking "(10) Marihuana.'1; and
(B) by striking "(17) Tetrahydrocannabinols, except
for tetrahydrocannabinols in hemp (as defined in
section 297A of the Agricultural Marketing Act of
1946).’'.
(2) Removal from schedule.--Not later than 180 days after the
date of the enactment of this Act, the Attorney General shall
finalize a rulemaking under section 201(a)(2) removing
marihuana and tetrahydrocannabinols from the schedules of
controlled substances. Marihuana and tetrahydrocannabinols
shall each be deemed to be a drug or other substance that does
not meet the requirements for inclusion in any schedule. A
rulemaking under this paragraph shall be considered to have

156

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

4/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

taken effect as of the date of enactment of this Act for
purposes of any offense committed, case pending, conviction
entered, and, in the case of a juvenile, any offense committed,
case pending, and adjudication of juvenile delinquency entered
before, on, or after the date of enactment of this Act.
(b) Conforming Amendments to Controlled Substances Act.--The
Controlled Substances Act (21 U.S.C. 801 et seq.) is amended-(1) in section 102(44) (21 U.S.C. 802(44)), by striking
"marihuana,'';
(2) in section 401(b) (21 U.S.C. 841(b))-(A) in paragraph (1)-(i) in subparagraph (A)-(I) in clause (vi), by inserting
"or1' after the semicolon;
(II) by striking clause (vii); and
(III) by redesignating clause (viii)
as clause (vii);
(ii) in subparagraph (B)-(I) in clause (vi), by inserting
"or'' after the semicolon;
(II) by striking clause (vii); and
(III) by redesignating clause (viii)
as clause (vii);
(iii) in subparagraph (C), in the first
sentence, by striking "subparagraphs (A), (B),
and (D) ’' and inserting "subparagraphs (A) and
(b)”;

(iv) by striking subparagraph (D);
(v) by redesignating subparagraph (E) as
subparagraph (D); and
(vi) in subparagraph (D)(i), as so
redesignated, by striking " subparagraphs (C)
and (D) ’' and inserting "subparagraph (C)’’;
(B) by striking paragraph (4); and
(C) by redesignating paragraphs (5), (6), and (7) as
paragraphs (4), (5), and (6), respectively;
(3) in section 402(c)(2)(B) (21 U.S.C. 842(c)(2)(B)), by
striking ", marihuana,'1;
(4) in section 403(d)(1) (21 U.S.C. 843(d)(1)), by striking
'', marihuana,1’;
(5) in section 418(a) (21 U.S.C. 859(a)), by striking the
last sentence;
(6) in section 419(a) (21 U.S.C. 860(a)), by striking the
last sentence;
(7) in section 422(d) (21 U.S.C. 863(d))-(A) in the matter preceding paragraph (1), by
striking "marijuana,''; and
(B) in paragraph (5), by striking ", such as a
marihuana cigarette,’’; and
(8) in section 516(d) (21 U.S.C. 886(d)), by striking
"section 401(b)(6)’' each place the term appears and inserting
"section 401(b)(5)’’.
(c) Other Conforming Amendments.-(1) National forest system drug control act of 1986.--The
National Forest System Drug Control Act of 1986 (16 U.S.C. 559b
et seq.) is amended-(A) in section 15002(a) (16 U.S.C. 559b(a)) by
striking "marijuana and other'';
(B) in section 15003(2) (16 U.S.C. 559c(2)) by

157

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

5/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

striking "marijuana and other11; and
(C) in section 15094(2) (16 U.S.C. 559d(2)) by
striking "marijuana and other1'.
(2) Interception of communications.--Section 2516 of title
18, United States Code, is amended-(A) in subsection (l)(e), by striking "marihuana,1 1;

and
(B) in subsection (2) by striking "marihuana1'.
(d) Retroactivity.--The amendments made by this section to the
Controlled Substances Act (21 U.S.C. 801 et seq.) are retroactive and
shall apply to any offense committed, case pending, conviction entered,
and, in the case of a juvenile, any offense committed, case pending, or
adjudication of juvenile delinquency entered before, on, or after the
date of enactment of this Act.
SEC. 4. DEMOGRAPHIC DATA OF CANNABIS BUSINESS OWNERS AND EMPLOYEES.
(a) In General.--The Bureau of Labor Statistics shall regularly
compile, maintain, and make public data on the demographics of-(1) individuals who are business owners in the cannabis
industry; and
(2) individuals who are employed in the cannabis industry.
(b) Demographic Data.--The data collected under subsection (a) shall
include data regarding-(1) age;
(2) certifications and licenses;
(3) disability status;
(4) educational attainment;
(5) family and marital status;
(6) nativity;
(7) race and Hispanic ethnicity;
(8) school enrollment;
(9) veteran status; and
(10) sex.
(c) Confidentiality.--The name, address, and other identifying
information of individuals employed in the cannabis industry shall be
kept confidential by the Bureau and not be made available to the
public.
(d) Definitions.--In this section:
(1) Cannabis.--The term "cannabis'1 means either marijuana
or cannabis as defined under the State law authorizing the sale
or use of cannabis in which the individual or entity is
located.
(2) Cannabis industry.--The term "cannabis industry i i means
an individual or entity that is licensed or permitted under a
State or local law to engage in commercial cannabis-related
activity.
(3) Owner.--The term "owner11 means an individual or entity
that is defined as an owner under the State or local law where
the individual or business is licensed or permitted.
SEC. 5. CREATION OF OPPORTUNITY TRUST FUND AND IMPOSITION OF TAX ON
CANNABIS PRODUCTS.
(a) Trust Fund.-(1) Establishment.--Subchapter A of chapter 98 of the
Internal Revenue Code of 1986 is amended by adding at the end
the following new section:

158

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

6/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

"SEC. 9512. OPPORTUNITY TRUST FUND.
"(a) Creation of Trust Fund.--There is established in the Treasury
of the United States a trust fund to be known as the 'Opportunity Trust
Fund’ (referred to in this section as the 'Trust Fund’), consisting of
such amounts as may be appropriated or credited to such fund as
provided in this section or section 9602(b).
"(b) Transfers to Trust Fund.--There are hereby appropriated to the
Trust Fund amounts equivalent to the net revenues received in the
Treasury from the tax imposed by section 5701(h).
"(c) Expenditures.--Amounts in the Trust Fund shall be available,
without further appropriation, only as follows:
"(1) 50 percent to the Attorney General to carry out section
3052(a) of part 00 of the Omnibus Crime Control and Safe
Streets Act of 1968.
"(2) 10 percent to the Attorney General to carry out section
3052(b) of part 00 of the Omnibus Crime Control and Safe
Streets Act of 1968.
"(3) 20 percent to the Administrator of the Small Business
Administration to carry out section 6(b)(1) of the Marijuana
Opportunity Reinvestment and Expungement Act of 2019.
"(4) 20 percent to the Administrator of the Small Business
Administration to carry out section 6(b)(2) of the Marijuana
Opportunity Reinvestment and Expungement Act of 2019.’'.
(2) Clerical amendment.--The table of sections for subchapter
A of chapter 98 of such Code is amended by adding at the end
the following new item:
"Sec. 9512. Opportunity trust fund.'1.
(b) Imposition of Tax.-(1) In general.--Section 5701 of the Internal Revenue Code of
1986 is amended by redesignating subsection (h) as subsection
(i) and by inserting after subsection (g) the following new
subsection:
"(h) Cannabis Products.--On cannabis products, manufactured in or
imported into the United States, there shall be imposed a tax equal to
5 percent of the price for which sold.'1.
(2) Cannabis product defined.--Section 5702 of such Code is
amended by adding at the end the following new subsection:
" (q) Cannabis Product.-"(1) In general.--Except as provided in paragraph (2), the
term 'cannabis product' means any cannabis or any article which
contains cannabis or any derivative thereof.
"(2) Exception.--The term 'cannabis product* shall not
include any medicine or drug that is a prescribed drug (as such
term is defined in section 213(d)(3)).
"(3) Cannabis.--The term 'cannabis'-"(A) means all parts of the plant Cannabis sativa
L., whether growing or not; the seeds thereof; the
resin extracted from any part of such plant; and every
compound, manufacture, salt, derivative, mixture, or
preparation of such plant, its seeds or resin; and
"(B) does not include-"(i) hemp, as defined in section 297A of the
Agricultural Marketing Act of 1946; or
"(ii) the mature stalks of such plant, fiber
produced from such stalks, oil or cake made
from the seeds of such plant, any other

159

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

7/389

3/16/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

compound, manufacture, salt, derivative,
mixture, or preparation of such mature stalks
(except the resin extracted therefrom), fiber,
oil, or cake, or the sterilized seed of such
plant which is incapable of germination.’’.
(3) Cannabis products treated as tobacco products.--Section
5702(c) of such Code is amended by striking "and roll-your-own
tobacco’’ and inserting "roll-your-own tobacco, and cannabis
products'’.
(4) Manufacturer of cannabis products treated as manufacturer
of tobacco products.--Section 5702 of such Code is amended by
adding at the end the following new subsection:
"(r) Manufacturer of Cannabis Products.-"(1) In general.--Any person who plants, cultivates,
harvests, produces, manufactures, compounds, converts,
processes, prepares, or packages any cannabis product shall be
treated as a manufacturer of cannabis products (and as
manufacturing such cannabis product).
"(2) Exception.--Paragraph (1) shall not apply with respect
to any cannabis product which is for such person's own personal
consumption or use.
"(3) Application of rules related to manufacturers of
tobacco products.--Any reference to a manufacturer of tobacco
products, or to manufacturing tobacco products, shall be
treated as including a reference to a manufacturer of cannabis
products, or to manufacturing cannabis products,
respectively.''.
(5) Application of certain rules for determining price.-Section 5702(1) of such Code is amended-(A) by striking "section 5701(a)(2)'' and inserting
"subsections (a)(2) and (h) of section 5701’and
(B) by inserting "and Cannabis Products’’ after
"Cigars i i in the heading thereof.
(6) Conforming amendment.--Section 5702(j) of such Code is
amended by adding at the end the following new sentence: "In
the case of a cannabis product, the previous sentence shall be
applied by substituting 'from a facility of a manufacturer
required to file a bond under section 5711’ for 'from the
factory or from internal revenue bond under section 5704’.’’.
(c) Effective Date.-(1) In general.--Except as otherwise provided in this
subsection, the amendments made by this section shall apply to
articles manufactured or imported in calendar quarters
beginning more than one year after the date of the enactment of
this Act.
(2) Trust fund.--The amendments made by subsection (a) shall
take effect on the date of the enactment of this Act.
SEC. 6. OPPORTUNITY TRUST FUND PROGRAMS.
(a) Cannabis Justice Office; Community Reinvestment Grant Program.-(1) Cannabis justice office.--Part A of title I of the
Omnibus Crime Control and Safe Streets Act of 1968 (34 U.S.C.
10101 et seq.) is amended by inserting after section 109 the
following:
"SEC. 110. CANNABIS JUSTICE OFFICE.
"(a) Establishment.--There is established within the Office of

160

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

8/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

Justice Programs a Cannabis Justice Office.
"(b) Director.--The Cannabis Justice Office shall be headed by a
Director who shall be appointed by the Assistant Attorney General for
the Office of Justice Programs. The Director shall report to the
Assistant Attorney General for the Office of Justice Programs. The
Director shall award grants and may enter into compacts, cooperative
agreements, and contracts on behalf of the Cannabis Justice Office. The
Director may not engage in any employment other than that of serving as
the Director, nor may the Director hold any office in, or act in any
capacity for, any organization, agency, or institution with which the
Office makes any contract or other arrangement.
"(c) Employees.-"(1) In general.--The Director shall employ as many full­
time employees as are needed to carry out the duties and
functions of the Cannabis Justice Office under subsection (d).
Such employees shall be exclusively assigned to the Cannabis
Justice Office.
"(2) Initial hires.--Not later than 6 months after the date
of enactment of this section, the Director shall-"(A) hire no less than one-third of the total number
of employees of the Cannabis Justice Office; and
"(B) no more than one-half of the employees assigned
to the Cannabis Justice Office by term appointment that
may after 2 years be converted to career appointment.
"(3) Legal counsel.--At least one employee hired for the
Cannabis Justice Office shall serve as legal counsel to the
Director and shall provide counsel to the Cannabis Justice
Office.
"(d) Duties and Functions.--The Cannabis Justice Office is
authorized to-" (1) administer the Community Reinvestment Grant Program;
and
"(2) perform such other functions as the Assistant Attorney
General for the Office of Justice Programs may delegate, that
are consistent with the statutory obligations of this
section.''.
(2) Community reinvestment grant program.--Title I of the
Omnibus Crime Control and Safe Streets Act of 1968 (34 U.S.C.
et seq.) is amended by adding at the end the following:
"PART 00--COMMUNITY REINVESTMENT GRANT PROGRAM
"SEC. 3052. AUTHORIZATION.
"(a) In General.--The Director of the Cannabis Justice Office shall
establish and carry out a grant program, known as the 'Community
Reinvestment Grant Program1, to provide eligible entities with funds to
administer services for individuals most adversely impacted by the War
on Drugs, including-(1) job training;
"(2) reentry services;
"(3) legal aid for civil and criminal cases, including
expungement of cannabis convictions;
"(4) literacy programs;
"(5) youth recreation or mentoring programs;
"(6) health education programs; and
"(7) services to address any collateral consequences that
individuals or communities face as a result of the War on
Drugs.

161

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

9/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

"(b) Substance Use Treatment Services.--The Community Reinvestment
Grant Program established in subsection (a) shall provide eligible
entities with funds to administer substance use treatment services for
individuals most adversely impacted by the War on Drugs.
"SEC. 3053. FUNDING FROM OPPORTUNITY TRUST FUND.
"The Director shall carry out the program under this part using
funds made available under section 9512(c)(1) and (2) of the Internal
Revenue Code.
"SEC. 3054. DEFINITIONS.
''In this part:
"(1) The term 'cannabis conviction’ means a conviction, or
adjudication of juvenile delinquency, for a cannabis offense
(as such term is defined in section 13 of the Marijuana
Opportunity Reinvestment and Expungement Act of 2019).
"(2) The term 'substance use treatment’ means an evidencebased, professionally directed, deliberate, and planned regimen
including evaluation, observation, medical monitoring, harm
reduction, and rehabilitative services and interventions such
as pharmacotherapy, mental health services, and individual and
group counseling, on an inpatient or outpatient basis, to help
patients with substance use disorder reach remission and
maintain recovery.
"(3) The term 'eligible entity’ means a nonprofit
organization, as defined in section 501(c)(3) of the Internal
Revenue Code, that is representative of a community or a
significant segment of a community with experience in providing
relevant services to individuals most adversely impacted by the
War on Drugs in that community.
"(4) The term 'individuals most adversely impacted by the
War on Drugs' has the meaning given that term in section 6 of
the Marijuana Opportunity Reinvestment and Expungement Act of
2019.''.
(b) Cannabis Opportunity Program; Equitable Licensing Grant
Program.-(1) Cannabis opportunity program.--The Administrator of the
Small Business Administration shall establish and carry out a
program, to be known as the "Cannabis Opportunity Program’' to
provide any eligible State or locality funds to make loans
under section 7(m) of the Small Business Act (15 U.S.C. 363(m))
to assist small business concerns owned and controlled by
socially and economically disadvantaged individuals, as defined
in section 8(d)(3)(C) of the Small Business Act (15 U.S.C.
637(d)(3)(C)) that operate in the cannabis industry.
(2) Equitable licensing grant program.--The Administrator of
the Small Business Administration shall establish and carry out
a grant program, to be known as the "Equitable Licensing Grant
Program'', to provide any eligible State of locality funds to
develop and implement equitable cannabis licensing programs
that minimize barriers to cannabis licensing and employment for
individuals most adversely impacted by the War on Drugs,
provided that each grantee includes in its cannabis licensing
program at least four of the following:
(A) A waiver of cannabis license application fees for
individuals who have had an income below 250 percent of
the Federal Poverty Level for at least 5 of the past 10

162

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

10/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

years who are first-time applicants.
(B) A prohibition on the denial of a cannabis license
based on a conviction for a cannabis offense that took
place prior to State legalization of cannabis or the
date of enactment of this Act, as appropriate.
(C) A prohibition on criminal conviction restrictions
for licensing except with respect to a conviction
related to owning and operating a business.
(D) A prohibition on cannabis license holders
engaging in suspicionless cannabis drug testing of
their prospective or current employees, except with
respect to drug testing for safety-sensitive positions,
as defined under the Omnibus Transportation Testing Act
of 1991.
(E) The establishment of a cannabis licensing board
that is reflective of the racial, ethnic, economic, and
gender composition of the State or locality, to serve
as an oversight body of the equitable licensing
program.
(3) Definitions.--In this subsection:
(A) The term "individual most adversely impacted by
the War on Drugs'1 means an individual-(i) who has had an income below 250 percent
of the Federal Poverty Level for at least 5 of
the past 10 years; and
(ii) has been arrested for or convicted of
the sale, possession, use, manufacture, or
cultivation of cannabis or a controlled
substance (except for a conviction involving
distribution to a minor), or whose parent,
sibling, spouse, or child has been arrested for
or convicted of such an offense.
(B) The term "eligible State or locality'1 means a
State or locality that has taken steps to-(i) create an automatic process, at no cost
to the individual, for the expungement,
destruction, or sealing of criminal records for
cannabis offenses; and
(ii) eliminate violations or other penalties
for persons under parole, probation, pre-trial,
or other State or local criminal supervision
for a cannabis offense.
(C) The term "State1' means each of the several
States, the District of Columbia, Puerto Rico, any
territory or possession of the United States, and any
Indian Tribe (as defined in section 201 of Public Law
90-294 (25 U.S.C. 1301) (commonly known as the "Indian
Civil Rights Act of 1968")).
SEC. 7. AVAILABILITY OF SMALL BUSINESS ADMINISTRATION PROGRAMS AND
SERVICES TO CANNABIS-RELATED LEGITIMATE BUSINESSES
AND SERVICE PROVIDERS.
(a) Definitions Relating to Cannabis-Related Legitimate Businesses
and Service Providers.--Section 3 of the Small Business Act (15 U.S.C.
632) is amended by adding at the end the following new subsection:
" (ff) Cannabis-Related Legitimate Businesses and Service
Providers.--In this Act:
"(1) Cannabis.--The term 'cannabis'-

163

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

11/389

3/1*0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

"(A) means all parts of the plant Cannabis sativa
!_., whether growing or not; the seeds thereof; the
resin extracted from any part of such plant; and every
compound, manufacture, salt, derivative, mixture, or
preparation of such plant, its seeds or resin; and
"(B) does not include-"(i) hemp, as defined in section 297A of the
Agricultural Marketing Act of 1946; or
"(ii) the mature stalks of such plant, fiber
produced from such stalks, oil or cake made
from the seeds of such plant, any other
compound, manufacture, salt, derivative,
mixture, or preparation of such mature stalks
(except the resin extracted therefrom), fiber,
oil, or cake, or the sterilized seed of such
plant which is incapable of germination.
"(2) Cannabis-related legitimate business.--The term
'cannabis-related legitimate business' means a manufacturer,
producer, or any person or company that is a small business
concern and that-"(A) engages in any activity described in
subparagraph (B) pursuant to a law established by a
State or a political subdivision of a State, as
determined by such State or political sub-division; and
"(B) participates in any business or organized
activity that involves handling cannabis or cannabis
products, including cultivating, producing,
manufacturing, selling, transporting, displaying,
dispensing, distributing, or purchasing cannabis or
cannabis products.
"(3) Service provider.--The term 'service provider’-"(A) means a business, organization, or other person
that-"(i) sells goods or services to a cannabisrelated legitimate business; or
"(ii) provides any business services,
including the sale or lease of real or any
other property, legal or other licensed
services, or any other ancillary service,
relating to cannabis; and
"(B) does not include a business, organization, or
other person that participates in any business or
organized activity that involves handling cannabis or
cannabis products, including cultivating, producing,
manufacturing, selling, transporting, displaying,
dispensing, distributing, or purchasing cannabis or
cannabis products.’
(b) Small Business Development Centers.--Section 21(c) of the Small
Business Act (15 U.S.C. 648(c)) is amended by adding at the end the
following new paragraph:
"(9) Services for cannabis-related legitimate businesses and
service providers.--A small business development center may not
decline to provide services to an otherwise eligible small
business concern under this section solely because such concern
is a cannabis-related legitimate business or service
provider.''.
(c) Women's Business Centers.--Section 29 of the Small Business Act
(15 U.S.C. 656) is amended by adding at the end the following new
subsection:

164

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

12/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

"(p) Services for Cannabis-Related Legitimate Businesses and Service
Providers.--A women's business center may not decline to provide
services to an otherwise eligible small business concern under this
section solely because such concern is a cannabis-related legitimate
business or service provider.'1.
(d) SCORE.--Section 8(b)(1)(B) of the Small Business Act (15 U.S.C.
637(b)(1)(B)) is amended by adding at the end the following new
sentence: "The head of the SCORE program established under this
subparagraph may not decline to provide services to an otherwise
eligible small business concern solely because such concern is a
cannabis-related legitimate business or service provider.1'.
(e) Veteran Business Outreach Centers.--Section 32 of the Small
Business Act (15 U.S.C. 657b) is amended by adding at the end the
following new subsection:
"(h) Services for Cannabis-Related Legitimate Businesses and Service
Providers.--A Veteran Business Outreach Center may not decline to
provide services to an otherwise eligible small business concern under
this section solely because such concern is a cannabis-related
legitimate business or service provider.'1.
(f) 7(a) Loans.--Section 7(a) of the Small Business Act (15 U.S.C.
636(a)) is amended by adding at the end the following new paragraph:
"(36) Loans to cannabis-related legitimate businesses and
service providers.--The Administrator may not decline to
provide a guarantee for a loan under this subsection to an
otherwise eligible small business concern solely because such
concern is a cannabis-related legitimate business or service
provider.11.
(g) Disaster Loans.--Section 7(b) of the Small Business Act (15
U.S.C. 636(b)) is amended by inserting after paragraph (15) the
following new paragraph:
"(16) Assistance to cannabis-related legitimate businesses
and service providers.--The Administrator may not decline to
provide assistance under this subsection to an otherwise
eligible borrower solely because such borrower is a cannabisrelated legitimate business or service provider.11.
(h) Microloans.--Section 7(m) of the Small Business Act (15 U.S.C.
636(m)) is amended by adding at the end the following new paragraph:
"(14) Assistance to cannabis-related legitimate businesses
and service providers.--An eligible intermediary may not
decline to provide assistance under this subsection to an
otherwise eligible borrower solely because such borrower is a
cannabis-related legitimate business or service provider.'1.
(i) State or Local Development Company Loans.--Title V of the Small
Business Investment Act of 1958 (15 U.S.C. 695 et seq.) is amended by
adding at the end the following new section:
"SEC. 511. LOANS TO CANNABIS-RELATED LEGITIMATE BUSINESSES AND SERVICE
PROVIDERS.
"The Administrator may not decline to provide a guarantee for a loan
under this title to an otherwise eligible State or local development
company solely because such State or local development company provides
financing to an entity that is a cannabis-related legitimate business
or service provider (as defined in section 3(ff) of the Small Business
Act).'1.
SEC. 8. NO DISCRIMINATION IN THE PROVISION OF A FEDERAL PUBLIC BENEFIT
ON THE BASIS OF CANNABIS.

165

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

13/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

(a) In General.--No person may be denied any Federal public benefit
(as such term is defined in section 401(c) of the Personal
Responsibility and Work Opportunity Reconciliation Act of 1996 (8
U.S.C. 1611(c))) on the basis of any use or possession of cannabis, or
on the basis of a conviction or adjudication of juvenile delinquency
for a cannabis offense, by that person.
(b) Security Clearances.--Federal agencies may not use past or
present cannabis or marijuana use as criteria for granting, denying, or
rescinding a security clearance.
SEC. 9. NO ADVERSE EFFECT FOR PURPOSES OF THE IMMIGRATION LAWS.
(a) In General.--For purposes of the immigration laws (as such term
is defined in section 101 of the Immigration and Nationality Act),
cannabis may not be considered a controlled substance, and an alien may
not be denied any benefit or protection under the immigration laws
based on any event, including conduct, a finding, an admission,
addiction or abuse, an arrest, a juvenile adjudication, or a
conviction, relating to cannabis, regardless of whether the event
occurred before, on, or after the effective date of this Act.
(b) Cannabis Defined.--The term "cannabis'’-(1) means all parts of the plant Cannabis sativa L., whether
growing or not; the seeds thereof; the resin extracted from any
part of such plant; and every compound, manufacture, salt,
derivative, mixture, or preparation of such plant, its seeds or
resin; and
(2) does not include-(A) hemp, as defined in section 297A of the
Agricultural Marketing Act of 1946; or
(B) the mature stalks of such plant, fiber produced
from such stalks, oil or cake made from the seeds of
such plant, any other compound, manufacture, salt,
derivative, mixture, or preparation of such mature
stalks (except the resin extracted therefrom), fiber,
oil, or cake, or the sterilized seed of such plant
which is incapable of germination.
(c) Conforming Amendments to Immigration and Nationality Act.--The
Immigration and Nationality Act (8 U.S.C. 1101 et seq.) is amended-(1) in section 212(h), by striking "and subparagraph
(A)(i)(II) of such subsection insofar as it relates to a single
offense of simple possession of 30 grams or less of
marijuana'';
(2) in section 237(a)(2)(B)(i), by striking "other than a
single offense involving possession for one's own use of 30
grams or less of marijuana'';
(3) in section 101(f)(3), by striking "(except as such
paragraph relates to a single offense of simple possession of
30 grams or less of marihuana)'';
(4) in section 244(c)(2)(A)(iii)(II) by striking "except for
so much of such paragraph as relates to a single offense of
simple possession of 30 grams or less of marijuana'';
(5) in section 245(h)(2)(B) by striking "(except for so much
of such paragraph as related to a single offense of simple
possession of 30 grams or less of marijuana)'';
(6) in section 210(c)(2)(B)(ii)(III) by striking ", except
for so much of such paragraph as relates to a single offense of
simple possession of 30 grams or less of marihuana''; and
(7) in section 245A(d)(2)(B)(ii)(II) by striking ", except
for so much of such paragraph as relates to a single offense of

166

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

14/389

3/1*0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

simple possession of 30 grams or less of marihuana'*.

SEC. 10. RESENTENCING AND EXPUNGEMENT.
(a) Expungement of Federal Cannabis Offense Convictions for
Individuals Not Under a Criminal Justice Sentence.-(1) In general.--Not later than 1 year after the date of the
enactment of this Act, each Federal district shall conduct a
comprehensive review and issue an order expunging each
conviction or adjudication of juvenile delinquency for a
Federal cannabis offense entered by each Federal court in the
district before the date of enactment of this Act and on or
after May 1, 1971. Each Federal court shall also issue an order
expunging any arrests associated with each expunged conviction
or adjudication of juvenile delinquency.
(2) Notification.--To the extent practicable, each Federal
district shall notify each individual whose arrest, conviction,
or adjudication of delinquency has been expunged pursuant to
this subsection that their arrest, conviction, or adjudication
of juvenile delinquency has been expunged, and the effect of
such expungement.
(3) Right to petition court for expungement.--At any point
after the date of enactment of this Act, any individual with a
prior conviction or adjudication of juvenile delinquency for a
Federal cannabis offense, who is not under a criminal justice
sentence, may file a motion for expungement. If the expungement
of such a conviction or adjudication of juvenile delinquency is
required pursuant to this Act, the court shall expunge the
conviction or adjudication, and any associated arrests. If the
individual is indigent, counsel shall be appointed to represent
the individual in any proceedings under this subsection.
(4) Sealed record.--The court shall seal all records related
to a conviction or adjudication of juvenile delinquency that
has been expunged under this subsection. Such records may only
be made available by further order of the court.
(b) Sentencing Review for Individuals Under a Criminal Justice
Sentence.-(1) In general.--For any individual who is under a criminal
justice sentence for a Federal cannabis offense, the court that
imposed the sentence shall, on motion of the individual, the
Director of the Bureau of Prisons, the attorney for the
Government, or the court, conduct a sentencing review hearing.
If the individual is indigent, counsel shall be appointed to
represent the individual in any sentencing review proceedings
under this subsection.
(2) Potential reduced resentencing.--After a sentencing
hearing under paragraph (1), a court shall-(A) expunge each conviction or adjudication of
juvenile delinquency for a Federal cannabis offense
entered by the court before the date of enactment of
this Act, and any associated arrest;
(B) vacate the existing sentence or disposition of
juvenile delinquency and, if applicable, impose any
remaining sentence or disposition of juvenile
delinquency on the individual as if this Act, and the
amendments made by this Act, were in effect at the time
the offense was committed; and
(C) order that all records related to a conviction or
adjudication of juvenile delinquency that has been

167

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

15/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

expunged or a sentence or disposition of juvenile
delinquency that has been vacated under this Act be
sealed and only be made available by further order of
the court.
(c) Effect of Expungement.--An individual who has had an arrest, a
conviction, or juvenile delinquency adjudication expunged under this
section-(1) may treat the arrest, conviction, or adjudication as if
it never occurred; and
(2) shall be immune from any civil or criminal penalties
related to perjury, false swearing, or false statements, for a
failure to disclose such arrest, conviction, or adjudication.
(d) Definitions.--In this section:
(1) The term "Federal cannabis offense'' means an offense
that is no longer punishable pursuant to this Act or the
amendments made under this Act.
(2) The term "expunge*1 means, with respect to an arrest, a
conviction, or a juvenile delinquency adjudication, the removal
of the record of such arrest, conviction, or adjudication from
each official index or public record.
(3) The term "under a criminal justice sentence*' means,
with respect to an individual, that the individual is serving a
term of probation, parole, supervised release, imprisonment,
official detention, pre-release custody, or work release,
pursuant to a sentence or disposition of juvenile delinquency
imposed on or after the effective date of the Controlled
Substances Act (May 1, 1971).
(e) Study.--The Comptroller General of the United States, in
consultation with the National Institute on Drug Abuse, shall conduct a
demographic study of individuals convicted of a Federal cannabis
offense. Such study shall include information about the age, race,
ethnicity, sex, and gender identity of those individuals, the type of
community such users dwell in, and such other demographic information
as the Comptroller General determines should be included.
(f) Report.--Not later than 2 years after the date of the enactment
of this Act, the Comptroller General of the United States shall report
to Congress the results of the study conducted under subsection (e).
SEC. 11. REFERENCES IN EXISTING LAW TO MARIJUANA OR MARIHUANA.
Wherever, in the statutes of the United States or in the rulings,
regulations, or interpretations of various administrative bureaus and
agencies of the United States-(1) there appears or may appear the term "marihuana** or
"marijuana**, that term shall be struck and the term
"cannabis’* shall be inserted; and
(2) there appears or may appear the term "Marihuana* * or
"Marijuana'*, that term shall be struck and the term
"Cannabis'* shall be inserted.
SEC. 12. SEVERABILITY.
If any provision of this Act or an amendment made by this Act, or any
application of such provision to any person or circumstance, is held to
be unconstitutional, the remainder of this Act, the amendments made by
this Act, and the application of this Act and the amendments made by
this Act to any other person or circumstance shall not be affected.
SEC. 13. CANNABIS OFFENSE DEFINED.

168

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

16/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

For purposes of this Act, the term "cannabis offense'' means a
criminal offense related to cannabis-(1) that, under Federal law, is no longer punishable pursuant
to this Act or the amendments made under this Act; or
(2) that, under State law, is no longer an offense or that
was designated a lesser offense or for which the penalty was
reduced under State law pursuant to or following the adoption
of a State law authorizing the sale or use of cannabis.
SEC. 14. RULEMAKING.
Unless otherwise provided in this Act, not later than 1 year after
the date of enactment of this Act, the Department of the Treasury, the
Department of Justice, and the Small Business Administration shall
issue or amend any rules, standard operating procedures, and other
legal or policy guidance necessary to carry out implementation of this
Act. After the 1-year period, any publicly issued sub-regulatory
guidance, including any compliance guides, manuals, advisories and
notices, may not be issued without 60-day notice to appropriate
congressional committees. Notice shall include a description and
justification for additional guidance.
SEC. 15. SOCIETAL IMPACT OF MARIJUANA LEGALIZATION STUDY.
The Comptroller General of the United States shall, not later than 2
years after the date of enactment of this Act, provide to Congress a
study that addresses the societal impact of the legalization of
recreational cannabis by States, including-(1) sick days reported to employers;
(2) workers compensations claims;
(3) tax revenue remitted to States resulting from legal
marijuana sales;
(4) changes in government spending related to enforcement
actions and court proceedings;
(5) Federal welfare assistance applications;
(6) rate of arrests related to methamphetamine possession;
(7) hospitalization rates related to methamphetamine and
narcotics use;
(8) uses of marijuana and its byproducts for medical
purposes;
(9) arrest rates of individuals driving under the influence
or driving while intoxicated by marijuana;
(10) traffic-related deaths and injuries where the driver is
impaired by marijuana;
(11) arrest of minors for marijuana-related charges;
(12) violent crime rates;
(13) school suspensions, expulsions, and law enforcement
referrals that are marijuana-related;
(14) high school dropout rates;
(15) changes in district-wide and State-wide standardized
test scores;
(16) marijuana-related hospital admissions and poison control
calls;
(17) marijuana-related juvenile admittances into substance
rehabilitation facilities and mental health clinics;
(18) diversion of marijuana into neighboring States and drug
seizures in neighboring States;
(19) marijuana plants grown on public lands in contravention

169

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

17/389

3/^0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

to Federal and State laws; and
(20) court filings under a State's organized crime statutes.
Purpose and Summary
H.R. 3884, the "Marijuana Opportunity Reinvestment and
Expungement Act of 2019,' ' or "MORE Act of 2019'’ would (1)
remove marijuana, or cannabis, from the list of substances
controlled under the Controlled Substances Act (CSA); (2)
create an Opportunity Trust Fund to be funded through an excise
tax on the sale of cannabis products; (3) create a Cannabis
Justice Office within the Department of Justice (DOJ) to
administer a Community Reinvestment Grant Program to fund
nonprofits that provide services to individuals most adversely
impacted by the War on Drugs; (4) create a Cannabis Opportunity
Program within the Small Business Administration (SBA) to
provide eligible states and localities with funds for loans to
business concerns owned and controlled by socially and
economically disadvantaged individuals and an Equitable
Licensing Program, also within SBA, to provide funds to
eligible states and localities for developing cannabis
licensing programs that minimize barriers to cannabis licensing
and employment for individuals most adversely impacted by the
War on Drugs; (5) ensure that SBA programs and services are
made available to cannabis-related legitimate businesses and
service providers; (6) provide for the expungement of Federal
cannabis arrests and offenses, vacatur and sealing of cannabis
offenses and for resentencing hearings, where appropriate; (7)
protect individuals from discrimination in the provision of
public benefits on the basis of use, possession, or convictions
or juvenile adjudications for cannabis offenses; and (8)
prohibit consideration of cannabis as a controlled substance
for purposes of the immigration laws.
Background and Need for the Legislation
1. OVERVIEW
Marijuana (or cannabis), as defined in the Controlled
Substances Act (CSA),\1\ includes "all parts of the plant
Cannabis sativa L., whether growing or not; the seeds thereof;
the resin extracted from any part of such plant; and every
compound, manufacture, salt, derivative, mixture, or
preparation of such plant, its seeds or resin.''\2\ The CSA
definition of marijuana exempts cannabis plant material that
falls into four categories--mature stalks, fiber produced from
mature stalks, oil or cake made from seeds, and seeds incapable
of germination--as well as "any other compound, manufacture,
salt, derivative, mixture, or preparation'' of the exempt plant
material.\3\ In addition, the Agriculture Improvement Act of
2018\4\ explicitly exempted hemp from the definition of
marijuana under the CSA.\5\
\1\21 U.S.C. Sec. Sec. 801 et seq. (2019).
\2\21 U.S.C. Sec. 802(16)(A) (2019). In different parts of the U.S.
Code, including the CSA, marijuana is referred to as "marihuana.''
\3\21 U.S.C. Sec. 802(16)(B)(ii) (2019).
\4\Pub. L. No. 115-334, 132 Stat. 4490 (2018).

170

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

18/389

3/-f0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

\5\21 U.S.C. Sec. 802(16)(B)(i) (2019).
Cannabis is a complex plant, consisting of two major
compounds, delta-9-tetrahydrocannabinol (commonly known as THC)
and cannabidiol (commonly known as CBD), which produce opposing
effects on individuals.\6\ THC is the main psychoactive
ingredient in cannabis\7\ and is the component that produces
the feeling of being "high.'1 THC can account for as much as
40% of the total cannabinoid content in marijuana.\8\ Hemp, by
contrast is defined in the CSA as cannabis and cannabis
derivatives with very low concentrations (no more than 0.3% on
a dry weight basis) of THC.\9\ Hemp is rich in CBD and
generally contains only 0.3% of THC or less.\10\
\6\Zerrin Atakan, Cannabis, a Complex Plant: Different Compounds
and Different Effects on Individuals, Therapeutic Advances in
Psychopharmacology (Dec. 2012), at 241, https://www.ncbi.nlm.nih.gov/
pmc/articles/PMC3736954/.
\7\Id. at 245.
\8\Timothy Williams, CBD is Wildly Popular. Disputes Over Its
Legality Are a Growing Source of Legal Tension, N.Y. Times (May 6,
2019), https://www.nytimes.com/2019/05/06/us/cbdcannabis-marijuana-hemp.html.
\9\7 U.S.C. Sec. 1639o (2019).
\10\Williams, supra note 8.
The current federal statutory scheme relative to marijuana
comes from the CSA. The CSA makes it unlawful to manufacture,
import, possess, use, and distribute the substances it
regulates, including marijuana. States have also historically
prohibited marijuana use, although in the last two decades
there has been a trend towards state legalization. In 1996,
California became the first state to legalize medical cannabis
with the approval of Proposition 215.\11\ At the present time,
33 states and the District of Columbia have legalized medical
cannabis.\12\ In 2012, Colorado and Washington became the first
two states to legalize the recreational use of cannabis,
following the passage of Amendment 64 and Initiative 502,
respectively.\13\ At this time, 11 states and the District of
Columbia have legalized cannabis for adult recreational
use.\14\ In addition, the U.S. territories of Guam,\15\ the
Northern Mariana Islands,\16\ Puerto Rico,\17\ and the U.S.
Virgin Islands\18\ have legalized marijuana for medical or
recreational purposes. The legalization of cannabis at the
state level, whether for medical or recreational use, has in
many instances put state laws in apparent conflict with federal
statutes that broadly proscribe the possession or use of
marijuana.
\ll\John Balzar, Voters Approve Measure to Use Pot as Medicine,
L.A. Times (Nov. 6, 1996), available at https://www.latimes.com/
archives/la-xpm-1996-ll-06-mn-62740-story.html.
\12\The 33 states are: Alaska, Arizona, Arkansas, California,
Colorado, Connecticut, Delaware, Florida, Hawaii, Illinois, Louisiana,
Maine, Maryland, Massachusetts, Michigan, Minnesota, Missouri, Montana,
Nevada, New Hampshire, New Jersey, New Mexico, New York, North Dakota,
Ohio, Oklahoma, Oregon, Pennsylvania, Rhode Island, Utah, Vermont,
Washington, and West Virginia.
\13\Keith Coffman & Nicole Neroulias, Colorado, Washington first

171

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

19/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

states to legalize recreational pot, Reuters (Nov. 6, 2012), https://
www.reuters.com/article/us-usa-marijuana-legalization/
colorado-washington-first-states-to-legalize-recreational-potidUSBRE8A602D20121107.
\14\The 11 states are: Alaska, California, Colorado, Illinois,
Maine, Massachusetts, Michigan, Nevada, Oregon, Vermont, and
Washington.
\15\See Christopher Ingraham, Medical Marijuana Advocates Notch an
Early Victory in Guam, Wash. Post (Nov. 4, 2014), https://
www.washingtonpost.com/news/wonk/wp/2014/ll/04/medical-marijuanaadvocates-notch-an-early-victory-in-guam/.
\16\See Tom Angell, Governor Signs Marijuana Legalization Bill,
Making History in U.S. Territory, Forbes (Sep. 21, 2018), https://
www.forbes.com/sites/tomangell/2018/09/21/governor-signs-marijuanaIegalization-bill-making-history-in-us-territory/#1709d6dc27ea.
\17\Alexandra Sifferlin, Puerto Rico Governor Signs Executive Order
to Legalize Medical Marijuana, Time (May 4, 2015), https://time.com/
3845638/puerto-rico-medical-marijuana/.
\18\Kyle Daeger, Governor Signs Bill Legalizing Medical Marijuana
in the U.S. Virgin Islands, Marijuana Moment (Jan. 19, 2019), https://
www.marijuanamoment.net/governor-signs-billlegalizing-medical-marijuana-in-the-u-s-virgin-islands/.
The CSA is Title II of the Comprehensive Drug Abuse
Prevention and Control Act.\19\ At the time of its passage, in
1970, President Nixon sent a message to Congress declaring drug
abuse "public enemy number one’’ and announcing a "new, allout offensive.''\20\ This offensive came to be known as the
■ "War on Drugs.''
\19\See Pub. L. No. 91-513, 84 Stat. 1242 (1970).
\20\Conor Friedersdorf, The War on Drugs Turns 40, The Atlantic
(June 15, 2011), https://www.theatlantic.com/politics/archive/2011/06/
the-war-on-drugs-turns-40/240472/.
The CSA directed the President to establish a Commission on
Marijuana and Drug Abuse and issue a study report.\21\ Among
other things, the Commission's first report concluded that
criminalization was "too harsh a tool to apply to personal
possession even in the effort to discourage use, i r and that
"the actual and potential harm of use of the drug is not great
enough to justify intrusion by the criminal law into private
behavior, a step which our society takes only with the greatest
reluctance.’‘\22\ Although the Nixon Administration dismissed
these recommendations at the federal level, during the mid1970s virtually all states softened their penalties for
marijuana possession.\23\ Despite some relaxation at the state
level, in 1973, President Nixon created the Drug Enforcement
Agency, within the Department of Justice, to establish a single
federal agency to enforce federal drug laws and to consolidate
and coordinate the government's drug control activities.\24\
\21\See Pub. L. No. 91-513, 84 Stat. 1280-81, Sec. 601 (1970).
\22\National Commission on Marihuana and Drug Abuse, Marihuana: A
Signal of Misunderstanding--The Official Report of the National
Commission on Marihuana and Drug Abuse 176 (1972).
\23\Brent Staples, The Federal Marijuana Ban is Rooted in Myth and
Xenophobia, N.Y. Times (Duly 29, 2014), https://www.nytimes.com/2014/
07/30/opinion/high-time-federal-marijuana-ban-is-rooted-in-myth.html.

172

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

20/389

3/^0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

\24\See https://www.dea.gov/history.
t

system, through which
The CSA established a "scheduling
the federal government regulates the lawful production,
possession and distribution of controlled substances. Placement
on each of the five schedules is based upon the substance's
medical use, potential for abuse, and safety or dependence
liability. Marijuana was initially placed, and today remains,
on Schedule I.\25\ THC is also on Schedule I.\26\ By virtue of
their placement on Schedule I, marijuana and THC have been
deemed by the federal government to have: (1) a high potential
for abuse; (2) no currently accepted medical use in treatment
in the United States; and (3) a lack of accepted safety for use
under medical supervision.\27\ Because of this, Schedule I
substances may not be dispensed under a prescription, and such
substances may only be used for bona fide, federal governmentapproved research studies.\28\
1

\25\See 21 U.S.C. Sec. 812(c)(c)(10) (2019).
\26\21 U.S.C. Sec. 812(c)(c)(17) (2019).
\27\21 U.S.C. Sec. 812(b)(1) (2019).
\28\21 U.S.C. Sec. 823(f) (2019). Under the CSA, only DEA-licensed
doctors are allowed to prescribe controlled substances listed in
Schedules II-V to patients. See 21 C.F.R. Sec. 1306.03 (persons
entitled to issue prescriptions). Federal regulations stipulate that a
lawful prescription for a controlled substance may only be "issued for
a legitimate medical purpose by an individual practitioner acting in
the usual course of his professional practice.'' 21 C.F.R.
Sec. 1306.04.
Individuals who want to conduct research on marijuana must
do so in accordance with the CSA and other federal laws. If
availability of a controlled substance is sought for purposes
of research, the researcher must obtain a registration issued
by the DEA.\29\ There are strict storage requirements with
which all registrants are expected to comply.\30\ Since passage
of the CSA, the DEA has issued only one license for the
cultivation of marijuana for research, to the University of
Mississippi.\31\ The University of Mississippi’s application
was renewed in 2015,\32\ but no other applications have been
approved by the DEA, despite a stalled effort towards the end
of the Obama Administration to increase the number of suppliers
of marijuana for research purposes.\33\
\29\See 21 U.S.C. Sec. 822; see also 21 C.F.R. Sec. 1301.11(a)
("Every person who manufactures, distributes, dispenses, imports, or
exports any controlled substance or who proposes to engage in the
manufacture, distribution, dispensing, importation or exportation of
any controlled substance shall obtain a registration unless exempted by
law or pursuant to Sec. Sec. 1301.22 through 1301.26.1').
\30\A11 applicants and registrants must "provide effective
controls and procedures to guard against theft and diversion of
controlled substances.'' 21 C.F.R. Sec. 1301.71.
\31\National Institute on Drug Abuse, NIDA's Role in Providing
Marijuana for Research, available at https://www.drugabuse.gov/drugsabuse/marijuana/nidas-role-in-providing-marijuanaresearch.
\32\Id.
\33\ Andrew Joseph, DEA Solicited Applications to Grow Marijuana

173

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

21/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

for Research. It Hasn't Approved One, STAT (Duly 24, 2017), https://
www.statnews.com/2017/07/24/dea-marijuana-licenses-research/. In August
of 2016, the DEA had announced the adoption of a new policy "designed
to increase the number of entities registered under the Controlled
Substances Act (CSA) to grow (manufacture) marijuana to supply
legitimate researchers in the United States.'' Applications to Become
Registered Under the Controlled Substances Act to Manufacture Marijuana
to Supply Researchers in the United Sates, 81 Fed. Reg. 53,846 (Aug.
12, 2016) (codified at 21 C.F.R. pt. 1301).
During the 1980s, Congress and President Ronald Reagan
enacted many mandatory minimum penalties and increased the
length of existing penalties, particularly for drug and violent
felonies.\34\ The Reagan Administration also launched the
"Dust Say No'* campaign against drug use and enforced a "zero
tolerance'' policy in relation to drugs.\35\ Congress created
the U.S. Sentencing Commission during this time period, as part
of the Sentencing Reform Act provisions of the Comprehensive
Crime Control Act of 1984,\36\ to establish sentencing policies
and practices for the federal courts, "including guidelines to
be consulted regarding the appropriate form and severity of
punishment for offenders convicted of federal crimes.''\37\ The
Sentencing Commission began to develop Guidelines that operated
by establishing a mandatory minimum term of imprisonment where
none had existed before,\38\ but Congress also began to reenact
mandatory minimums, many of which were put in place through the
Anti-Drug Abuse Act of 1986.\39\
\34\See U.S. Sentencing Comm'n, 2011 Report to the Congress:
Mandatory Minimum Penalties in the Criminal Dustice System 23 (2011).
\35\See Michael McGrath, Nancy Reagan and the Negative Impact of
the 'Dust Say No’ Anti-Drug Campaign, The Guardian (Mar. 8, 2016),
https://www.theguardian.com/society/2016/mar/08/nancy-reagan-drugsjust-say-no-dare-program-opioid-epidemic.
\36\Pub. L. No. 98-473, 98 Stat. 1837, 1987 (1984).
\37\U.S. Sentencing Comm’n, Mission, available at https://
www.ussc.gov/about-page.
\38\See 18 U.S.C. Sec. 3553(b)(1) (provision severed and excised by
United States v. Booker, 543 U.S. 220 (2005)).
\39\Pub. L. No. 99-570, 100 Stat. 3207 (1986). The Act established
mandatory minimums in 21 U.S.C. Sec. Sec. 841 (possession with intent
to distribute controlled substances); 844 (simple possession); 845
(distribution to a person under 21 years of age); 845a (distribution
near a school); 845b (use of a child in a drug operation); 960
(controlled substance import or export offenses); and in 18 U.S.C.
Sec. 924(e) (adding drug offenses to the Armed Career Criminal Act’s
predicate offense list).
The Anti-Drug Abuse Act of 1986 set forth the basic
framework of mandatory minimum penalties for federal drug
trafficking offenses. The Act established quantities that
triggered those mandatory minimum penalties, which ranged from
five years to life imprisonment, and differed for various
drugs.\40\ Congress expedited passage of the Act after an
uptick in the incidence of drug use and trafficking, as well as
the Dune 1986 overdose death of the Boston Celtics' first-round
pick, Len Bias.\41\ Because of heightened concern and the
national sense of urgency, Congress bypassed much of its usual
deliberative process in relation to the Anti-Drug Abuse Act;

174

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

22/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

Congress held no committee hearings and produced no
reports.\42\
\40\Pub. L. No. 99-570, 100 Stat. 3207-2 (1984).
\41\2011 Report to the Congress, supra, note 34, at 23.
\42\Id. at 23-24; see, e.g., 132 Cong. Rec. 26,436 (Sep. 26, 1986)
(statement of Sen. Hawkins) ("Drugs pose a clear and present danger to
America's national security. If for no other reason we should be
addressing this on an emergency basis.'').
The Anti-Drug Abuse Act established mandatory minimums of
ten years for possessing with intent to distribute, importing,
or exporting 1000 kilograms or more of a mixture or substance
containing a detectable amount of marijuana, and five years for
possessing with intent to distribute, importing, or exporting
100 kilograms or more of a mixture or substance containing a
detectable amount of marijuana.\43\ In addition, the Act
established that a person convicted of possessing with intent
to distribute, importing, or exporting a controlled substance
in Schedule I (including marijuana) could be sentenced to up to
20 years in prison.\44\
\43\Pub. L. No. 99-570, 100 Stat. 3207-2 and 3207-15 (1986). The
Act established additional mandatory minimums of 10 years, 20 years and
life imprisonment depending on whether death or serious bodily injury
resulted from use of the drug or whether the offense was committed
following a prior felony drug conviction. See id.
\44\Pub. L. No. 99-570, 100 Stat. 3207-4 and 3207-17 (1986). With a
drug prior, the maximum sentence increased to 30 years. Id. If death or
bodily injury resulted from use of the substance, the Act mandated a
mandatory minimum term of 20 years, and, with a drug prior, a sentence
of life in prison. Id.
The current federal statutory scheme prohibits the
cultivation or distribution of marijuana, or the possession of
marijuana with the intent to distribute, as well as the
importation and exportation of marijuana.\45\ Marijuana
offenses involve some of the same mandatory minimums as were
mandated by Congress in the Anti-Drug Abuse Act (ten years\46\
and five years,\47\ depending on the amount at issue, and
higher mandatory minimums ranging from 15 years to life in
prison, depending on recidivism and whether death or serious
bodily injury resulted).\48\
\45\See 21 U.S.C. Sec. Sec. 841(b)(1)(A)-(D) and 960(b)(l)-(4)
(2019).
\46\This mandatory minimum now includes the possession of "1,000
or more marihuana plants, regardless of weight.1’ See 21 U.S.C.
Sec. 841(b)(1)(A)(vii) (2019).
\47\This mandatory minimum now includes the possession of "100 or
more marihuana plants, regardless of weight.’' See 21 U.S.C.
Sec. 841(b)(1)(B)(vii) (2019).
\48\See 21 U.S.C. Sec. Sec. 841(b)(l)(A)-(B); 960(b)(1)-(2) (2019);
see also 21 U.S.C. Sec. 851 (2019) (provides a procedure for a
government filing seeking an enhanced penalty for a drug offender
previously convicted of a "felony drug offense’’).
The mere possession of marijuana, without intent to
distribute, is generally a misdemeanor subject to up to one

175

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

23/389

3/^0/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

year of imprisonment.\49\ A violation of this federal "simple
possession'' statute after a single prior conviction under any
federal or state drug law triggers a mandatory minimum
imprisonment term of 15 days (up to a maximum of two years) and
this increases to a minimum of 90 days (and a maximum of three
years) with multiple prior drug convictions.\50\ In a case
concerning less than 50 kilograms of marijuana, a person can be
subject to up to five years of imprisonment.\51\
\49\21 U.S.C. Sec. 844(a) (2019).
\50\Id.
\51\21 U.S.C. Sec. 841(b)(1)(D) (2019).
Pursuant to the CSA, the federal government prosecutes a
large number of drug trafficking offenses. In fiscal year 2018,
there were 69,425 cases reported to the United States
Sentencing Commission.\52\ Of these, 18,964 cases involved drug
trafficking, and 11.5% of the cases involving drug trafficking
involved marijuana.\53\ In fiscal year 2018, there were 2,190
marijuana trafficking offenders, which represents a decrease of
44.9% from the 3,973 offenders in fiscal year 2014.\54\ The
vast majority of marijuana trafficking offenders were men, at
86.8%, in fiscal year 2018.\55\ Over half (53.3%) were United
States citizens.\56\ Almost three-quarters of marijuana
trafficking offenders prosecuted in federal court in fiscal
year 2018 were Hispanic, or Latino (71.9%), and 11.5% were
White, 12.3% were Black, and 4.3% were offenders from other
races.\57\ Ninety-one percent of offenders (91.1%) were
sentenced to prison, with the average sentence being 29
months.\58\ Almost thirty-two percent (31.8%) of marijuana
trafficking offenders were convicted of an offense carrying a
mandatory minimum, although 63.64% were not subject to a
mandatory minimum because either they were eligible for a
"safety valve'' reduction, they gave substantial assistance to
the government, or both.\59\ This represents a one-year
increase of over six percentage points; in fiscal year 2017,
the percentage of marijuana trafficking offenders convicted of
an offense carrying a mandatory minimum penalty was 25.6%.\60\
\52\U.S. Sentencing Comm'n, Quick Facts: Marijuana Trafficking
Offenses, at 1, https://www.ussc.gov/sites/default/files/pdf/researchand-publications/quick-facts/Marijuana_FY18.pdf. In fiscal year 2017,
the federal government prosecuted 776 drug-possession cases; 571 of
these cases were marijuana-possession prosecutions. U.S. Sentencing
Comm'n, 2018 Fiscal Year Datafiles, USSCFY18.
\53\2017 Quick Facts, at 1.
\54\Id.
\55\Id.
\56\Id.
\57\Id.
\58\Id.
\59\Id.
\60\U.S. Sentencing Comm'n, Quick Facts: Marijuana Trafficking
Offenses, at 1, https://www.ussc.gov/sites/default/files/pdf/researchand-publications/quick-facts/Marijuana_FY17.pdf.
The Federal Bureau of Investigation reports that in 2018
there were a total of 1,654,282 arrests for all drug offenses
reported in the United States,\61\ of which 13.6% were for the

176

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

24/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

sale or manufacture of any drug and, of these, 3.3%--or
approximately 7,424 arrests--were for marijuana.\62\ In 2018,
the percentage of drug possession arrests relative to arrests
for all drug offenses was 86.4%; of these, 36.8%--or
approximately 525,982 arrests--were for marijuana.\63\
\61\See Federal Bureau of Investigation, Uniform Crime Report, 2018
Crime in the United States, Estimated Number of Arrests, United States,
2018 (Table 29), https://ucr.fbi.gov/crime-in-the-u.s/2018/crime-inthe-u.s.-2018/tables/table-29.
\62\See id., Arrests for Drug Abuse Violations, Percent
Distribution by Region, 2018 (Arrest Table), Federal Bureau of
Investigation, Uniform Crime Report, 2018 Crime in the United States,
https://ucr.fbi.gOv/crime-in-the-u.s/2018/crime-in-the-u.s.-2018/
tables/arrest-table.xls.
\63\See id.
At the same time as the federal government continues to
maintain marijuana's placement as a controlled substance on
Schedule I, the majority of states and the District of Columbia
have established laws and policies authorizing the medical or
recreational use of marijuana, as noted above.\64\
\64\See supra notes 11-18.
The possession, cultivation, or distribution of marijuana,
however, remains a federal crime within every state that has
legalized it. As a result, a person who grows, possesses, uses,
sells, transports, or distributes marijuana, even if done in a
way that is consistent with state law or authorized by a state
license, is nonetheless in violation of the CSA and remains
subject to federal prosecution. In addition, because marijuana
is still a federally-controlled substance, the application of
various money laundering and banking laws has hampered the
ability of commercial marijuana establishments to obtain the
necessary financing and financial services to establish and
grow their businesses.\65\
\65\See generally Easier Pot Policy Won't Relieve Dispensaries'
Banking Woes, Reuters (Sep. 5, 2013), https://www.cnbc.com/id/
101011966; Serge F. Kovaleski, Banks Say No to Marijuana Money, Legal
or Not, N.Y. Times (lan. 11, 2014), https://www.nytimes.com/2014/01/12/
us/banks-say-no-to-marijuana-money-legal-or-not.html.
2. IMPACT ON MINORITY COMMUNITIES
As noted above, cannabis policies with a disproportionate
impact on minority communities began to be implemented in the
early part of the 20th century. Beginning in the 1960s,
national policies emphasized a law enforcement-focused approach
that exacerbated problems in cities throughout the country.\66\
The War on Drugs amplified these problems by distorting the
statistics that tied drug addiction to instances of crime.\67\
The national conversation thus shifted away from eradicating
the causes of crime and focused it on punishing the
criminal.\68\ This had the dual effect of exonerating the white
middle class from responsibility for the drug-related violence
being experienced in the inner city and transforming the public

177

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

25/389

3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

image of the drug user into a dangerous threat.\69\ "Shifting
public perception in this way ultimately served to reinforce
the 'necessity' of Nixon's drug war. Once addicts were no
longer seen as sick victims of a society that systematically
excluded them, no one would mind when they were simply locked
up. In fact, incarceration was for the nation's own good.''\70\
This "lock them up'' mentality continued through the 1980s and
1990s.\71\
\66\See Emily Dufton, The War on Drugs: How President Nixon Tied
Addiction to Crime, The Atlantic (Mar. 26, 2012), https://
www.theatlantic.com/health/archive/2012/03/the-war-on-drugs-howpresident-nixon-tied-addiction-to-crime/254319/.
\67\Id.
\68\See id.
\69\See id.
\70\Id. (emphasis in original).
\71\Matthew Yglesias, The Real Reason Mass Incarceration Happened,
Vox (Apr. 11, 2016), https://www.vox.com/2016/4/ll/11399870/massincarceration-cause.
Enforcement of marijuana laws has been a key driver of mass
criminalization in the United States. As noted above, in 2018,
there were over 533,400 marijuana-related arrests.\72\ Of
these, almost 526,000 were arrests for marijuana
possession.\73\ The drug war has produced profoundly unequal
outcomes across racial groups, manifested through significant
racial disparities throughout the criminal justice system.
\72\See supra notes 62 and 63.
\73\See supra note 63.
The higher arrest and incarceration rates for communities
of color do not reflect a greater prevalence of drug use, but
rather the focus on law enforcement on urban areas, lower
income communities, and communities of color.\74\ In fact,
nearly 80% of people in federal prison and almost 60% of people
in state prison for drug offenses are black or Latino.\75\ In
its seminal 2013 report, "The War on Marijuana in Black and
White,'' the American Civil Liberties Union found:
\74\5ee Drug Policy Alliance, Race and the Drug War, http://
www.drugpolicy.org/issues/race-and-drug-war.
\75\See id.
[0]n average, a Black person is 3.73 times more
likely to be arrested for marijuana possession than a
white person, even though Blacks and whites use
marijuana at similar rates. Such racial disparities in
marijuana possession arrests exist in all regions of
the country, in counties large and small, urban and
rural, wealthy and poor, and with large and small Black
populations. Indeed, in over 96% of counties with more
than 30,000 people in which at least 2% of the
residents are Black, Blacks are arrested at higher
rates than whites for marijuana possession.\76\
\76\Amer. Civil Liberties Union, The War on Marijuana in Black and
White (June 2013), at 4.

178

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

26/389

r
3/10/2021

House Report 116-604 - MARIJUANA OPPORTUNITY REINVESTMENT AND EXPUNGEMENT ACT OF 2019

3. COLLATERAL CONSEQUENCES
The collateral consequences of even an arrest for marijuana
possession can be devastating, especially if a felony
conviction results. Those arrested can be saddled with a
criminal conviction that can make it difficult or impossible to
vote, obtain educational loans, get a job, maintain a
professional license, secure housing, secure government
assistance, or even adopt a child.\77\ These exclusions create
an often-permanent second-class status for millions of
Americans. Like drug war enforcement itself, these consequences
fall disproportionately on people of color. For non-citizens, a
conviction can trigger deportation, sometimes with almost no
possibility of discretionary relief.\78\ In fact, simple
marijuana possession was the fourth most common cause of
deportation for any crime in 2013.\79\ More than 13,000 people
were deported in 2012 and 2013 just for personal marijuana
possession.\80\
\77\See Drug Policy Alliance, Dust a Slap on the Wrist?: The LifeChanging Consequences of a Marijuana Arrest (Feb. 2016), at http://
www.drugpolicy.org/sites/default/files/
DPA_Fact%20sheet_Harms%20of%20Marijuana%20Criminalization_%28Feb.%202016
%29.pdf.
\78\See Dason Cade, The Plea Bargain Crisis for Noncitizens in
Misdemeanor Court, 34 Cardozo L. Rev. 1754 (2013).
\79\See Drug Policy Alliance, supra note 77, at 1.
\80\See id.
Today, overcriminalized communities continue to suffer the
consequences of failed drug policies, even in states that have
legalized marijuana, where arrests have dropped for marijuana
crimes.\81\ Legalization has not generated a reduction of the
rate at which Black and Latino people are arrested in these
states.\82\ In fact, many states have seen an even steeper rise
in the percentage of African-Americans and Latinos having their
lives impacted by a marijuana arrest.\83\ Two years after
decriminalization in Washington, DC, a Black person was 11
times more likely than a white person to be arrested for public
use of marijuana.\84\
\81\See German Lopez, After Legalization, Black People Are Still
Arrested at Higher Rates for Marijuana than White People, Vox (Dan. 29,
2018), https://www.vox.eom/policy-and-politics/2018/l/29/16936908/
marijuana-legalization-racial-disparities-arrests.
\82\See id.
\83\See id.
\84\Drug Policy Alliance, From Prohibition to Progress: A Status
Report on Marijuana Legalization (Dan. 2018), at 31, http://
www.drugpolicy.org/sites/default/files/
dpa_marijuana_legalization_report_febl4_2018_0.pdf.
Public support for making marijuana legal has increased
over the past two decades.\85\ The resulting trend in statelevel legalization of marijuana has placed states in apparent
conflict with federal law and, as a result, the Dustice
Department has struggled with how to continue to uphold federal

179

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1.htm

27/389

*

House Report 116-604 - MARIJUANA OPPORTUI^^^^^^^H

this context. Meanwhile, numerous difficui^ie^rav^^"
^ffsen as states seek to develop a framework for a legal
Cannabis industry without easy access to banking and credit,
because marijuana is still a controlled substance under the
CSA, the specter of prosecution for participation in the
qannabis industry looms large, even though medicinal or
recreational marijuana is legal in 33 states and the District
of Columbia.
\85\See Hannah Hartig & A.W. Geiger, About Six-in-Ten Americans
Support Marijuana Legalization, Pew Research Center (Oct. 8, 2018),
https://www.pewresearch.org/fact-tank/2018/10/08/americans-supportmarijuana-legalization/.
In addition, the collateral consequences suffered by those
with marijuana convictions are numerous and vast. Many criminal
justice advocates argue that expunging marijuana convictions is
a necessary addition to any legalization measure.\86\ Moreover,
they believe that people who have been harmed by marijuana
enforcement should have a place in the burgeoning marketplace
created by legalization.\87\ They further argue that reform
efforts should enable people who have struggled to find
employment due to drug convictions to participate meaningfully
in the marijuana industry.\88\ They contend that excluding
people directly impacted by criminalization from the marijuana
industry further entrenches the outsized impact that the War on
Drugs has had on communities of color.\89\
\86\See Sophie Quinton, In These States, Past Marijuana Crimes Can
Go Away, Pew Charitable Trusts (Nov. 20, 2017), https://
www.pewtrusts.org/en/research-and-analysis/blogs/stateline/2017/ll/20/
in-these-states-past-marijuana-crimes-can-go-away; Charlotte Resing,
Marijuana Legalization is a Racial Justice Issue, Amer. Civil Liberties
Union (Apr. 20, 2019), https://www.aclu.org/blog/criminal-law-reform/
drug-law-reform/marijuana-legalization-racialjustice-issue; Margaret Stevenson, Expungement: A Gateway to Work,
Sargent Shriver National Center on Poverty Law (Apr. 2015), https://
www.povertylaw.org/clearinghouse/articles/expungement.
\87\See Denni Avins, In the Age of Luxury Cannabis, It's Time to
Talk About Drug War Reparations, Quartz (Dan. 25, 2019), https://
qz.com/1482349/weed-and-reparations/.
\88\See id.
\89\See Resing, supra note 86.
Hearings
On Duly 10, 2019, the Subcommittee on Crime, Terrorism, and
Homeland Security held a hearing titled, "Marijuana Laws in
America: Racial Dustice and the Need for Reform,'' which
assisted in the development of the substance of the MORE Act.
Committee Consideration
On November 20, 2019, the Committee met in open session and
ordered the bill, H.R. 3884, favorably reported as an amendment
in the nature of a substitute, by a vote of 24 to 10.
Committee Votes

180

https://www.govinfo.gov/content/pkg/CRPT-116hrpt604/html/CRPT-116hrpt604-pt1 .htm

28/389

A

